   IG’s Message for the Secretary


                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           The Inspector General
                                                           Washington, D.C. 20230


   October 31, 2000

   The Honorable Norman Y. Mineta
   Secretary of Commerce
   Washington, DC 20230

   Mr. Secretary:

   I am pleased to provide you with the Office of Inspector General’s semiannual report to the Congress for
   the second half of fiscal year 2000. Section 5 of the Inspector General Act requires that you transmit this
   report, with any comments you may wish to add, to the appropriate congressional committees within
   30 days of its receipt.

   During this semiannual period, we continued to devote considerable resources to reviewing the
   Department’s efforts to address what we view as its top 10 management challenges. Our major focus was
   on the most visible and immediate challenge—improving the accuracy and controlling the cost of the 2000
   Decennial Census. As the Census Bureau completes its remaining work over the coming months, we will
   monitor its efforts and make recommendations aimed at ensuring that this decennial produces the most
   accurate results possible and that the lessons learned are applied in planning for the next decennial.

   We also report on the Department’s progress in meeting its other major challenges, describe three chal-
   lenges on which progress has been so substantial that we are removing them from the top 10 list, and
   discuss the challenges being added to the list to replace those being removed.

   Finally, I want to note that in addition to our reviews designed to identify fraud, waste, and abuse, we also
   continue to emphasize work aimed at preventing problems and promoting efficiency and effectiveness in
   Commerce programs and activities. For example, this report summarizes the findings of two comprehen-
   sive reviews of the processes by which the Department’s operating units make discretionary financial
   assistance awards and manage their interagency and other special agreements. It is my belief that by
   adopting our recommendations for improving these processes, the Department can prevent problems often
   associated with individual financial assistance awards and interagency agreements.

                                                      Sincerely,



                                                      Johnnie E. Frazier

   Enclosure


Commerce OIG Semiannual Report
September 2000
                                                                                                                   i
                          Table of Contents

     IG’S MESSAGE FOR THE CONGRESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
         Foreword . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
         Major Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
             Top 10 Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                 Increase the accuracy and control the cost of the 2000
                     Decennial Census . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
                 Successfully implement a Department-wide financial management
                     system . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                 Strengthen Department-wide information security . . . . . . . . . . . . . . . . . . . . . 7
                 Successfully implement USPTO’s transition to a performance-based
                     organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
                 Address the issues related to NTIS’s mission and financial viability . . . . . . .9
                 Enhance export controls for dual-use commodities . . . . . . . . . . . . . . . . . . . 10
                 Increase the effectiveness of fishery management . . . . . . . . . . . . . . . . . . . . 12
                 Continue to improve the Department’s strategic planning and
                     performance measurement in accordance with GPRA . . . . . . . . . . . . . . 12
                 Strengthen financial management controls in order to maintain a “clean”
                     opinion on the Department’s consolidated financial statements . . . . . . 13
                 Successfully implement acquisition reform initiatives . . . . . . . . . . . . . . . . . 14
             Update on Former Top 10 Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
         Resolution and Follow-Up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

     DEPARTMENT OF COMMERCE ORGANIZATION CHART. . . . . . . . . . . . . . . 20

     AGENCY OVERVIEWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
          Bureau of Export Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
          Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
          Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
          International Trade Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
          Minority Business Development Agency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
          National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . 51
          National Telecommunications and Information Administration . . . . . . . . . . . . . 58
          United States Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
          Technology Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65
          Departmental Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 70

     REPORTING REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 82

     STATISTICAL HIGHLIGHTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 86

     TABLES AND APPENDIXES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87

     DEFINITIONS OF TYPES OF OIG REVIEWS . . . . . . . . . . . . . . . . . . . . . . . . . .96

     GLOSSARY OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97

     OIG ORGANIZATION CHART AND POINTS OF CONTACT . .(Inside Back Cover)
                                                                                         Commerce OIG Semiannual Report
ii                                                                                                      September 2000
IG’s Message for the Congress

                                           FOREWORD
 Operating in an environment of severe budget constraints, we have, more than ever, had to carefully focus
 our efforts to achieve the greatest possible impact. A large portion of our resources have been targeted at
 evaluating the Department’s success in addressing its top 10 management challenges, which are discussed in
 detail in the pages immediately following. Among our major projects were reviews of the Census Bureau’s
 management of the 2000 Decennial Census and “capping” reports summarizing our reviews of two major
 issues that cut across multiple Commerce operating units: maximizing competition in discretionary financial
 assistance programs and properly managing interagency and other special agreements.

 ˜       We completed half a dozen reviews of decennial activities, including development of the critically
         important Master Address File, warehousing and leasing operations, and the telephone questionnaire
         assistance program. In addition, mindful of the need to maintain public confidence in the integrity of
         the population count, we are looking into a number of allegations of fraud and other improprieties in
         the conduct of the enumeration.

 ˜       In a comprehensive review of the Department’s discretionary financial assistance programs that
         grew out of a request by the Chairman, Senate Committee on Commerce, Science, and Trans-
         portation, we assessed whether the criteria, procedures, and practices used to make awards were
         designed to result in merit-based funding decisions. After completing audits of 33 individual
         programs operated by Commerce bureaus, we issued a capping report summarizing the results of
         the audits, identifying cross-cutting issues, highlighting best practices, identifying weaknesses, and
         recommending corrective actions.

 ˜       In another capping report, we summarized the findings of 10 reviews that examined how
         Commerce bureaus manage their interagency and other special agreements. In FY 1997, the
         Department had more than 4,700 such agreements, involving more than $1 billion. We concluded
         that although most of the agreements appeared to serve important functions related to departmental
         missions, increased oversight is needed to prevent or minimize problems. Among the problems we
         identified were bureaus using agreements when procurement contracts or financial assistance
         awards would have been more appropriate, failing to adequately track and control agreements, and
         failing to account for or recover the full costs incurred under agreements.

 Through these reviews, and the many others discussed throughout this report, we have attempted to provide
 objective analyses of the management and performance of Commerce programs and activities, and offer
 practical, constructive recommendations aimed at ensuring that the Department operates efficiently and
 effectively.




 Commerce OIG Semiannual Report
 September 2000
                                                                                                              1
                                      IG’s Message for the Congress


                                                                  MAJOR CHALLENGES
                                                                 FOR THE DEPARTMENT
Major Challenges for the Department




                                      In pursuing its programs and missions, the Depart-     TOP 10 MANAGEMENT
                                      ment of Commerce is faced with a number of
                                                                                             CHALLENGES
                                      problems, concerns, and difficult issues, including
                                      some that we view as major management chal-
                                                                                             We have identified these issues as the top 10
                                      lenges. In this section, we highlight what we con-
                                                                                             challenges because they meet one or more of the
                                      sider to be the “Top 10 Management Challenges”
                                                                                             following criteria: importance to the Department’s
                                      facing the Department. We also highlight the current
                                                                                             mission or the nation’s well-being, complexity,
                                      status of other management challenges that have
                                                                                             sizable expenditures, or need for significant
                                      been met or, for one reason or another, are being
                                                                                             management improvements. Given the diverse
                                      removed from the top 10 list.



                                                                                        Top 10 List
                                               1.     Increase the accuracy and control the cost of the 2000 Decennial
                                                      Census

                                               2.     Successfully implement a Department-wide financial management
                                                      system

                                               3.     Strengthen Department-wide information security

                                               4.     Successfully implement USPTO’s transition to a performance-
                                                      based organization

                                               5.     Address the issues regarding NTIS’s mission and financial viability

                                               6.     Enhance export controls for dual-use commodities

                                               7.     Increase the effectiveness of fishery management

                                               8.     Continue to improve the Department’s strategic planning and
                                                      performance measurement in accordance with GPRA

                                               9.     Strengthen financial management controls in order to maintain a
                                                      “clean” opinion on the Department’s consolidated financial
                                                      statements

                                               10.    Successfully implement acquisition reform initiatives




                                                                                                                Commerce OIG Semiannual Report
                                       2                                                                                       September 2000
                                                         IG’s Message for the Congress


nature of Commerce activities, a number of these         its cost. We have also conducted audits and
challenges cut across bureau and program lines. We       inspections of bureau activities and operations that
believe that, by addressing these challenges, the        may indirectly affect the bureau’s ability to conduct




                                                                                                                  Major Challenges for the Department
Department can enhance program effectiveness,            the decennial efficiently, effectively, and economi-
eliminate serious operational problems, decrease         cally. And finally, we are actively monitoring the
vulnerability to fraud and waste, and achieve            bureau’s actions to address our recommendations
substantial savings.                                     for correcting identified weaknesses, and are
                                                         continuing to mount an aggressive effort to audit,
Increase the Accuracy and                                inspect, and investigate issues relevant to the
                                                         accuracy and cost of the decennial. Some of the
Control the Cost of the                                  many sites we visited during our fieldwork are
2000 Decennial Census                                    depicted on the following page.

As it nears completion, the 2000 Decennial Census        In reviews completed during this semiannual period,
remains an enormous and complex undertaking.             we identified and reported on a number of problems
Some 77 million households have returned their           that need to be addressed in completing the current
census forms, and follow-up attempts have been           decennial and beginning to plan for the 2010
made with another 42 million households to collect       decennial. Specifically:
the census data. The Census Bureau is in the
process of checking the data and preparing the           ˜       An evaluation of the Master Address File,
population count to be released by December 31,                  the address list used to support decennial
2000. The accuracy of the count is crucial because,              operations, found that the bureau’s
among other things, it serves as the basis for deter-            reengineering of the file was not completed
mining how many seats each state will have in the                in time to ensure high-quality address data
House of Representatives.                                        for labeling questionnaires. The bureau also
                                                                 needs to take additional steps to increase
The bureau has also embarked on a program to                     data quality, improve its software engineer-
sample the population of the United States in an                 ing standards, and report on its success in
attempt to measure the undercount and overcount in               meeting housing unit accuracy and com-
the decennial and to increase the accuracy of the                pleteness goals through the mechanisms
counts through statistical adjustment. The bureau                provided for under the Government Per-
proposes to make the adjusted counts available for               formance and Results Act of 1993 (GPRA).
states to use for redistricting and for other purposes           (See page 26.)
by April 2001. In recognition of the immense chal-
lenge posed by the decennial census and its related      ˜       In response to an anonymous complaint, we
operations, the Administration, the Department, and              looked into allegations that decennial
the Congress continue to provide significant over-               workers trained at the Hialeah, Florida, local
sight and management support.                                    census office had falsified data and used
                                                                 inappropriate procedures while working at
Similarly, oversight of the decennial remains one of             three local offices in southern Florida. Our
our top priorities. Since 1994 we have issued nearly             review revealed that (1) at one office, some
30 audit and inspection reports on various aspects of            enumerators had not made the required
the bureau’s decennial efforts and have made                     number of visits and telephone calls to
numerous recommendations aimed at helping to                     households, (2) at another, some crew
improve the accuracy of the decennial and control                leaders had not adequately reviewed

Commerce OIG Semiannual Report
September 2000
                                                                                                            3
                                      IG’s Message for the Congress
Major Challenges for the Department




                                          questionnaires, and (3) at the third, quality   ˜   An inspection of decennial leasing
                                          control procedures had not been properly            operations found that notwithstanding some
                                          implemented. When informed of our                   operational problems, the partnership
                                          findings, the bureau took decisive action by        between the Census Bureau and the General
                                          re-enumerating the questionnaires involved          Services Administration successfully estab-
                                          to ensure the integrity of the data collected       lished a network of more than 1,000 decen-
                                          by these offices. (See page 28.)                    nial offices. However, the bureau needs to
                                                                                              thoroughly assess its overall leasing costs,
                                      ˜   An audit of decennial warehousing                   benefits, and results to determine whether a
                                          operations concluded that the bureau                similar partnership should be used in 2010.
                                          needed to address two problem areas:                In terms of lessons learned for future
                                          First, because of delays in finalizing the          decennials, we noted, among other things,
                                          contents of kits used to conduct various            that telecommunications system planning
                                          field operations, items needed for the kits         should have been better coordinated and file
                                          were often not in stock and the delivery of         management should have been standardized
                                          kits to the field was delayed. Second, two          across regions. (See page 32.)
                                          bureau offices involved in specifying the
                                          contents of the various kits had differences    ˜   A review of the Telephone Questionnaire
                                          in their kit specification lists. We reported       Assistance program, under which a
                                          that both of these problems had the                 contractor developed a system to allow
                                          potential to cause disruptions and delays in        respondents to call toll-free to ask questions
                                          field office operations. (See page 30.)             or complete the form over the telephone,



                                                                                                              Commerce OIG Semiannual Report
                                      4                                                                                      September 2000
                                                          IG’s Message for the Congress


        found that the bureau had not developed a         States. The bureau has also completed interviews of
        contract administration and surveillance          314,000 households selected for its Accuracy and
        plan. Such a plan ensures that the govern-        Coverage Evaluation operation, a quality check




                                                                                                                  Major Challenges for the Department
        ment receives the quality of services called      survey designed to measure the accuracy of the
        for under the contract and pays only for          census through the use of statistical sampling. Over
        services received. (See page 34.)                 the next few months, the bureau will, among other
                                                          things, finish processing completed questionnaires,
˜       Following the 1990 decennial, we reported         match the quality check results to those of the
        that millions of dollars in unemployment          decennial, and reconcile any differences between the
        benefits may have been unnecessarily paid         two. In addition to evaluating these ongoing efforts,
        to employees because their terminations           we will continue to review various other aspects of
        were not adequately documented, and we            the bureau’s efforts to address the challenge of
        recommended corrective action. In a recent        increasing the accuracy of the 2000 decennial.
        inspection, we found that, for the 2000
        decennial, in the vast majority of cases, the     Successfully Implement
        bureau was doing an adequate job of
                                                          a Department-Wide
        documenting the bases for such
        terminations. (See page 36.)                      Financial Management System

˜       Our review of the decennial special               The Department has had an extremely difficult time
        population enumerations and questionnaire         developing and implementing a single, integrated
        assistance centers identified several issues to   financial system. For more than 10 years,
        be considered in planning for the 2010            Commerce’s lack of such a system has been
        decennial. Specifically, too little time was      reported as a material internal control weakness in
        allowed for enumerator training, late             the Secretary’s annual reports to the President under
        delivery of supplies caused problems, some        the Federal Managers’ Financial Integrity Act. It has
        homeless shelters and soup kitchens were          generally been reported that:
        not visited by enumerators, and the
        effectiveness of the assistance centers                   “Many of the Department’s financial
        varied. (See page 40.)                                    systems are seriously outdated and
                                                                  fragmented; they are unable to provide
As might be expected with any undertaking of this                 timely, complete and reliable financial
magnitude and complexity, our office has received a               information; they are inadequately
significant number of complaints and allegations of               controlled; and they are costly and difficult
wrongdoing relating to decennial operations through               to maintain. The financial systems, taken as
the OIG Hotline and other sources. These                          a whole, are not compliant with GAO
complaints and allegations covered a wide range of                principles and standards, nor with
issues, from routine payroll concerns to charges of               requirements of the CFO Act, the Joint
mismanagement, discrimination, and fraudulent                     Financial Management Improvement
enumeration. (See page 41.)                                       Program (JFMIP), or OMB.”

The Department continues to face challenges in            To correct this weakness, Commerce began
completing the 2000 decennial. As of September 30,        planning for the acquisition and development of a
2000, the bureau had completed the enumeration            Department-wide financial system in 1992 and
phase for the 120 million households in the United        awarded a contract for system development in 1994.

Commerce OIG Semiannual Report
September 2000
                                                                                                            5
                                      IG’s Message for the Congress


                                      However, notwithstanding large investments of time      Despite the serious difficulties that were encountered
                                      and resources, implementation of the system, known      with the implementation of CAMS, we believe that
Major Challenges for the Department




                                      as the Commerce Administrative Management               FY 1999 marked a turning point for the Department
                                      System (CAMS), progressed slowly.                       in its efforts to improve its financial management
                                                                                              systems and resolve this major management
                                      To improve the reliability of the system develop-       challenge. Most notably:
                                      ment effort, in FY 1997 the Department added
                                      contractor support to augment the work of the           ˜       The Bureau of the Census continued full
                                      original prime contractor. Assisted by a private                production of core CAMS; deployed access
                                      consulting firm, the Department also conducted a                to regional and decennial census sites;
                                      review of CAMS to address concerns about costs                  implemented additional modules for travel,
                                      incurred and schedule delays. In FY 1998, based on              budget, and inventory functions; and
                                      the results of the review, the Department redefined             deployed a data warehouse, making access
                                      the composition and functionality of CAMS and                   to financial information easier and more
                                      drastically revised the CAMS implementation                     timely for program managers.
                                      strategy. The Department also reorganized its
                                      systems development project management structure.       ˜       After determining that the Department of
                                                                                                      the Interior’s National Business Center
                                      The revised strategy called for pilot implementation            could not provide financial services at a
                                      and testing of the redefined CAMS (core CAMS) at                lower cost and risk than could be achieved
                                      the Census Bureau before implementing the system                through the implementation of CAMS,
                                      at other bureaus. The pilot implementation of core              NOAA continued with its CAMS imple-
                                      CAMS at Census was completed in June 1998. A                    mentation efforts. Despite funding shortfalls
                                      consulting firm under contract with the Department              for CAMS, NOAA has restructured its
                                      to perform verification and validation of the system            implementation schedule so that a line office
                                      at Census concluded that it met departmental                    will be fully operational in October 2001,
                                      requirements and was as good as or better than                  with full implementation expected in 2003.
                                      other core financial management systems that have
                                      been implemented at other large federal agencies.       ˜       ITA entered into a cross-servicing
                                                                                                      agreement with Interior’s National Business
                                      The Department’s current strategy is to replace non-            Center for full-scope accounting services
                                      compliant systems with ones that are compliant, and             that took effect in August 1999. The
                                      develop a Department-wide financial database                    center’s accounting system is compliant
                                      (commonly referred to as the Corporate Database)                with OMB and JFMIP requirements. ITA’s
                                      that will integrate financial data from all reporting           prior accounting system was not compliant
                                      entities and produce the consolidated financial                 with these requirements and contributed to
                                      statements, as required by OMB. During FY 1999,                 the bureau’s inability to produce auditable
                                      the Department began developing the database and                financial statements in 1998.
                                      completed the development of functional
                                      requirements, basic programming, and draft user         ˜       EDA began using CAMS as the official
                                      instructions. The Department expects that the                   accounting system for its financial assistance
                                      database, when implemented, will comply with                    programs on October 1, 1999.
                                      OMB’s requirements.




                                                                                                                  Commerce OIG Semiannual Report
                                       6                                                                                         September 2000
                                                         IG’s Message for the Congress


˜       The Office of the Secretary, which is            Strengthen Department-wide
        serviced by NIST, will implement CAMS            Information Security




                                                                                                                   Major Challenges for the Department
        early in FY 2001. After successful operation
        of the system there during the first half of
                                                         Protecting the Department’s computer systems from
        FY 2001, NIST plans to implement CAMS
                                                         cyber-attack is a significant challenge today and will
        at its remaining client sites by October 1,
                                                         continue to be so in the future. The number of
        2001. NIST plans to complete system
                                                         cyber-attacks on our nation’s computer systems has
        implementation by the end of FY 2003.
                                                         grown dramatically over the last few years and is
                                                         projected to grow at an even faster rate in the
Future improvements will require both significant
                                                         future. The sophistication of such attacks also
resources and the commitment and continued
                                                         continues to increase, posing a severe threat to
attention of senior management. By FY 2004, the
                                                         computer system security. Research has shown that
Department plans to have all 14 of its reporting
                                                         cyber-attacks are carried out not just by hackers, but
entities operating under compliant financial
                                                         by foreign governments and organized criminal and
management systems integrated with the Corporate
                                                         terrorist groups with harmful intent.
Database.
                                                         A large number of interconnected, widely distributed
Given the large amounts of time and money that
                                                         computer systems support vital Commerce
have already been invested in CAMS imple-
                                                         operations and provide essential services to the
mentation, the critical need for a reliable financial
                                                         public. As the Department’s systems have become
management system, and the remaining obstacles to
                                                         more widely distributed and interconnected, security
be overcome in implementing the system, we believe
                                                         vulnerabilities have also increased, creating a need to
that it is important to closely monitor and review
                                                         improve procedural and technical security measures.
selected aspects of the Department’s progress in
                                                         Strong computer security measures are vital to
implementing core CAMS in its reporting entities.
                                                         protect the secrecy and privacy of information, the
For example, during this semiannual period, we
                                                         integrity of computer systems and their networks,
conducted a review of the application change
                                                         and the availability of services to users.
controls in place at the CAMS Support Center, and
determined that improvements were necessary (see
                                                         In August we completed a review of the
page 77). Department officials generally agreed with
                                                         Department’s initial implementation of Presidential
our assessment, and we will continue to coordinate
                                                         Decision Directive 63, which was created in part to
with them to resolve these issues. Additionally, in
                                                         address the growing cyber-threat (see page 75). This
the coming fiscal year, we plan to review CAMS
                                                         directive establishes a national program to assure the
management and the issues associated with the
                                                         security of cyber-based systems essential to the
system’s full deployment.
                                                         operations of the U.S. economy and government.
                                                         The review was the first of a planned two-phase
Until the Department is in compliance with the
                                                         assessment of cyber-related critical infrastructure
federal requirement for a single, integrated financial
                                                         protection performed under the auspices of the
system, we will view the Department’s efforts to
                                                         President’s Council on Integrity and Efficiency.
develop such a system as a major challenge
warranting the close attention of senior officials and
                                                         The first phase covered the Department’s critical
continued oversight by our office.
                                                         infrastructure protection plan, the prioritized list of
                                                         computer systems identified as critical to the



Commerce OIG Semiannual Report
September 2000
                                                                                                               7
                                      IG’s Message for the Congress


                                      Department, and system security vulnerability           Successfully Implement
                                      assessments. The second phase will evaluate the
                                                                                              USPTO’s Transition to a
Major Challenges for the Department




                                      Department’s plans and strategies for mitigating
                                      system security vulnerabilities, responding to a        Performance-Based Organization
                                      coordinated cyber-attack, obtaining any additional
                                      resources needed to implement vulnerability             The American Inventors Protection Act of 1999
                                      mitigation plans, and recruiting, retaining, and        (P.L. 106-113), which was signed into law on
                                      educating information security personnel.               November 29, 1999, established the U.S. Patent and
                                                                                              Trademark Office as a performance-based
                                      In addition, we are currently evaluating the            organization (PBO), which provides it with greater
                                      Department’s information technology security            flexibility and independence so that it can be run
                                      program policy and management. Included in the          more like a business. As a PBO, USPTO has
                                      evaluation are selected operating units’ program-,      increased authority and responsibility for decisions
                                      issue-, and system-level policy and management.         regarding the management and administration of its
                                      We will report on the results of this review in our     operations, and it exercises more independent
                                      next semiannual report. We are also evaluating the      control of its budget allocations and expenditures,
                                      security of the Department’s preparation and release    personnel decisions and processes, and procurement
                                      of the Principal Economic Indicators.                   operations. USPTO’s transition to a PBO officially
                                                                                              began on March 29, 2000.
                                      The reliability of computerized data and of the
                                      systems that process, maintain, and report financial    Despite the act’s potential benefits, the transition is a
                                      data is also a major concern. Therefore, as part of     formidable undertaking. USPTO must formulate the
                                      the Department’s FY 2000 financial statements           necessary personnel, procurement, and adminis-
                                      audits, we contracted for and are continuing to         trative policies and develop a performance-based
                                      oversee security reviews of each of Commerce’s          process with standards for evaluating cost-
                                      financial management systems and their related          effectiveness, while meeting its performance goals
                                      networks. These reviews include “intrusion              under GPRA. USPTO management views the
                                      detection analysis”—also called “penetration            passage of the act and the transition to a PBO as
                                      testing”—of selected bureaus and use as a guide         critical in addressing two primary challenges, both of
                                      GAO’s Federal Information System Controls Audit         which have been the subject of OIG reviews in
                                      Manual.                                                 recent years.

                                      The GAO manual provides guidance on control             First, USPTO has experienced a massive increase in
                                      objectives that auditors should consider when           patent and trademark filings and appeals, leading to
                                      assessing and evaluating the reliability of computer-   the hiring of hundreds of new examiners and
                                      generated data that supports financial statements.      administrative judges. In FY 1999, USPTO received
                                      This assessment includes a review of the physical       more than 272,000 patent applications and 297,000
                                      security and logical access controls designed to        trademark applications, representing 13-percent and
                                      prevent or detect unauthorized access or intrusion      27-percent increases, respectively, over FY 1998,
                                      into systems and networks. Strong systems security      and continuing a trend of double-digit percentage
                                      controls are considered essential for protecting the    increases in recent years. To address this increased
                                      integrity and confidentiality of sensitive files and    demand on its human resources, USPTO hired more
                                      data. We will report on the findings of these systems   than 1,500 patent examiners and 200 trademark
                                      security reviews during the next semiannual period.     examiners during FY 1998 and 1999.


                                                                                                                   Commerce OIG Semiannual Report
                                       8                                                                                          September 2000
                                                          IG’s Message for the Congress


In prior audits of the Office of Patent Publications      its increased focus on operational efficiency and new
(see September 1999 issue, page 58) and the Board         provisions requiring information technology solu-
of Patent Appeals and Interferences (see September        tions, the act will intensify the demands placed on




                                                                                                                   Major Challenges for the Department
1998 issue, page 64), we reported on some of the          automated systems and further strain USPTO’s
issues facing USPTO in connection with the hiring         ability to deliver systems.
and training of these examiners and additional
administrative judges to hear examination appeals.        For example, under the new law, patent applications
USPTO’s new status will allow it greater flexibility      that have been filed abroad must be published within
to design performance and retention programs with         18 months of their U.S. filing date, and USPTO has
incentives for these highly skilled employees, who        decided to publish the applications in electronic
are often recruited by private sector companies, law      form. Implementation of this and other provisions of
firms, and search firms. According to USPTO               the law will require new and enhanced systems. We
management, the PBO transition will enable it to          are currently completing an evaluation of the imple-
more efficiently manage its resources and make the        mentation of USPTO’s new search systems. As we
rapid decisions needed to process the increased           will report during the next semiannual period,
number of patent and trademark filings and appeals        USPTO’s experience with these systems offers
in a timely manner, while maintaining high quality.       important lessons for improving systems acquisition
                                                          and development in the future.
Second, as they move through this transition,
USPTO managers, along with the General Services           Address the Issues Related
Administration, will also have the formidable
challenge of overseeing one of the largest real estate
                                                          to NTIS’s Mission and
ventures that the federal government will undertake       Financial Viability
in this decade—the construction of USPTO’s new
2.4 million-square-foot, five-building office complex     In recent years, questions have been raised by
in Alexandria, Virginia. When completed in 2004,          various sources about NTIS’s future—namely:
the new complex will provide space for USPTO
employees and operations currently scattered among        ˜       What should the agency’s role and
approximately 18 buildings in nearby Crystal City.                mission be in the 21st century?

Now that GSA has awarded the development                  ˜       Can it support itself as currently authorized
contract, USPTO’s challenge is to aggressively hold               and, if not, what should be done?
the line on project costs, including remaining within
the legislatively mandated cap on the cost of com-        In our September 1999 issue (see page 7), we
pleting the build-out of the building’s interior once     discussed our concern that disappointing operating
the structure is in place. After construction starts in   results continued to call into question NTIS’s ability
early calendar year 2001, we will conduct follow-up       to be self-sustaining. In FY 1999, total revenue
work in order to stay abreast of USPTO’s project          dropped by $3.4 million to $33.3 million, and only
management and the cost control measures it plans         by taking aggressive cost-cutting actions, such as
to put in place for the building structure, interior      transferring some of its staff to other Commerce
build-out, and new furniture.                             agencies, was NTIS able to avert a loss and report a
                                                          surplus of $652,000 at the end of the year. NTIS is
USPTO faced enormous challenges in trying to              projecting a surplus of over $2 million for FY 2000,
deliver essential information technology capabilities     which agency officials attribute primarily to reduced
before the enactment of the PBO legislation. With         spending on key information technology.

Commerce OIG Semiannual Report
September 2000
                                                                                                             9
                                      IG’s Message for the Congress


                                      While drastic cost-cutting measures may resolve         controversy, generating a wide range of opinions on
                                      NTIS’s problems in the short-run, they cannot help      how well the government’s export control policies
Major Challenges for the Department




                                      the agency solve its major problem—a steady             and practices balance the need to protect U.S.
                                      decline in the sales of its products and services       national security and foreign policy interests with the
                                      caused by fundamental changes in the marketplace.       desire not to unduly hamper U.S. trade opportunities
                                                                                              and competitiveness. Striking this balance can pose a
                                      To address these NTIS-related issues, the               significant challenge.
                                      Department formed a working group made up of
                                      senior managers from the Department and the             To strengthen the U.S. government’s export
                                      Technology Administration. Based on the group’s         licensing and enforcement process, new
                                      efforts, the Department developed a legislative         comprehensive legislative authority is needed to
                                      proposal that would provide for closing NTIS by the     replace the Export Administration Act of 1979 and
                                      end of FY 2000 and transferring its collection of       implement effective export control policies. The act
                                      scientific, technical, business, and engineering        was passed during the Cold War primarily to help
                                      publications to the Library of Congress to ensure       block the export of critical goods and technologies to
                                      permanent public access to such documents.              the Communist bloc countries for national security
                                                                                              reasons. In the post-Cold War era, there are new
                                      Due to congressional concerns, the closure was          threats to U.S. national security and foreign policy
                                      delayed pending the outcome of both a GAO review        goals posed by rogue countries and terrorist groups
                                      of NTIS’s functions and a comprehensive study by        who seek to acquire weapons of mass destruction
                                      the U.S. National Commission on Libraries and           and weapon delivery systems.
                                      Information Science of overall U.S. government
                                      public information dissemination. The results of the    A comprehensive revision of the act is also needed
                                      GAO review are scheduled to be provided to the          to strengthen BXA’s regulatory authority and
                                      Congress by mid-February 2001, and the results of       penalties, which have been weakened under interim
                                      the Commission’s review are scheduled to be             export control regulations, and to demonstrate that
                                      released on December 15, 2000. The Commission           the United States is firmly committed to maintaining
                                      has already issued one position paper and held          strong export controls as it encourages other
                                      public hearings on the matter. The continuing           countries to do the same.
                                      challenge for the Department is to work closely with
                                      the Congress and other stakeholders to reach            Given the importance of export licensing controls to
                                      agreement on the future of NTIS.                        national security, we have devoted considerable
                                                                                              attention to the challenges facing BXA in issuing
                                      Enhance Export Controls for                             licenses authorizing the export of certain goods and
                                                                                              technologies that have both civilian and military
                                      Dual-Use Commodities                                    uses. In 1993 we participated in a special inter-
                                                                                              agency review of export licensing processes for
                                      The United States controls the export of certain        munitions and dual-use commodities (see September
                                      goods and technologies for national security and        1993 issue, page 15). The 1993 report highlighted
                                      foreign policy (including nonproliferation) purposes.   the need for more transparency in the dual-use
                                      Within Commerce, the Bureau of Export                   export licensing process. In response to this need, in
                                      Administration issues licenses authorizing the export   1995 the President issued Executive Order 12981,
                                      of certain dual-use commodities—goods and               which expanded the authority of the Defense and
                                      technologies that have both civilian and military       State Departments and other involved federal
                                      uses. Dual-use controls are a subject of continuing     agencies to review all export license applications.

                                                                                                                   Commerce OIG Semiannual Report
                                      10                                                                                          September 2000
                                                          IG’s Message for the Congress


In October 1998, in response to a request from the        To meet the first year reporting requirement, each
Senate Governmental Affairs Committee, the OIGs           OIG reviewed its agency’s export controls and
of the Departments of Commerce, Defense, Energy,          counterintelligence measures and reported on the




                                                                                                                    Major Challenges for the Department
State, and the Treasury, and the Central Intelligence     results. Two interagency reports highlighting cross-
Agency, undertook a follow-up review to evaluate          cutting issues were also prepared. Our report
the status of actions taken to implement the              focused on three activities that the Commerce
recommendations from the 1993 review. We also             Department, principally through BXA, carries out or
evaluated the effectiveness of the Department’s           participates in to help prevent the illicit transfer of
current policies, procedures, and practices for           sensitive U.S. technology: deemed export controls,
licensing dual-use goods and technologies. In our         the Visa Application Review Program, and the
report, issued in June 1999, we stated our conclu-        Committee on Foreign Investment in the United
sion that the multi-agency licensing process for U.S.     States (see March 2000 issue, page 21).
dual-use exports is balanced and appropriately
considers divergent policy views and information in       To comply with the second year requirement of the
deciding on export license applications (see              act, the current interagency OIG review is focused
September 1999 issue, page 17).                           on the Commerce Control List and the U.S. Muni-
                                                          tions List (maintained by the State Department). In
While our report described significant areas of           Commerce, we plan to assess BXA’s policies and
improvement in export controls since our 1993             procedures for developing, maintaining, and revising
work, it also identified some weaknesses in the           the dual-use Commerce list in order to adequately
licensing process that still need to be addressed.        protect against the export of militarily sensitive
Specifically, we found that (1) more transparency is      technologies and commodities. In particular, we will
needed in the commodity classification and license        evaluate the process for determining whether an
appeals processes, (2) the intelligence community         item goes on the Commerce Control List or the U.S.
does not review all dual-use export license               Munitions List, as well as the policies and proce-
applications or always conduct a comprehensive            dures for considering amendments and revisions to
analysis of applications it does review, (3) license      the Commerce list. In addition, we will determine
applications need to be screened against a key            whether there is still a need for greater transparency
database maintained by the U.S. Customs Service,          in Commerce’s commodity classification process, as
(4) BXA needs to improve its monitoring of license        noted in our June 1999 report. Finally, we will
conditions with reporting requirements, and (5) BXA       determine whether there is a need for transparency
needs a new automated system to process export            in State’s commodity jurisdiction process.
license applications efficiently and effectively.
                                                          However, the challenge continues for BXA, as well
In October 1999, the National Defense Authoriza-          as the Administration and the Congress, to pass a
tion Act for FY 2000 directed the same six OIGs to        comprehensive revision of the Export Administration
report to the Congress by March 30, 2000, on the          Act and to focus the federal government’s licensing
adequacy of current export controls and counter-          and enforcement efforts on targeting those exports
intelligence measures to prevent the acquisition of       that present the greatest proliferation and national
sensitive U.S. technology and technical information       security risks and on streamlining or eliminating
by countries and entities of concern. The act also        controls that unnecessarily hamper trade. Through
requires a similar report to be provided annually until   our export control reports, we hope to play a useful
the year 2007.                                            role in congressional and public debates on the
                                                          reauthorization of the Export Administration Act and
                                                          the revamping of the nation’s export controls. We

Commerce OIG Semiannual Report
September 2000
                                                                                                             11
                                      IG’s Message for the Congress


                                      will continue to monitor BXA’s efforts to improve         We are currently focusing our attention on NMFS’s
                                      dual-use export controls through the annual reports       leadership role in the Northwest Salmon Recovery
Major Challenges for the Department




                                      required under the Defense Authorization Act.             Effort—a combined response by various federal
                                                                                                agencies, state governments, tribal governments, and
                                      Increase the Effectiveness                                other organizations to restore salmon runs in the
                                                                                                Columbia River Basin that have been listed for
                                      of Fishery Management                                     protection under the Endangered Species Act of
                                                                                                1973. The primary objective of our review is to
                                      Ensuring healthy stocks of fish and other marine          assess how well NMFS has fulfilled its leadership
                                      animals in the coastal waters beyond each state’s         responsibility under the act and how effectively it
                                      jurisdiction is a federal responsibility carried out      has communicated and collaborated with the other
                                      principally by NOAA’s National Marine Fisheries           participants.
                                      Service (NMFS) and eight regional fishery
                                      management councils under the Magnuson-Stevens
                                      Fishery Conservation and Management Act of 1976,          Continue to Improve the
                                      as amended. Among other things, NMFS and the              Department’s Strategic Planning
                                      councils track the condition of fish and other marine     and Performance Measurement in
                                      species, determine the levels of catch that will
                                                                                                Accordance with GPRA
                                      provide the greatest benefit to the nation, and
                                      measure the economic impacts of fishery regulations
                                      and policies. Measures to manage various species          Despite the inherent difficulties encountered in
                                      are generally developed by the councils, subject to       determining how to best plan and measure its
                                      review by NMFS and approval by the Secretary of           performance in accordance with GPRA, the
                                      Commerce. These measures are often controversial          Department has continued to make progress in
                                      because they impose fish quotas that affect both the      meeting this challenge. The Department submitted
                                      survival of a species and the economic health of the      its third Annual Performance Plan, for FY 2001, in
                                      fishing industry and many coastal communities.            February 2000 and its first Annual Program
                                                                                                Performance Report, for FY 1999, in March 2000.
                                      A recent GAO report concluded that NMFS appears           The submission of the Department’s first Annual
                                      to be using the best available scientific information     Program Performance Report brought to a close the
                                      to determine the condition of fish and other marine       first full cycle of GPRA activity that began in 1996.
                                      species, that it appropriately considers the economic     Also, the Department submitted its initial Account-
                                      impacts of conservation and management measures           ability Report, which reports both financial and
                                      on fishing communities, and that it has technically       performance results, for FY 1999, on March 1,
                                      met the requirements of the Magnuson-Stevens Act          2000.
                                      by identifying essential fish habitats and developing a
                                      consultative process for addressing potential adverse     While the Congress, GAO, and the OIG all agreed
                                      impacts to those habitats. However, GAO concluded         that the Department’s FY 2000 Annual Performance
                                      that improvements were needed in all three areas          Plan was significantly better than its FY 1999 plan,
                                      and made recommendations to strengthen NMFS’s             it was also recognized that there was room for
                                      data collection efforts, improve communications           additional improvement. Of particular concern was
                                      between the government and the fishing industry,          the need for the Department to ensure that the data
                                      improve economic analysis, and identify the costs of      to be used in measuring performance is accurate,
                                      achieving compliance with the act’s fish habitat          complete, and reliable. The FY 2001 plan and
                                      provisions.                                               FY 1999 performance report reflect the


                                                                                                                    Commerce OIG Semiannual Report
                                      12                                                                                           September 2000
                                                           IG’s Message for the Congress


Department’s continued efforts to improve strategic       of performance measurement and reporting at BXA
planning. Additional improvements could be made           and NTIA, offering recommendations for improving
to ensure that reported data is credible, modify the      the reporting of performance information and for




                                                                                                                   Major Challenges for the Department
system for scoring and communicating performance          strengthening internal controls (see pages 21 and
results, and more fully discuss performance targets       58). We also have ongoing an audit designed to,
not met and efforts to improve performance. While         among other things, identify the best practices for
the Department has been responsive to past                verifying and validating performance measures at
criticisms of the documents it has produced to meet       business centers operated by EDA, ITA, MBDA,
GPRA requirements, continued management                   and NIST. Several other reviews, while not
attention is essential.                                   necessarily directed at GPRA implementation, have
                                                          identified issues related to the identification of
We have regularly provided advice and assistance to       performance measures and the reporting of per-
the Department on the implementation of GPRA, as          formance information (see, for example, pages 26
well as on the linkage between the act’s required         and 61).
performance reporting and the financial reporting
contained in the annual financial statements. We          Strengthen Financial Management
have made presentations to departmental officials on
the importance of ensuring that the information
                                                          Controls in Order to Maintain a
related to performance results can be relied upon,        “Clean” Opinion on the
and have provided informal comments on various            Department’s Consolidated
GPRA-related documents. We worked with the                Financial Statements
Department in its efforts to develop an Account-
ability Report that contains a statement of net cost
                                                          The Chief Financial Officers Act of 1990, the
that accurately reflects the Department’s activities,
                                                          Government Performance and Results Act of 1993,
and a management discussion and analysis that
                                                          the Government Management Reform Act of 1994,
reports its most significant performance results. In
                                                          and the Federal Financial Management Improvement
response to a May 2000 request, we provided our
                                                          Act of 1996 were designed to improve the financial
analysis of the Department’s FY 1999 GPRA
                                                          management practices of federal agencies. The
Annual Performance Report and related
                                                          statutes require audited financial statements that
performance plans to the Chairman of the Senate
                                                          present an entity’s financial position and results of
Committee on Governmental Affairs.
                                                          operations, as well as other information needed by
                                                          the Congress, agency executives, and the public to
A substantial challenge for the Department is to
                                                          assess management’s performance.
ensure that its second strategic plan provides
appropriate focus and direction for its future actions.
                                                          Despite many obstacles—including the absence of a
The Department’s initial strategic plan drew criticism
                                                          single, integrated financial management system—the
from both the Congress and GAO. Also, the
                                                          Department received its first-ever unqualified (clean)
Department needs to address concerns raised about
                                                          opinion on its FY 1999 consolidated financial state-
its initial annual performance report.
                                                          ments. This was a noteworthy achievement, largely
                                                          attributable to the leadership and commitment that
We will continue to monitor the Department’s
                                                          the Secretary, the Deputy Secretary, and the Chief
efforts to implement GPRA, provide advisory
                                                          Financial Officer demonstrated in working with
comments on GPRA-related documents, and, where
                                                          bureau managers and our office.
resources permit, perform targeted reviews of
GPRA-related issues. We recently completed audits

Commerce OIG Semiannual Report
September 2000
                                                                                                            13
                                      IG’s Message for the Congress


                                      Although substantial improvements have been made         We are pleased with the Department’s continued
                                      in financial management, further improvements are        focus on strengthening financial management con-
Major Challenges for the Department




                                      essential in order for the Department and its            trols. However, maintaining clean audit opinions on
                                      reporting entities to correct the material weaknesses    the Department’s consolidated financial statements,
                                      and other deficiencies identified in the FY 1999         as well as all reporting entity statements, is a major
                                      audits and to maintain their clean opinions in future    challenge.
                                      years. (Material weaknesses are serious flaws in the
                                      design or operation of an internal control component     Successfully Implement
                                      that increase the risk that errors, fraud, or non-
                                                                                               Acquisition Reform Initiatives
                                      compliance in material amounts may occur and not
                                      be readily detected.)
                                                                                               The Department of Commerce and other federal
                                      The FY 1999 audits identified 7 material                 agencies are increasingly relying on contractors to
                                      weaknesses, 12 reportable conditions, and several        provide the goods and services essential to their
                                      instances of noncompliance with laws and regula-         operations. The Department spends more than
                                      tions that need to be resolved at the reporting entity   $1 billion each year, about one-quarter of its annual
                                      level. Though these numbers represent a significant      appropriations, through large contracts and
                                      decrease from previous years, these matters still        simplified acquisitions.
                                      represent obstacles that the Department must
                                      overcome to avoid jeopardizing the clean opinions.       The Federal Acquisition Streamlining Act of 1994
                                      The Department recognizes that ongoing efforts are       substantially revised federal procurement law. The
                                      needed to create a financial management                  act encouraged the use of commercial items;
                                      environment that provides timely, accurate financial     performance-based service contracting; and past
                                      and performance information and complies with            performance as a major evaluation criterion for
                                      federal laws and regulations. In its FY 1999             award. It also reduced paperwork, permanently
                                      Accountability Report, the Department describes its      raised the threshold for simplified acquisition
                                      three major financial management initiatives:            procedures from $25,000 to $100,000, and
                                                                                               promoted electronic commerce.
                                      ˜       Improving financial accountability by
                                                                                               The Federal Acquisition Reform Act of 1996
                                              strengthening the integrity of financial
                                                                                               provided for governmentwide acquisition reform,
                                              operations and providing guidance to
                                                                                               including the repeal of the Brooks Act (covering
                                              reporting entities.
                                                                                               automated data processing procurements), shortened
                                                                                               the time allowed for GAO to issue bid protest
                                      ˜       Improving financial management
                                                                                               decisions, revised the Procurement Integrity Act,
                                              systems through the CAMS development
                                                                                               and fostered the professionalism of acquisition
                                              project.
                                                                                               personnel. The Information Technology Manage-
                                                                                               ment Reform Act of 1996 provided new guidance
                                      ˜       Developing human resources by                    on the procurement of information technology
                                              establishing financial leadership positions at   resources. These two laws were combined and
                                              all bureaus and developing a professional        renamed the Clinger-Cohen Act of 1996.
                                              education program.




                                                                                                                    Commerce OIG Semiannual Report
                                      14                                                                                           September 2000
                                                         IG’s Message for the Congress


Although these new laws aim to promote greater           The purpose of acquisition reform and its
efficiency and procurement uniformity among              streamlining initiatives is to reduce the time and
government agencies, GAO recently reported some          money spent in acquiring needed goods and services




                                                                                                                  Major Challenges for the Department
concerns about the implementation of acquisition         by relying on the competitive marketplace. At the
reform. Specifically, GAO reported problems in the       same time, the added focus on past performance
use of government-wide agency contracts                  and performance-based service contracting requires
(GWACs), finding that agencies have often                a new approach to monitoring contractor
employed various tactics to avoid holding required       performance by relying on performance-based
vendor competitions, essentially making sole-source      measurement tools, such as earned value and risk
awards. In addition, agencies have exhibited a           management. It also requires acquisition teams
tendency to make awards to large businesses,             (including the contracting officer and the contracting
thereby reducing the number of awards to small and       officer’s technical representative) to develop
disadvantaged businesses.                                specialized skills as business managers. Given the
                                                         general concerns expressed by GAO and the Office
In an ongoing study, the Office of Federal               of Federal Procurement Policy, and the specific
Procurement Policy has also identified weaknesses        concerns voiced by our office, we believe that the
in procurement rules that have enabled some              implementation of acquisition streamlining initiatives
agencies to avoid competition, particularly in the use   within the Department of Commerce warrants extra
of GWACs and other multiple award contracts. That        scrutiny.
office has serious concerns about service contract-
ing, particularly many agencies’ lack of focus on        UPDATE ON FORMER
results. Likewise, we have identified specific
problems at Commerce concerning improper use of
                                                         TOP 10 CHALLENGES
task order contracts, inadequate documentation of
market surveys, insufficient planning for contract       Given the dynamics, diversity, and complexity of
administration and monitoring, and inadequate            Commerce programs and activities, we maintain the
administration of the purchase card program.             top 10 list on an ongoing basis, and as challenges are
                                                         met or greatly reduced in significance, we remove
The Department has actively participated in the          them from the list and replace them with other
implementation of acquisition reform. Commerce           challenges. It should be noted, however, that even
developed a streamlined acquisition process known        though a challenge is removed from the top 10 list, it
as CONOPS, which has reduced procurement lead            may still warrant management attention. We are
times. In addition, performance-based service            pleased to report that the three challenges discussed
contracting has been used in acquisitions for the        in the following sections have been removed from
2000 Decennial Census, and we recently completed         our top 10 list as of September 30, 2000.
a review of one such contract for telephone
questionnaire assistance (see page 34). The purchase
card program was piloted by the Department of
Commerce in 1986, and the Department continues
to be a major participant in the program. More
recently, the Department awarded the Commerce
Information Technology Solutions contract (known
as COMMITS), the only GWAC for information
technology services set aside for small,
disadvantaged, and women-owned businesses.

Commerce OIG Semiannual Report
September 2000
                                                                                                           15
                                      IG’s Message for the Congress


                                      Implementation of AWIPS Marks                              and forecasts for dissemination to the public and the
                                                                                                 media. NWS completed AWIPS with the commis-
                                      the Completion of NWS’s
Major Challenges for the Department




                                                                                                 sioning of the Anchorage river forecast center on
                                      Modernization Program                                      August 17. Beginning in January of this year, 139
                                                                                                 AWIPS systems were commissioned at 121 weather
                                      With the successful implementation of the Advanced         forecast offices, 13 river forecast centers, and 5
                                      Weather Interactive Processing System (AWIPS) in           national centers. As a result of NWS’s achieving this
                                      August, the National Weather Service (NWS)                 milestone, we are removing AWIPS as a top 10
                                      completed its modernization effort, resulting in           management challenge.
                                      dramatic improvements in weather services and to
                                      its radar systems, surface observing systems,              The primary commissioning goals were to confirm
                                      information systems, and communication networks,           that AWIPS provides each NWS site with the
                                      as well as consolidation of its field office structure     functionality and support needed to conduct weather
                                      with reductions in staffing levels. Throughout this        and river forecasting operations and to confirm that
                                      $4.5 billion modernization program, NWS has faced          AWIPS can replace older and obsolete operational
                                      daunting technical and management challenges.              systems. As AWIPS was commissioned at each site,
                                      Consequently, we have performed continuing                 it became the official system for supporting office
                                      oversight and reported on NWS modernization                operations. Additionally, older systems, including the
                                      issues on an ongoing basis in our semiannual reports.      aging Automation of Field Operations and Services,
                                      Progress on the other aspects of the modernization         ceased to be used operationally and could be
                                      allowed us to narrow our focus to successful               removed from the field.
                                      AWIPS implementation in 1998.
                                                                                                 Due to protracted AWIPS development, which
                                                                                                 resulted in significant cost growth and deployment
                                                                                                 delays, a congressional spending cap was imposed.
                                                                                                 NWS management concluded that the development
                                                                                                 and deployment of some of the planned capabilities,
                                                                                                 including advanced meteorological capabilities, could
                                                                                                 not be completed within the spending cap. Thus, the
                                                                                                 capabilities needed to achieve office staff reduction
                                                                                                 goals and to replace the Next Generation Weather
                                                                                                 Radar user workstations are now under develop-
                                                                                                 ment. These capabilities are currently scheduled for
                                                                                                 incremental deployment beginning in 2001 and
                                                                                                 ending in 2002.




                                      AWIPS provides the capability to acquire data from
                                      advanced observing systems and to give forecasters
                                      tools to rapidly analyze the data, integrate it with the
                                      information provided by weather service guidance
                                      centers, and prepare timely and accurate warnings



                                                                                                                     Commerce OIG Semiannual Report
                                      16                                                                                            September 2000
                                                        IG’s Message for the Congress


Private Sector Participation                            programs, operates a fleet of 14 aircraft, composed
                                                        of 2 heavy craft, 1 mid-size jet, 8 light fixed-wing
in NOAA’s Marine and
                                                        aircraft, and 3 helicopters. An OIG audit of




                                                                                                                  Major Challenges for the Department
Aeronautical Data Gathering                             NOAA’s light aircraft fleet concluded that the full in-
Has Increased                                           house cost of operating NOAA’s light fixed-wing
                                                        aircraft and helicopters averaged 42 percent more
The Congress, the OIG, the General Accounting           than the cost of operating similar aircraft in the
Office, and others have long been concerned about       private sector (see September 1998 issue, page 44).
how NOAA can most efficiently and effectively           We recommended that NOAA privatize its light
obtain its marine and aeronautical data. In recent      aircraft operations.
years, NOAA has made considerable progress in
expanding the private sector’s participation in this    NOAA did not agree with our position, believing that
effort. As a result, this challenge has been removed    its light aircraft are cost competitive and that no
from our top 10 list as of September 30, 2000.          savings would be achieved by using other sources to
However, it is important that all interested parties,   meet its data collection needs. For more than three
including NOAA management, departmental offi-           years, we have worked with NOAA officials to
cials, and our office, continue monitoring NOAA’s       reach an agreement on an approach for addressing
actions to ensure continued private sector participa-   our concerns. We are pleased to report that NOAA
tion in marine and aeronautical data gathering.         has provided us with its action plan, with which we
                                                        concur, for resolving the outstanding recommenda-
While recognizing that NOAA has made progress in        tions. The plan includes actions promoting greater
expanding private sector participation in acquiring     use of private sector contractors and the potential
hydrographic data, we will, for example, continue to    disposal of costly and underutilized aircraft.
monitor its acquisition of four new fishery research
vessels. We remain concerned that NOAA’s detailed
data acquisition plan for its fisheries mission does
not specifically indicate how the data needed by the
various fisheries programs would be collected if the
additional vessels are not acquired. Rather, NOAA
has focused its efforts on designing, owning, and
operating the new vessels potentially at the expense
of thoroughly assessing or aggressively pursuing
other alternatives for meeting its fisheries data
collection needs. Funding for one vessel was
approved by the Congress in FY 2000; however,
NOAA’s plan does not address the possibility that
the bureau will not receive follow-on funding for the
remaining vessels in FYs 2002-04. We believe that
the absence of such a contingency plan may put
NOAA’s fisheries programs at risk.

NOAA’s Aircraft Operations Center, which is
responsible for gathering atmospheric, oceano-
graphic, and other data for various of the agency’s


Commerce OIG Semiannual Report
September 2000
                                                                                                           17
                                      IG’s Message for the Congress


                                      Most Commerce Discretionary                                years, we have conducted a comprehensive review
                                                                                                 of the criteria, procedures, and practices used to
                                      Financial Assistance Programs
                                                                                                 make funding decisions under discretionary financial
Major Challenges for the Department




                                      Are Administered on a                                      assistance programs. Our review focused on the
                                      Competitive Basis                                          FY 1997 awards processes of 33 programs we
                                                                                                 classified as “full discretion” programs, which we
                                      In the last several issues of this report, we identified   defined as those whose authorizing legislation places
                                      maximizing competition in Commerce bureaus’                no significant limitations on the Department’s ability
                                      discretionary financial assistance programs as a           to independently determine the recipients or funding
                                      major challenge for the Department. We are pleased         levels of the awards made under the programs.
                                      to report that this challenge is close to being met as a   These programs accounted for more than 1,700
                                      result of the Department’s and the bureaus’ con-           awards and $801 million in FY 1997 funding.
                                      structive actions in response to the findings and
                                      recommendations we made in a series of individual          Our review found that most Commerce discretion-
                                      reports on bureaus’ discretionary financial assistance     ary financial assistance programs are competitively
                                      programs, and the Department’s commitment to               administered and employ processes that are designed
                                      issue a comprehensive grants and cooperative               to result in merit-based funding decisions. We issued
                                      agreements manual that will institutionalize the           reports on our audits of the 33 programs, as well as
                                      recommended improvements.                                  a “capping” report, which summarized the results of
                                                                                                 the individual audits; identified cross-cutting issues;
                                                                                                 highlighted “best practices”; identified weaknesses in
                                       92% of Commerce discretionary financial                   departmental policies, procedures, and practices; and
                                        assistance funds were awarded under                      offered recommendations for improvement.
                                          competitive programs in FY 1997
                                                                                                 Because we believe that the Department’s challenge
                                                                                                 of maximizing competition is being met by its
                                                                                                 planned improvements, we now intend to shift our
                                                                            Competitive          focus by increasing the number of our audits and
                                                                                                 evaluations of financial assistance recipients and
                                                                                                 programs. These audits will determine whether costs
                                                                                                 claimed by recipients are reasonable, allowable, and
                                                                                                 allocable, and will measure program outcomes in
                                                                                                 order to determine whether the benefits being
                                                                                                 derived from these programs are commensurate with
                                                                                                 the substantial funds being invested in them.
                                       Non-competitive


                                      Discretionary financial assistance programs involve a
                                      significant portion of the Department’s budget and
                                      operations. Seven Commerce operating units
                                      administer 72 financial assistance programs that
                                      provide a total of about $1 billion a year to state and
                                      local governments, educational institutions, other
                                      organizations, and individuals. Over the past two

                                                                                                                     Commerce OIG Semiannual Report
                                      18                                                                                            September 2000
                                                        IG’s Message for the Congress


                   RESOLUTION AND FOLLOW-UP
The Inspector General Act Amendments of 1988 require this report to present those audits issued before the
beginning of the reporting period (April 1, 2000) for which no management decision had been made by the
end of the period (September 30, 2000). The following table presents the overall status.


                                 Type of Report                 Unresolved
                                 Performance                         1
                                Financial Assistance                 1


The performance audit deals with our review of NOAA’s discretionary financial assistance awards made
under OAR’s Climate and Atmospheric Research Program. We have reviewed NOAA’s audit action plan,
but do not concur with some of the proposed actions (see page 56).

The financial assistance audit, which has been unresolved for more than a year, involves an EDA grant
award. Because regional EDA and OIG offices have been unable to reach agreement on the issues raised by
this audit, we have requested that the matter be forwarded to headquarters for resolution (see page 25).

Department Administrative Order 213-5, “Audit Resolution and Follow-up,” provides procedures for
management to request a modification to an approved audit action plan, or for a financial assistance recipi-
ent to appeal an audit resolution determination. The following table summarizes modification and appeal
activity during the reporting period.



              Report Category                            Modifications        Appeals

              Actions Pending (April 1, 2000)                    0                7

              Submissions                                        0                5
              Decisions                                          0                7

              Actions Pending (September 30, 2000)               0                5




Commerce OIG Semiannual Report
September 2000
                                                                                                          19
                                       Department of Commerce
                                       Organization Chart

                                                Office of the
                                                 Secretary



   Bureau of                     Economic                         International                        U.S. Patent and
    Export                      Development                           Trade                              Trademark
 Administration                Administration                    Administration                             Office




                   Economics and
                                                                                        Technology
                     Statistics
                                                                                       Administration
                   Administration




                                    Bureau of                          National Institute                   National
       Bureau of                                                        of Standards                       Technical
                                    Economic
      the Census                                                       and Technology                 Information Service
                                    Analysis




                                                                                          National
               Minority Business                    National Oceanic
                                                                                    Telecommunications
                 Development                        and Atmospheric
                                                                                      and Information
                   Agency                            Administration
                                                                                       Administration



                                         National                      National
                                     Marine Fisheries                  Ocean
                                         Service                       Service




                                         National                    Marine
                                         Weather                   and Aviation
                                         Service                   Operations




                                                                     Oceanic
                                         NESDIS                  and Atmospheric
                                                                    Research




                                                                                            Commerce OIG Semiannual Report
20                                                                                                         September 2000
                                      Bureau of
                           Export Administration

Reporting of Performance Measures                                                  The Bureau of Export
Needs Improvement                                                                  Administration is primarily
                                                                                   responsible for the administration
Under the requirements of GPRA and the CFO Act, as amended by the                  and enforcement of the nation’s
Government Management Reform Act of 1994, the Department, and its                  system for controlling exports of
                                                                                   sensitive dual-use goods and
operating units, such as BXA, report on their performance. The Depart-
                                                                                   technologies. Under the Export
ment’s FY 1999 Annual Program Performance Report was its initial effort            Administration Act and regulations,
to report and comment on the performance of its components. The                    BXA’s major functions include
Department’s FY 2001 Annual Performance Plan, which sets targets for               formulating and implementing
performance, was its third annual plan. BXA’s performance data was                 export control policy; processing
presented in both of these documents, as well as in the Department’s               export license applications; con-
FY 1999 Accountability Report and in the bureau’s financial statements.            ducting various policy, technical,
                                                                                   and economic analyses; promul-
As the Department’s principal adviser on export control policy issues,             gating regulations; conducting
BXA promotes U.S. national and economic security, public safety, and               industry outreach; and enforcing
                                                                                   the act and regulations.
foreign policy interests by managing and enforcing the Department’s
                                                                                   Export Administration imple-
security-related trade and competitiveness program. BXA included 10                ments U.S. export control and
performance measures in the Department’s FY 1999 performance report                nonproliferation laws and policies
and FY 2001 performance plan, and 2 of these measures were also                    through export licensing, commod-
included in the FY 1999 Accountability Report (see table below).                   ity classifications, and advisory
                                                                                   opinions; technical, economic,
                                                                                   foreign availability, and policy
                                                                                   analyses; promulgation of regu-
                                         FY 1999         FY 1999       FY 2001     lations; and industry outreach. It
Performance Measure                   Accountability   Performance   Performance   also conducts various defense
                                         Report           Report         Plan      industry base activities.
High-risk transactions deterred             P              P             P         Export Enforcement participates
                                                                                   in reviews of export license appli-
Processing time for license
                                            P              P             P         cations and conducts criminal and
applications
                                                                                   administrative investigations of the
International cooperative exchanges                        P             P
                                                                                   export control portions of the
Investigations completed                                   P             P         Export Administration Act and
End-use visits                                             P             P         regulations. It also administers and
                                                                                   enforces the antiboycott provisions
License decisions                                          P             P
                                                                                   of the act and regulations.
Export assistance
                                                           P             P
conferences/seminars

Enforcement outreach visits                                P             P

Investigations accepted                                    P             P

Strategic industry analyses                                P             P




Commerce OIG Semiannual Report
September 2000
                                                                                                                    21
Bureau of Export Administration


                                     To be useful to the Congress, OMB, and the public, reported performance
             Bureau of               data must be credible. The OIG conducted an audit of BXA’s efforts to
              Export                 ensure that its reported performance results were accurate, consistent, and
           Administration            reliable. Our findings are summarized as follows:

                                     ˜       Reporting of performance data can be improved. We found
    Export                Export
 Administration        Enforcement           that performance results were not always reported consistently in
                                             different documents. Among the reasons for this lack of
                                             consistency were insufficient coordination between the offices
                                             responsible for preparing the various documents, inadequate
                                             review of documents before publication, and the extraction of data
                                             from automated systems before all relevant data had been
                                             captured. In addition, when there were valid reasons for changing
                                             performance results between reports, such differences and the
                                             reasons for them were not disclosed.

                                     ˜       Improvements in internal controls are needed. We also
                                             found that supporting documentation for performance results
                                             needed strengthening. During our testing of 5 of the 10 BXA
                                             performance measures, we found that supporting documentation
                                             needed to be strengthened for 2 measures and that procedures
                                             such as reconciliations were needed to ensure the accuracy of
                                             performance data for a 3rd measure.

                                     We recommended that BXA establish procedures to ensure that per-
                                     formance results are reported accurately and consistently and that any
                                     differences between reports are disclosed and explained. We also
                                     recommended that BXA establish an effective internal control structure to
                                     ensure that adequate documentation is maintained to support performance
                                     results and that reconciliations are performed between source documents
                                     and various GPRA documents. BXA agreed with our findings and
                                     recommendations, noting that corrective actions had already been taken.
                                     (Financial Statements Audits Division: FSD-12847)




                                                                               Commerce OIG Semiannual Report
22                                                                                            September 2000
                  Economic Development
                         Administration

Change in Borrower Under Revolving                                              The Economic Development
Loan Fund Leads to Grant Termination                                            Administration was established
                                                                                under the Public Works and
In 1995 EDA awarded a grant to two organizations to establish a revolving       Economic Development Act of
loan fund (RLF) to encourage iron ore processing related business and job       1965, as amended, including the
                                                                                comprehensive amendments by
development in northeastern Minnesota. The award totaled $2.95 million,
                                                                                the Economic Development
with EDA providing $1.95 million and one of the recipients providing the        Administration Reform Act of 1998,
remaining $1 million. The grant required the initial loan to be made to a       to generate new jobs, help protect
steel company to fund part of a $40 million capital improvement project         existing jobs, and stimulate
for the production of an improved iron product. At the time we conducted        commercial and industrial growth
an audit of the grant, the recipient had not awarded the initial loan, and no   in economically distressed areas
grant funds had been disbursed by EDA.                                          of the United States. EDA does
                                                                                this by providing grants to public
Our audit revealed that the grantee had replaced the initial borrower, which    and private nonprofit organizations
impermissibly changed the scope of the grant. The proposed replacement          in communities with problems that
                                                                                are stifling economic growth;
loan would have financed a much smaller project that involved only
                                                                                planning grants to states, cities,
upgrades to equipment and lacked the sizable private investment of the          districts, and Indian reservations;
original project. In addition, the project provided no demonstrable eco-        special economic adjustment
nomic impact, and would have required EDA to waive certain basic RLF            assistance to states and local
requirements and resolve or acquiesce in several unacceptable contingen-        governments with recent, severe
cies. Our specific findings were as follows:                                    problems or long-term economic
                                                                                deterioration; technical assistance
˜       Private Investment. The initial loan was to provide for an              to communities to build
                                                                                organizational capacity and solve
        economic expansion with a total cost of $40 million, while the
                                                                                specific economic development
        replacement loan would involve only $4.5 million. Although the          problems; and research and
        replacement project is only 11 percent of the size of the original      evaluation grants to increase
        project, the RLF investment of $2.95 million would remain the           knowledge about effective
        same. Moreover, the initial loan called for a private commitment        economic development tools.
        of $33 million, compared to only $765,000 for the replacement
        loan.

˜       Economic Impact. The borrower involved in the original project
        estimated that it would create 89 new jobs and retain 450 existing
        jobs in the area. The company slated to receive the replacement
        loan made no formal declaration of any jobs to be created or
        saved as a result of the project.

˜       Requirements and Contingencies. Certain EDA loan require-
        ments would need to be waived before EDA could approve the
        loan, and the prospective borrower had contingencies to be
        resolved before EDA could make the loan decision. Specifically,
        the proposed loan did not meet the requirement that RLF loans
        leverage at least $2 of private investment for every $1 of RLF


Commerce OIG Semiannual Report
September 2000
                                                                                                                23
Economic Development Administration


                                                       investment or the requirement that one job be created or saved for
               Economic                                every $10,000 of investment; a lawsuit filed by the proposed
             Development                               borrower against the RLF administrator created a potential conflict
             Administration                            of interest that could compromise administration of the loan; and
                                                       the likely sale of the borrower company could increase the risk
                                                       incurred under the loan.
      Program                  Finance and
     Operations               Administration
                                               We discussed the deficiencies in the proposed loan with EDA officials
                                               during our audit, and recommended that EDA not approve the replacement
                  Cong. Liaison,               loan. With our concurrence, EDA terminated the grant, citing deficiencies
                    Program
                  Research and                 in the proposed loan, including inadequate private leveraging and failure to
                   Evaluation                  provide sufficient protection for EDA grant funds. (Denver Regional
                                               Office of Audits: DEN-13441)

                                               Grants to California City
                                               Were Properly Administered

                                               EDA awarded two grants to a California city in connection with a redevel-
                                               opment project to revitalize the city’s downtown harbor area. One element
                                               of the waterfront development was the construction of an aquarium, along
                                               with an associated parking garage and roadway access improvements. The
                                               first EDA grant, awarded in March 1996, contributed $1.5 million to the
                                               roadway improvements, which represented 57 percent of the total
                                               estimated project costs of approximately $2.6 million. The second grant,
                                               awarded in November 1996, contributed $6 million to the design and
                                               construction of the parking garage, which represented 50 percent of the
                                               estimated $12 million in costs.

                                               The OIG conducted audits of both awards to determine whether project
                                               costs claimed were reasonable, award objectives were achieved, and man-
                                               agement controls provided assurance that the awards were administered
                                               efficiently and effectively and resulted in acceptable final products. Our
                                               audits revealed no significant deficiencies: in each case, the city complied
                                               with the award terms and conditions, accomplished the specified scope of
                                               work, accounted properly for project funds, and claimed the appropriate
                                               federal share of project costs. Accordingly, we made no recommendations.
                                               (Seattle Regional Office of Audits: STL-12658-1 and STL-12658-2)




                                                                                          Commerce OIG Semiannual Report
24                                                                                                       September 2000
                                                   Economic Development Administration


Quality Control Review of
Nonfederal Audit Conducted

The OIG performed a quality control review of the 1997 organizationwide
audit of a Michigan county conducted by an independent public account-
ant. EDA awarded the county an economic adjustment grant to establish a
revolving loan fund following military base closures in the county. The
grant provided about $2.4 million, which equated to nearly 20 percent of
the county’s total 1997 revenues. The county also received a total of
roughly $300,000 under various grants from several other federal agencies.

As the oversight agency for the county, we performed our review to deter-
mine whether the audit was conducted in accordance with government and
generally accepted auditing standards, and whether the audit report met the
requirements of OMB Circular A-133, Audits of States, Local Govern-
ments, and Non-Profit Organizations. Our review found that the auditor’s
working papers supported the audit report and that the audit complied with
audit standards. (Denver Regional Office of Audits: DEN-12071)

Audit Reports Unresolved
for Over Six Months

As of September 30, 2000, an OIG financial assistance audit report, DEN-
10586 (see March 1999 issue, page 28), had recommendations that had
remained unresolved for more than one year. The audit found that a
nonprofit grantee in Texas had disregarded procurement standards in
awarding a $244,250 contract to a consulting firm. The audit also
questioned $258,838 in salary costs and in-kind contributions because of
inadequate supporting documentation. Because regional EDA and OIG
offices have been unable to reach agreement on the issues raised by this
audit, we have requested that the matter be forwarded to headquarters for
resolution.




Commerce OIG Semiannual Report
September 2000
                                                                                    25
                                       Economics and
                                       Statistics Administration

The Economics and Statistics
                                       A Better Strategy Is Needed for Managing
Administration analyzes                the Nation’s Master Address File
economic developments, develops
policy options, and produces a         A vital component of the 2000 Decennial Census is the Master Address
major share of U.S. government         File (MAF), which supplies addresses used to support such operations as
economic and demographic               mailing out questionnaires, enumerating nonresponding households, and
statistics. The Chief Economist
                                       controlling the collection and tabulation of data. The quality of the MAF
monitors and analyzes economic
developments and directs studies       address data directly affects the accuracy, completeness, and cost of the
that have a bearing on the             decennial. In the 1990 decennial, one-third of the people not counted were
formulation of economic policy.        missed because data for their housing units was missing from the address
ESA has two principal agencies:        file. Moreover, the bureau spent an estimated $317 million during that
Bureau of the Census. Census is        decennial on operations to identify 4.8 million nonexistent and 8.6 million
the country’s preeminent statistical   vacant housing units and to remove the former from the address file.
collection and dissemination
agency. It publishes a wide variety    To address questions raised about how well programs to create the MAF
of statistical data about people and   for the 2000 decennial were working and what its quality would be, the
the economy of the nation, con-
                                       bureau decided in 1997 to reengineer the MAF-building strategy. The OIG
ducting approximately 200 annual
surveys, in addition to the decen-     conducted an evaluation to determine if steps taken to improve the MAF
nial census of the U.S. population     before the decennial worked as planned, assess steps taken to identify and
and the decennial census of            correct MAF data quality problems as the decennial progressed, determine
industry.                              whether the software development approach ensured high-quality data,
Bureau of Economic Analysis.           and evaluate whether the MAF data quality standard provides a meaningful
BEA’s goal is to provide a clear       benchmark for decision-makers. Our evaluation focused on city-style
picture of the U.S. economy by         addresses, which make up more than 80 percent of the nation’s addresses.
preparing, developing, and
interpreting the national income       The MAF addresses represent the nation’s estimated 112.5 million housing
and product accounts (sum-
                                       units (as of July 1998) and, together with each address’s geographic
marized by the gross domestic
product), as well as aggregate         location found in the Topologically Integrated Geographic Encoding and
measures of international,             Referencing (TIGER®) mapping system, provide an essential tool for
regional, and state economic           collecting residents’ responses and counting people where they are located.
activity.                              Unless found to be nonexistent or duplicate, an address equates to a
                                       housing unit in the decennial. For the 2000 decennial, the bureau created
                                       the decennial MAF, which contains all MAF addresses that meet decennial
                                       eligibility requirements, such as being an address that links to a unique
                                       geographic location in TIGER®.

                                       To build and maintain the MAF, the bureau has implemented operations
                                       designed to decrease undercoverage (missed housing units) and overcov-
                                       erage (duplicate, nonexistent, or other erroneous addresses). The bureau’s
                                       reengineered strategy for city-style addresses allowed local governments
                                       more time to review MAF address lists and submit corrections. A key
                                       component of the strategy was 100-percent block canvassing, in which
                                       bureau employees canvass all blocks in an assigned area to confirm
                                       existing MAF addresses and add new ones.


                                                                                 Commerce OIG Semiannual Report
26                                                                                              September 2000
                                                    Economics and Statistics Administration


Our evaluation reached the following conclusions:
                                                                                      Economics and
˜       Too little time was available to ensure high-quality address                    Statistics
                                                                                      Administration
        data. Reengineering of the MAF had to be completed in the two
        years before the addresses were needed for labeling question-
        naires; this did not leave enough time to deal with difficulties in     Bureau            Bureau of
        receiving addresses from local governments in time to verify them        of the           Economic
        by block canvassing. We found that incomplete address lists were        Census            Analysis
        used in block canvassing, reducing its effectiveness in improving
        address quality. Moreover, the bureau did not have enough time
        to resolve questions about the accuracy of over 5 million
        addresses, choosing to include them and an unknown number of
        duplicate addresses in the decennial until more information
        became available.

˜       Additional steps are needed to improve data quality. Although
        the bureau has taken steps to improve address quality and has
        potentially identified 10.2 million nonexistent or duplicate
        addresses as of June 2000, the policy for determining the
        addresses to be used in several operations has not been well
        defined, and at the time of our fieldwork, the decision about
        which addresses to include in the final decennial results had not
        been made. Rather than being presented explicitly in the bureau’s
        decennial policy documents, address eligibility rules are implicit in
        software specifications, which are often not finalized until data
        processing is imminent or underway.

˜       Better software engineering standards could improve data
        quality. MAF addresses must be linked to unique geographic
        locations to ensure that the bureau can count persons in their
        correct locations and that users of the data can correctly redraw
        legislative district lines. Because the MAF and TIGER® were
        developed separately and are not integrated, maintaining
        consistency between them is not easy. Because TIGER® can be
        modified without ensuring such consistency and some decennial
        addresses do not have locations in TIGER®, as of April 2000,
        4.5 million decennial addresses did not have a current link to
        TIGER® and risked being located inaccurately. The bureau needs
        to take steps to ensure that decennial addresses are geocoded
        accurately. To help ensure overall data quality, the bureau needs
        to follow rigorous software engineering standards in the planned
        modernization of the systems that support the MAF geocoding
        process.



Commerce OIG Semiannual Report
September 2000
                                                                                                              27
Economics and Statistics Administration


                        ˜       Success in meeting housing unit accuracy and completeness
                                goals should be reported. The bureau has set a housing unit
                                coverage performance standard, which is to miss not more than
                                2.5 percent of housing units and include not more than 1.5 percent
                                in error, for a net undercoverage rate of 1 percent. The bureau has
                                not, however, clearly stated how it will report the standard and its
                                success in meeting the standard. The annual performance report
                                and program performance report mandated by GPRA are
                                appropriate mechanisms for reporting on this important data
                                quality standard, including its separate under- and overcoverage
                                components.

                        For the 2000 decennial, we recommended that the bureau issue an eligi-
                        bility policy for the addresses to be included in the final decennial count,
                        ensure that any further TIGER® changes made during the decennial are
                        verified with the MAF, and report evaluation results measuring housing
                        unit coverage, including both under- and overcoverage. We made
                        additional recommendations for future censuses and surveys designed to
                        improve the accuracy and completeness of the MAF and promote a
                        rigorous engineering approach to the modernization of the MAF and
                        TIGER®. Finally, we recommended that the bureau provide housing unit
                        coverage standards and report on its progress in meeting them in future
                        GPRA reporting documents.

                        The bureau concurred with virtually all of our recommendations and
                        indicated that actions had already been taken to implement some of them.
                        (Office of Systems Evaluation: OSE-12065)

                        Use of Inappropriate Procedures Results
                        in Re-enumerations in Southern Florida

                        On May 30, 2000, Representative Carrie Meek forwarded to the OIG an
                        anonymous complaint that decennial employees trained at the Hialeah,
                        Florida, local census office had falsified data and used inappropriate proce-
                        dures while working at three census offices in southern Florida—Hialeah,
                        Homestead, and Broward South. To determine whether there was any
                        merit to the allegations, we examined non-response follow-up procedures,
                        questionnaires completed by Hialeah enumerators, and quality control
                        documentation for completed questionnaires.




                                                                   Commerce OIG Semiannual Report
28                                                                                September 2000
                                                 Economics and Statistics Administration




Our review revealed that some enumerators trained at the Hialeah office
had used improper procedures for collecting data. Our findings related to
each of the three local census offices were as follows:

˜       Homestead: Hialeah-trained enumerators did not follow
        proper procedures. We found that enumerators transferred from
        the Hialeah office to assist Homestead were taking shortcuts with
        some of the 7,200 questionnaires they had been assigned. For
        example, they apparently were not making the required number of
        unsuccessful visits and telephone calls to a household before con-
        tacting a neighbor for proxy information. Moreover, our review of
        questionnaires completed by Hialeah enumerators revealed that,
        contrary to bureau guidelines, the enumerators were simply
        entering names such as “John Doe,” along with approximate ages
        and birth dates, when the actual names and ages of residents could
        not be provided by neighbors.




Commerce OIG Semiannual Report
September 2000
                                                                                      29
Economics and Statistics Administration


                        ˜       Broward South: Serious irregularities identified in work done
                                by Hialeah-trained crews. We found that numerous question-
                                naires containing errors and irregularities were submitted to the
                                Broward South office for processing without having been properly
                                reviewed by Hialeah crew leaders. For example, some question-
                                naires were certified as complete and accurate by a crew leader
                                before an enumerator had even completed them. These problems
                                were first identified by Broward South office staff who reviewed
                                the questionnaires for accuracy and completeness before trans-
                                mitting them to the bureau’s data processing center.

                        ˜       Hialeah: Quality control was insufficient to ensure a reliable
                                enumeration. We were unable to review the 63,000 question-
                                naires completed at the Hialeah office because they had already
                                been transmitted to the data processing center. Instead, we
                                reviewed Hialeah’s quality control documents, and concluded that
                                controls designed to detect data falsification had not been properly
                                implemented. For example, the re-interview process—a key
                                quality control designed to detect data falsification—did not
                                function as intended at Hialeah.

                        We made recommendations designed to ensure that the data collected at
                        the three local census offices was in compliance with decennial quality
                        standards. Recognizing the seriousness of the situation, bureau officials
                        took decisive action to ensure the integrity of the data at these three
                        offices. Specifically, at Homestead, all of the nearly 1,400 questionnaires
                        for which improper procedures had been used were re-enumerated, and a
                        sample of questionnaires for each enumerator was put through the re-
                        interview process to check for data falsification; at Broward South, all
                        3,200 questionnaires completed by Hialeah enumerators were re-
                        enumerated; and at Hialeah, the entire workload of approximately 63,000
                        housing units was re-enumerated. (Economics and Statistics Audits
                        Division: ESD-13215)

                        Problems Found in Decennial
                        Census Warehousing Operations
                        In preparation for the 2000 Decennial Census, the Census Bureau
                        established more than 500 temporary field offices throughout the United
                        States and Puerto Rico. To complete the decennial accurately and on
                        schedule, field offices had to have sufficient quantities of various printed
                        forms, supplies, and other materials. The bureau’s National Processing
                        Center stored approximately 1,500 different decennial forms and other
                        items, prepackaged the items into 323 different types of kits, and shipped
                        the kits to the field offices for use in various decennial field operations.
                                                                    Commerce OIG Semiannual Report
30                                                                                 September 2000
                                                  Economics and Statistics Administration


An OIG audit of the center’s decennial warehousing operations concluded
that the bureau needed to address the following two problem areas:

Understocked Inventory Items

All 106 kits scheduled for shipment to the field offices by November 1,
1999, were delayed because as many as 87 items needed for the kits were
not in stock. The items were understocked because the kit specifications,
which are provided by the bureau’s Field Division, were finalized too late
for purchase orders to be placed with vendors for shipment to the center
by the scheduled date. Bureau officials said that the kit specifications were
finalized late because many bureau offices are involved in the process, and
a failure by any one of them to provide specifications on time may delay
the division’s communication of specifications to the center.

Late receipt of items from vendors created a burden for the center because
it then had to rush to assemble and ship the kits when the understocked
items eventually arrived. To quickly complete the task, the center some-
times had to pay employees overtime or hire additional kit assemblers,
thereby increasing decennial costs. The field offices were also affected by
this problem because the center sometimes sent incomplete kits, then
shipped the remaining items in bulk later for the field offices to complete
kit assembly. Moreover, as we noted during the dress rehearsal, field
offices sometimes did not have enough time to complete assembly of the
kits, which prevented some enumeration teams from starting operations on
time.

We recommended that the bureau finalize all kit specifications as soon as
possible and aggressively pursue acquisition of all understocked items. The
bureau agreed with our recommendation, but we are concerned that its
response did not adequately address the fundamental question of why the
inventory was understocked. Although it was too late to correct the
problem for the 2000 decennial, the bureau needs to develop plans to
address similar understocked inventory problems for the next decennial
and other related operations.

Kit Specification Differences

For the 14 percent of the kits that had at least partial specifications, we
noted differences between the center’s and the Field Division’s specifi-
cations, such as which items, and how many of each, should be included
in certain kits. These differences existed because the center maintains
specifications in its automated kit specification/schedule system, whereas
the division’s specifications are simply listed in a series of memorandums.
As specifications become available from various bureau offices, the

Commerce OIG Semiannual Report
September 2000
                                                                                       31
Economics and Statistics Administration


                        division communicates them via memorandums to the center, which enters
                        the information into its system. Differences between the center’s and the
                        division’s specifications can occur if the data is entered incorrectly or if the
                        system is not updated to reflect the division’s revisions to an earlier
                        memorandum.

                        The center developed its automated system specifically to plan for and
                        manage the complex operations of kit assembly and shipping—tasks that
                        cannot be adequately managed by a series of memorandums. Clearly, only
                        one system should be maintained, and that should be the center’s more
                        reliable kit specification system. The Field Division ought to be inputting its
                        data directly into that system, since it has ultimate responsibility for the
                        correctness of the kits. If left uncorrected, the differences in kit speci-
                        fications could have caused kits to be assembled and shipped incorrectly,
                        thereby disrupting and delaying field operations.

                        We recommended that the bureau reconcile the differences between the
                        Field Division’s kit specification lists and the center’s system and, for
                        future census operations, have division staff enter updates to specifications
                        directly into the center’s system. The bureau agreed with our recommen-
                        dation. But we again had a concern about its response; namely, that it did
                        not indicate whether the differences in kit specifications had been resolved.
                        In addition, we were disappointed that the bureau did not act to consoli-
                        date the two kit specification systems into one when we pointed out the
                        problem in both a November 1999 memorandum and a meeting later the
                        same month. (Denver Regional Office of Audits: DEN-11950)

                        Lessons Learned in Census Leasing Operations
                        Should Be Applied to Future Decennials

                        To handle the data collection and processing for the 2000 decennial, the
                        Census Bureau opened and operated a network of more than 1,000 offices
                        throughout the nation. Among these were 520 local census offices,
                        occupying a total of more than 3.9 million square feet of space, which
                        represented the largest proportion of the space acquired by the bureau.
                        Each local office had to be outfitted with telecommunications, security and
                        office equipment, furniture, and supplies. The space and the related equip-
                        ment and supplies were acquired through a partnership with the General
                        Services Administration (GSA).

                        The OIG conducted an evaluation to determine whether the acquisition of
                        space, equipment, and supplies was carried out properly, effectively, and
                        on time. Our findings are summarized below. We raised a number of our



                                                                     Commerce OIG Semiannual Report
32                                                                                  September 2000
                                                    Economics and Statistics Administration


concerns in an interim memorandum early in our review (see September
1999 issue, page 32).

Partnership was successful, but an evaluation of leasing program is
needed. Despite difficulties in a few regions, the bureau and GSA worked
reasonably well together to complete this massive project. However, the
partnership was a complex and occasionally cumbersome effort, creating
some strains between the two agencies. The bureau needs to assess the
overall costs, benefits, and results of the effort soon after the decennial is
completed to help determine whether a similar partnership should be used
in 2010.

Lessons can be learned from the real estate operations. For example,
some leases in the initial phase of local office openings were awarded
without adequate competition because the area of market search was too
narrowly drawn, thereby limiting the number of bidders. As a result, lease
offers for those offices were more expensive than anticipated, and the
bureau lost valuable time in trying to find more affordable space. In the
second phase of leasing, the bureau made a concerted effort to broaden its
market search areas to ensure greater competition.

Better planning is needed for decennial leasing and office prepara-
tions. Because the bureau was late in finalizing its programmatic plans, it
developed incomplete requirements and sometimes made changes that dis-
rupted operations. For example, planning for the telecommunications sys-
tem was not adequately coordinated or focused on overall requirements,
and as a result, significant changes had to be made to the requirements,
which increased costs and delayed the opening of some local offices.

The bureau needs to expand its use of formal business case analyses.
The bureau used a systematic approach—known as formal business case
analysis—to guide its decisions for the leasing and related operations;
however, we found that the analyses were sometimes incomplete or the
options studied were limited. Nevertheless, we believe that such analyses
have great potential as a management tool to improve the bureau’s
decision-making.

The interagency agreement for the space leasing partnership still
needed to be signed. Although the partnership generally worked well, we
found shortcomings in the arrangement between the bureau and GSA.
First, the agreement for the second phase of the leasing operation was still
unsigned at the time of our review. Second, the agreement did not cover
the responsibilities of commercial brokers, the extent of their authority, the
estimated cost of using them, or the responsibilities of the bureau and GSA
in managing them.

Commerce OIG Semiannual Report
September 2000
                                                                                         33
Economics and Statistics Administration


                        Greater use could have been made of lump-sum build-out financing.
                        Most local offices had to undergo interior alterations (“build-out”) to
                        configure them to bureau specifications. Lessors had the option of either
                        including the build-out cost (plus a finance charge of about 12 percent) in
                        the rent or receiving a lump-sum payment upon completion of the build-
                        out. While the lump-sum payment is generally more advantageous to the
                        government, the bureau made relatively few such payments early in the
                        project in order to conserve resources. During our review, we noted that
                        fully committing build-out funds could aid in lease negotiations, eliminate
                        the finance charge, encourage more timely alterations, and maximize cost
                        savings. The bureau agreed and, in the final series of lease agreements,
                        took greater advantage of lump-sum build-out financing, spending
                        approximately $10 million on it, and saving more than $980,000 in the
                        process, including $476,000 in funds to be put to better use since we
                        brought this matter to the bureau’s attention in April 1999.

                        We made a number of recommendations, most of which involved applying
                        the lessons learned from the current decennial to the 2010 effort. The
                        bureau agreed with all of our recommendations, and indicated that it plans
                        to initiate an independent evaluation of its partnership with GSA and to use
                        the evaluation findings as the primary planning tool for the 2010 space and
                        leasing program. (Office of Inspections and Program Evaluations:
                        IPE-11573)

                        Telephone Questionnaire Assistance Contract
                        Lacked Administration and Surveillance Plan
                        In an effort to increase the questionnaire response rate in the 2000
                        Decennial Census, the Census Bureau provided the public with assistance
                        in filling out the census form and a choice of ways to respond. One of
                        these ways was through the Telephone Questionnaire Assistance (TQA)
                        program, which enabled respondents to call toll-free to complete the
                        questionnaire over the telephone or to simply ask questions about the
                        form.

                        The TQA program also involved an outbound component, which enabled
                        the bureau to call households to resolve count inconsistencies, such as a
                        difference between the number of household members reported and the
                        number for whom information was provided, and to obtain information for
                        households with more than six members, as the questionnaire has space to
                        report information for only six people.




                                                                   Commerce OIG Semiannual Report
34                                                                                September 2000
                                                 Economics and Statistics Administration


In December 1998, the bureau awarded a performance-based services
contact for the design, development, testing, operation, and maintenance
of the TQA system. The contractor used a complex network of 23
integrated call centers with interactive voice response capability and live
operators to meet the contract requirements. The call center network was
designed to handle an estimated 11 million incoming calls during a 14-week
period and an estimated 3 million outgoing calls during a 12-week period.
The contract covered a two-year period, and had a cost ceiling of
$100 million. Calling operations were completed in August 2000.

In a review made to evaluate the administration of the TQA contract, the
OIG made the following observations:

Contract Administration and
Surveillance Plan Needed

According to the Office of Federal Procurement Policy, an important
requirement for performance-based services contracts is an administration
and surveillance plan that describes how the contractor’s performance will
be measured against standards. However, because the bureau did not
prepare such a plan for the TQA contract, its ability to measure contractor
performance and manage contract changes may have been hampered.
Although the TQA program office implemented various processes to assist
in monitoring performance, there was no formal mechanism for providing
feedback to the contractor on its performance or for providing immediate
notice of deficient performance and monitoring corrective action. We
believe that the fact that the program office had a very small staff with
limited experience with large-scale contracts led to the omission of this
important management mechanism.

Another important aspect of contract administration is a change control
process, which provides for a thorough evaluation of proposed changes,
including analyzing costs, determining how the schedule will be affected,
and assessing whether performance will be affected. When the TQA con-
tract was awarded in December 1998 and the task order for development
was issued the following month, the bureau had not yet identified its de-
tailed requirements for outbound calling, and the requirements for inbound
calling were still subject to change. As development progressed, changes
were made informally, through discussions with the contractor, without
formal consideration of their cost and schedule impacts, and without the
authority of the contracting officer. By the time a change control process
was established in August 1999, eight months after contract award, the
task order cost had increased by $2.3 million.




Commerce OIG Semiannual Report
September 2000
                                                                                      35
Economics and Statistics Administration


                        Schedule Slippages Caused Testing Delays,
                        but Operations Began on Schedule

                        Significant slippages in the contract’s schedule resulted in revised testing
                        strategies for the TQA network. For example, the live test demonstration,
                        a major contract milestone designed to demonstrate the functioning of the
                        entire system, was scheduled to begin on October 1, 1999, but testing for
                        the inbound operations did not begin until February 14, 2000, and did not
                        end until February 25, only one week before the start of operations.
                        Among the factors causing the schedule slippages were delays in site
                        selection, changes to requirements, and underestimation of system
                        complexity.

                        Delays in completing testing of such a complex system could have had a
                        significant impact on TQA’s performance because little time was available
                        between the completion of testing and the beginning of operations to
                        correct problems and conduct retesting. Despite the delays, inbound
                        operations began as planned on March 3, 2000. However, correcting
                        problems identified during testing and conducting retesting delayed the start
                        of outbound operations until early May. As a result, call centers were
                        opened simultaneously, rather than on a staggered basis as planned, so that
                        the decennial census schedule would not be affected.

                                                    *    *    *   *    *

                        We recommended that the bureau (1) develop a contract administration
                        and surveillance plan covering the remaining months of program operation
                        and (2) prepare a “lessons-learned” report at the completion of TQA
                        operations so that the experience gained in developing and managing the
                        system can benefit contracting in both the next decennial and non-
                        decennial census operations. The bureau agreed to implement our
                        recommendations, but disagreed with certain aspects of our observations.
                        Specifically, the bureau asserted that it had not made any unauthorized
                        contract changes and that the changes made were not the result of changed
                        requirements. (Office of Systems Evaluation: OSE-12376)

                        Improved Documentation Should Result in
                        Fewer Unemployment Compensation Claims
                        Unemployment costs related to the 1990 Decennial Census totaled
                        approximately $64 million. In 1994 the OIG reported that potentially
                        millions of dollars of these costs could have been avoided had the




                                                                   Commerce OIG Semiannual Report
36                                                                                September 2000
                                                  Economics and Statistics Administration


separation and removal of temporary decennial census workers been
adequately documented (see September 1994 issue, page 30). Specifically,
a termination for cause must be properly documented so that, should the
individual later apply for unemployment compensation, the Census Bureau
can provide sufficient evidence to sustain a finding of ineligibility due to
poor performance or misconduct.

In 1998, during our review of dress rehearsal activities, we reviewed the
policies and procedures put in place to better manage unemployment
compensation for the 2000 decennial and reported that they appeared to be
adequate (see September 1998 issue, page 24). However, we also sug-
gested that additional management attention was warranted in order to
ensure that Census supervisors comply with those policies and procedures.

In a recent inspection, we examined how documentation was handled for
temporary employees terminated for cause during the 2000 decennial. We
did not examine the merits of individual terminations or attempt to deter-
mine whether additional employees should have been terminated for cause.
Based on our review of termination documents at 16 local census offices
around the country, however, we concluded that, in the vast majority of
cases, the bureau was adequately documenting the termination of
problematic employees.

We did find some minor problems. For example, in 9 out of 56 cases at
one local office, employees were listed as being terminated for lack of
work, when they were actually terminated for cause, because the appro-
priate form had not been filled out at the time of their dismissal. And, in
another 32 out of 322 cases at eight other offices, the form for document-
ing a termination for poor performance or conduct problems was not filled
out or was missing. As a result, should the terminated employees involved
apply for unemployment compensation, the bureau would be unable to
refute the claim.

We recommended that for any additional terminations for cause made
during the current decennial fieldwork, local office managers be reminded
to ensure that all information is correctly entered onto termination forms
and that all supporting documentation is maintained in the files. The
bureau was encouraged by our finding that nearly 9 out of 10 cases had
sufficient documentation, but acknowledged that documentation could be
improved. It agreed with our recommendation and took specific actions to
ensure that managers and supervisors were aware of the procedures for
documenting conduct and performance-based actions for employees.
(Office of Inspections and Program Evaluations: IPE-13212)




Commerce OIG Semiannual Report
September 2000
                                                                                       37
Economics and Statistics Administration


                        Decennial Software Specification and
                        Development Processes Need Improvement

                        Accurate, reliable software is critical for every major operation of the 2000
                        Decennial Census. Several software errors occurred and were resolved
                        during the decennial. As a result of these errors, we had planned to
                        conduct further evaluation work on headquarters software development
                        and processing. Because not all of the headquarters software work for the
                        decennial had been completed, we intended to identify areas needing
                        improvement and recommend corrective actions.

                        Based on our preliminary fieldwork, conducted in May and June, we
                        ascertained that the bureau had already begun to implement a number of
                        improvements, which we supported. Moreover, recognizing that the
                        bureau’s software work was occurring under a tight schedule, we were
                        concerned that our evaluation might cause additional disruptions. As a
                        result of these factors and of our own resource limitations, we decided to
                        continue monitoring the bureau’s activities, rather than conduct a formal
                        evaluation.

                        In lieu of a formal evaluation, in July we sent a memorandum to the
                        bureau’s deputy director identifying the principal headquarters decennial
                        software issues, providing our views on the actions being taken to address
                        them, and making suggestions for further improvements. We discussed our
                        concerns and suggestions with bureau officials, who generally agreed with
                        them.

                        Over the past four years, we have evaluated and monitored various as-
                        pects of information technology for the decennial. In November 1997, we
                        reported that the development approach used for headquarters software
                        was not based on standards for documenting and reviewing software
                        specifications and design; ensuring that rigorous, independent testing is
                        carried out; and ensuring the uniform, effective use of development and
                        evaluation methods and tools. We recommended that the bureau adopt a
                        software development process based on at least this minimal set of
                        elements. (See March 1998 issue, page 26.)

                        In September 1999, we reiterated the need for improved specifications and
                        testing practices and the use of software engineering standards. (See Sep-
                        tember 1999 issue, page 26.) Although the bureau made improvements




                                                                   Commerce OIG Semiannual Report
38                                                                                September 2000
                                                   Economics and Statistics Administration


based on our recommendations, as well as those of the Chief Information
Officer, significant issues remained, including late, changing, and
ambiguously specified requirements; lack of formal requirements reviews;
insufficient control over software changes; and inadequate testing of
developed software. Our preliminary fieldwork showed that decennial
officials had already started to deal with most of these issues through such
process improvements as requirements specification reviews, more
rigorous testing, and end user reviews of processing outputs.

While these changes will help ensure that requirements are complete,
accurate, and clearly understood and will also improve testing, we believe
that additional requirements and testing areas need further emphasis. With
regard to the specifications, completing them as early as possible is critical
in order to maximize the time available for their review, as well as for
software development and testing. As for testing, we believe that test cases
should be developed by the users whenever possible and that testing
should demonstrate that all requirements have been met. Moreover, testing
should be performed by an organization independent of the developers.

We were aware of one error related to an area that the bureau had not yet
addressed—insufficient control of software changes. The error occurred
when a last minute change to software was not thoroughly tested.
Fortunately, the bureau identified this error early enough to avoid affecting
decennial operations. Nevertheless, effective software change control is
needed to prevent future problems. This issue was not part of the planned
process improvements and needed additional attention. Bureau officials
recently told us that they now provide management oversight of software
changes.

As we have noted in our previous work, better software development
practices would improve timeliness, quality, and user satisfaction and
reduce development and maintenance costs on all decennial systems. We
encouraged the bureau to continue to focus on improving the decennial
software development process, emphasizing production of timely, clearly
specified requirements and rigorous independent testing. After the
decennial, the bureau should make a concerted effort to improve software
development for all of its programs, decennial and nondecennial alike.
(Office of Systems Evaluation)




Commerce OIG Semiannual Report
September 2000
                                                                                        39
Economics and Statistics Administration


                        Review of Certain Decennial Operations
                        Identifies Issues for Future Consideration

                        The OIG conducted a review of the effectiveness of the Census Bureau’s
                        special population enumerations and questionnaire assistance centers.
                        Special population enumerations attempt to count people who live in
                        nontraditional housing or have no usual residence. Questionnaire assistance
                        centers provide the public, especially those with little or no English-
                        speaking ability, with help in completing their census forms. Our review
                        included observing enumerator training for special enumerations, as well as
                        the actual conduct of certain enumerations, visiting questionnaire assist-
                        ance centers, and interviewing enumerators and assistance center staff.

                        Our review revealed no significant conditions meriting recommendations in
                        addition to those made in earlier reports on the 1998 Dress Rehearsal (see
                        September 1998 issue, page 24). However, we did identify several issues
                        warranting management attention:

                        ˜       Too little time was allowed for training. Just four hours was
                                scheduled for enumerator training for special population
                                enumerations, and much of this time was used to complete
                                preemployment paperwork. As a result, local offices had to
                                arrange for last-minute unscheduled training or send enumerators
                                into the field inadequately trained.

                        ˜       Late delivery of supplies caused problems. Training materials
                                often arrived at the training sites the day before the training was to
                                begin, which did not allow instructors enough time to familiarize
                                themselves with the materials. Moreover, at the four sites we
                                visited, local offices had not received the quantity of supplies and
                                forms they needed. As a result, the offices had to spend the time
                                and money to photocopy forms or borrow supplies from other kits
                                in order to complete enumerations, and in the case of long forms,
                                had to later copy responses from the photocopies onto original
                                questionnaires.

                        ˜       Some homeless shelters and soup kitchens were missed by the
                                special population enumerations. The bureau had worked with
                                local governments and community-based organizations, such as
                                homeless advocacy groups, in identifying sites to be enumerated,
                                yet several such organizations said they were never given an
                                opportunity to identify sites and, as a result, their facilities had
                                been missed. The director of one organization that ran a homeless



                                                                    Commerce OIG Semiannual Report
40                                                                                 September 2000
                                                  Economics and Statistics Administration


        shelter said that although she had called the local census office
        repeatedly to request that the shelter be enumerated, no
        enumerators visited the facility.

˜       The effectiveness of questionnaire assistance centers was not
        evident. We found that usage varied widely among assistance
        centers: some were heavily visited, while others were shut down
        ahead of schedule for a lack of customers. Centers located in
        neighborhoods with high minority populations received the most
        traffic. Staff at some centers said they were busy in the first few
        weeks after opening, but had few clients thereafter.

Although we made no recommendations to address these issues in the
2000 decennial, we believe that the Census Bureau should consider our
observations in planning for the 2010 decennial. (Economics and Statistics
Audits Division: ESD-12593)

2000 Decennial Generates Numerous
Complaints from Workers and the Public
Along with the upsurge in 2000 Decennial Census activities over the past
six months came a concomitant increase in the volume of complaints
received by our Office of Investigations regarding various aspects of
decennial operations. During this semiannual period alone, nearly 500
people lodged complaints through the OIG Hotline and other means, which
covered a variety of topics ranging from concerns about hiring, payroll,
training, and management practices to allegations that decennial results
were being falsified by crew leaders and enumerators.

All complaints were evaluated in accordance with established OIG
investigative intake procedures. As is our practice, complaints that involved
routine administrative and management issues were referred to the Census
Bureau or the Department for appropriate action, while allegations of
fraud, criminal conduct, and other matters within our statutory jurisdiction
were added to the OIG investigative caseload.

For example, we are currently investigating serious allegations of data
falsification by census workers in several local census offices, and are
pursuing a bribery charge against a former community partnership
specialist. We are also looking into a number of complaints that decennial
employees defrauded the government by making false claims for overtime
pay or telephone or mileage reimbursement, or otherwise diverted
government resources to their personal use.



Commerce OIG Semiannual Report
September 2000
                                                                                       41
Economics and Statistics Administration


                        In addition, we are following up on a number of complaints from the
                        public regarding the conduct of the decennial, including several reports of
                        individuals attempting to obtain financial or other confidential information
                        from citizens by posing as census workers.

                        One matter successfully resolved during this period was a complaint
                        received by the OIG that decennial promotional items and official materials
                        bearing the Census 2000 logo were being offered for sale on the eBay
                        Internet auction website. After identifying several of the sellers offering
                        this merchandise, and learning that the materials had been obtained at
                        decennial events, local census offices, and flea markets, we advised bureau
                        officials of the problem and put them in contact with an attorney at eBay,
                        who agreed that the company would prohibit the sale of Census 2000
                        materials through its website. (Denver Field Office of Investigations)

                        OIG Assesses Accuracy of the
                        Federal Audit Clearinghouse Database
                        At the request of OMB, the OIG assessed the accuracy of the Federal
                        Audit Clearinghouse Database, which is operated by the Census Bureau,
                        for FY 1998 single audit reports. A single audit is one performed by state
                        or local government auditors or independent public accountants covering
                        all of the federal financial assistance provided to one recipient. To imple-
                        ment the Single Audit Amendments of 1996, OMB issued Circular A-133,
                        Audits of States, Local Governments, and Non-Profit Organizations. The
                        circular authorized the bureau to operate the Clearinghouse, which serves
                        as a repository for single audit reports and an audit processing service and
                        data dissemination system for the entire federal grant community.

                        In conducting our assessment, we performed procedures to (1) verify the
                        completeness of audit reporting packages, (2) compare the information in
                        the database with the information provided to the Clearinghouse on a
                        standard data collection form and in the reporting package, and (3) verify
                        that all audit findings contained in the reports were also included in the
                        database. We used a two-stage sampling plan developed by the Depart-
                        ment of Labor OIG to derive a sample that was representative of the
                        universe of 1998 single audit reports and the Catalog of Federal Domestic
                        Assistance (CFDA) program entries in the database.

                        The results of the procedures we performed were as follows:

                        ˜       Of the 150 audit reports sampled to test the completeness of the
                                reporting package, we found 2 reports in which the auditor failed
                                to include a required element.


                                                                    Commerce OIG Semiannual Report
42                                                                                 September 2000
                                                   Economics and Statistics Administration


˜       In the 22,563 data elements sampled in our comparison of the
        information in the database with that on the data collection form
        and in the reporting package for the reports and the CFDA
        program entries, we found 370 errors—126 attributable to the
        Clearinghouse and 244 to the auditors and auditees.

˜       In verifying that all audit findings in the 150 sampled reports were
        included in the database, we found that findings for 4 reports were
        omitted from the database.

The bureau agreed with our findings. Considering the complexities of the
electronic system and related operating procedures involved in this effort,
the bureau was pleased to learn of the overall accuracy of its work, and it
stated that actions were underway to correct the isolated errors identified.
(Atlanta Regional Office of Audits: ATL-12556)

OIG Looks Into Apparent Premature
Release of Trade Deficit Data
At the request of the Under Secretary for Economic Affairs, the OIG
looked into concerns that a news organization had prematurely released
trade deficit data on its Internet web site. A representative of the organi-
zation had participated in an information release session (or “lockup”), in
which journalists in a locked room are provided with economic data by
ESA officials, given time to compose their news stories, then allowed to
transmit the stories simultaneously to their organizations at the official
release time, which is determined by a clock synchronized to the U.S.
Naval Observatory Master Clock. These procedures are followed to
prevent the premature release of sensitive economic data.

In this case, the trade deficit information was cleared for release at
8:30 a.m. on April 19, 2000, but when the story appeared on the news
organization’s web site, its time stamp was 8:27 a.m. Responding to the
Under Secretary’s concerns, we first spoke to the ESA officials
responsible for coordinating the lockup, then contacted the journalist who
had filed the story in question. She cooperated fully, returning to the
Department of Commerce with her notebook computer, which enabled us
to compare the time on her computer’s clock with the time on the Naval
Observatory’s Master Clock.

Through this comparison, which also involved having the journalist
transmit “test” stories to her organization’s web site, we concluded that
because the clock on her computer was set to an earlier time than was the
Naval Observatory clock, the stories posted on the web site carried an


Commerce OIG Semiannual Report
September 2000
                                                                                        43
Economics and Statistics Administration


                        erroneous time, several minutes earlier than the actual time of the
                        transmission. We were able to satisfy ourselves, and report to the Under
                        Secretary in an April 24, 2000, memorandum, that the situation resulted
                        from the discrepancy between the time on the computer and Naval
                        Observatory time, and that there had been no premature release of the
                        trade deficit data.

                        As a result of our assessment, we advised the journalist, in the future, to
                        always set her computer’s clock to Naval Observatory time when she
                        enters the lockup, and suggested that she advise her organization to modify
                        its software to use the time stamp generated by its web server, rather than
                        that generated by her notebook computer, for the associated stories. We
                        also understand that as a result of this incident, ESA has added a rule
                        stating that it is a violation of lockup procedures to have an early time
                        stamp on any story released from the lockup. (Office of Systems
                        Evaluation)

                        Review of Special Census of Illinois Village
                        Finds Problems, but No Large Undercount
                        When local officials believe that their community has experienced a
                        significant increase in population since the previous decennial census, they
                        may request the Census Bureau to certify the population increase through
                        a special census. During the past decade, the bureau received about
                        $11.3 million from local governments to conduct 437 special censuses.

                        In December 1997, the Village of Machesney Park, Illinois, a community
                        of about 20,000 people located 90 miles northwest of Chicago, contracted
                        to pay the bureau $86,000 for a special census, which was conducted in
                        June 1998 by staff hired from the local community. After reviewing the
                        initial results of the special census, the mayor of the village alleged that
                        various illegal and improper activities had taken place, resulting in a serious
                        undercount of the village’s population. In May 1999, Representative
                        Donald A. Manzullo requested that the OIG look into the mayor’s
                        allegations.

                        The mayor specifically alleged that (1) the census supervisor had
                        instructed enumerators to “just put down ‘one’ if you don’t know” who
                        lives in a household, (2) census workers had falsified data, (3) Machesney
                        Park’s special census results were inconsistent with those of adjacent
                        communities, (4) a gross undercount in the initial special census was
                        validated by a follow-up study, and (5) the bureau’s regional director had
                        admitted that the census was illegally closed out.



                                                                    Commerce OIG Semiannual Report
44                                                                                 September 2000
                                                   Economics and Statistics Administration


We did not find evidence of a significant undercount in the Machesney
Park special census. After analyzing all 103 enumeration books and
interviewing special census and other bureau personnel, we concluded that
special census employees followed most, but not all, special census proce-
dures, and that the enumeration books were generally well documented
and complete. Enumerators properly listed 97 percent of the total
households and all but two residential streets.

However, we did find some support for the first two of the five allegations.
The key problem affecting this special census was that enumerators
improperly listed 434 houses as having “one” occupant when the actual
number of occupants was unknown. As a result, some households may
have been undercounted.

Based on our analysis, it is very unlikely that 2,000 people were missed, as
alleged by village officials. We projected a possible undercount of closer to
320 persons. However, we emphasized that this figure was only an
estimate, and that it could not be used to adjust the village’s official count.

We believe that the Census Bureau’s Chicago Regional Office could have
been more vigilant in overseeing the special census. It should have been
aware of the large number of “one-person” households sooner, and it
should have provided better guidance and supervision to the village on its
advertising campaign.

At the time we issued our report, we expressed our belief that a special
census recount of some or all households in Machesney Park was not
warranted or feasible at that point. It had been two years since the special
census was completed, and more importantly, the bureau had completed
its 2000 decennial enumeration of Machesney Park. Given the issues
raised in this special census, however, we recommended that the bureau
work closely with village officials to address any coverage issues before
releasing the final decennial counts for Machesney Park.

We also recommended that for future special censuses, the bureau
reinforce and revise, if necessary, some of its policies and procedures and
develop new policies and procedures to preclude the types of problems
that arose during the Machesney Park special census. In addition, the
bureau needs to clarify and emphasize compliance with its policies and
procedures during future training of special census workers.




Commerce OIG Semiannual Report
September 2000
                                                                                        45
Economics and Statistics Administration


                        In response to our report, the bureau agreed to adopt all of our recom-
                        mendations, except one related to improving its advertising guidance to
                        local officials. The bureau agreed that advertising for special censuses is
                        extremely useful, but stated that each local community has the
                        responsibility to promote its own special census. We believe that although
                        the local role is important, it is equally important for the bureau to ensure
                        that the community maximizes its advertising efforts. (Office of Inspec-
                        tions and Program Evaluations: IPE-12045)

                        Personal Charges to Government Purchase
                        Card Result in Theft Conviction
                        A secretary at the Census Bureau was convicted of one count of theft of
                        government property after an OIG investigation revealed that she had used
                        a government purchase card to buy more than $800 worth of clothing,
                        jewelry, electronic equipment, and other items for her personal use. In
                        July 2000, she was sentenced in U.S. District Court for the District of
                        Maryland to 6 months’ incarceration in a community corrections facility
                        and 2 years’ probation, and was ordered to make full restitution to the
                        government. (Washington Field Office of Investigations)




                                                                    Commerce OIG Semiannual Report
46                                                                                 September 2000
                        International Trade
                             Administration

Overseas Security Program Needs                                                 The International Trade
Better Management and Results                                                   Administration is responsible for
                                                                                the trade promotion and trade
Recognizing the need to focus more attention on improving the security of       policy issues associated with most
U.S. overseas facilities, the Congress in 1997 appropriated $24.8 million to    nonagricultural goods and
the State Department for security improvements. US&FCS received                 services, and works with the Office
                                                                                of the U.S. Trade Representative in
$9.4 million of that supplemental appropriation to improve the security of
                                                                                coordinating U.S. trade policy. ITA
its 45 overseas facilities located outside embassies and consulates (referred   has four principal units:
to as non-collocated facilities). After the bombing of the U.S. embassies in    Market Access and Compliance.
Kenya and Tanzania in August 1998, State received another $627 million          MAC develops and implements
in FY 1999 emergency funding for reconstructing the embassies and               international economic policies of
conducting other security-related activities. US&FCS received $8 million        a bilateral, multilateral, or regional
of the funding for its overseas facilities.                                     nature. Its main objectives are to
                                                                                obtain market access for American
The OIG conducted an inspection of US&FCS’s overseas security                   firms and workers and to achieve
program, including the accounting for the use of the FY 1997 and 1999           full compliance by foreign nations
                                                                                with trade agreements signed with
funds, after questions were raised about how those funds were spent. Our
                                                                                the United States.
review identified weaknesses in ITA’s and the Department’s management           Trade Development. TD advises
of the program, as well as in the management of and accounting for              on international trade and
program funds. Our concerns are discussed in the following sections.            investment policies pertaining to
                                                                                U.S. industrial sectors, carries out
Better cooperation and planning are needed to improve US&FCS’s                  programs to strengthen domestic
overseas security. Although US&FCS received a total of $17.4 million in         export competitiveness, and pro-
supplemental security funds in FY 1997 and 1999, we found that security-        motes U.S. industry’s increased
related upgrades to overseas facilities had fallen behind schedule because      participation in international
of (1) a lack of action by the State Department, US&FCS, and the                markets.
                                                                                Import Administration. IA
Commerce Office of Security in completing upgrades and (2) inadequate
                                                                                defends American industry against
cooperation between the three entities in implementing US&FCS’s                 injurious and unfair trade practices
overseas security program.                                                      by administering the antidumping
                                                                                and countervailing duty laws of the
Security funds need to be better managed. We found that at the end of           United States, and enforcing other
FY 1999, ITA’s Office of Financial Management inappropriately used              trade laws and agreements
some of the security funds to cover alleged shortages in US&FCS’s               negotiated to address such trade
operating and administrative budget. The two parties disagreed as to the        practices.
cause of the problem, and the funds were restored by ITA to the security        U.S. & Foreign Commercial
fund by January 2000, but the incident demonstrated that ITA                    Service. US&FCS promotes the
                                                                                exports of U.S. companies and
management had failed to establish adequate internal controls to ensure
                                                                                helps small and medium-sized
that expenditures complied with requirements. ITA has already                   businesses market their goods
implemented controls to help prevent this from recurring. In addition,          and services abroad. It has 105
although most expenditures paid for out of security funds appeared              domestic offices and 157 overseas
appropriate, some either did not appear to be security related or may not       posts in 84 countries.
have represented an effective use of security funds.




Commerce OIG Semiannual Report
September 2000
                                                                                                                   47
International Trade Administration


                                          Financial management and oversight of security funds need improve-
             International                ment. We determined that of the $17.4 million provided to US&FCS for
                 Trade                    overseas security during FY 1997 and 1999, as of March 31, 2000,
            Administration                approximately $9.6 million remained—nearly $5.0 million from the 1997
                                          allotment and about $4.6 million from 1999. However, we were unable to
                          Market
    Import                                determine the accurate balances because the status of obligations and
                        Access and
 Administration
                        Compliance        disbursements was not being adequately monitored and not all accounting
                                          data pertaining to overseas security transactions was being entered
    Trade              U.S. and Foreign   promptly into ITA’s accounting system.
 Development            Commercial
                           Service
                                          We made a number of recommendations aimed at achieving better
                                          cooperation and planning between the parties involved in US&FCS’s
                                          overseas security program, more management oversight to ensure that
                                          security fund expenditures are security related, and better oversight of and
                                          accounting for security funds.

                                          ITA and the Security Office agreed to implement all of our recom-
                                          mendations. Most significantly, they agreed to form a US&FCS Security
                                          Upgrade Project Oversight Committee, which will oversee the agency’s
                                          security efforts and will develop an annual strategic plan for facility
                                          upgrades. (Office of Inspections and Program Evaluations:
                                          IPE-12708)




                                                                                     Commerce OIG Semiannual Report
48                                                                                                  September 2000
                      Minority Business
                    Development Agency

Minority Business Development Center                                          The Minority Business
Poorly Managed by Award Recipient                                             Development Agency was
                                                                              created to help minority-owned
At MBDA’s request, the OIG performed an audit of a cooperative                and operated businesses achieve
agreement awarded to an economic development organization to operate a        effective and equal participation in
minority business development center in a West Coast city. The award          the American free enterprise
                                                                              system, and overcome the social
was for the 25-month period from October 1, 1996, to October 31, 1998,
                                                                              and economic disadvantages that
and had a total project budget of $1,363,480, consisting of a $818,088        have limited their participation in
federal share and a $545,392 recipient share. Federal funds disbursed         the past. MBDA provides
through December 1998 totaled $792,896.                                       management and technical
                                                                              assistance to minority firms upon
In July 1998, MBDA’s project monitor identified numerous discrepancies        request, primarily through a
in the project records, including indications of falsified time sheets,       network of business development
fabricated documents supporting claimed performance, and the potential        centers. It also promotes and
diversion of project funds. The monitor’s findings contributed to the         coordinates the efforts of other
recipient’s decision to terminate the center’s entire staff without notice.   federal agencies in assisting or
                                                                              providing market opportunities for
The recipient later discovered that project computer records had been
                                                                              minority businesses.
destroyed before the center’s offices were vacated.

Our audit confirmed the problems noted in the project monitor’s evalu-
ation and identified other areas of noncompliance and misrepresentation.
We also concluded that the recipient was negligent in failing to maintain
required project oversight and controls that might have prevented the
problems discussed below or at least identified them earlier. Our major
findings were as follows:

˜       Recipient’s administration of the project was deficient.
        Because the award recipient failed to exercise adequate controls
        over the project, the project director gained complete control of
        the project and was able to avoid meaningful oversight by the
        recipient and MBDA. The director, who prepared the proposal to
        MBDA, did not implement the project as proposed and did not
        obtain the required approvals from the recipient, MBDA, or the
        Department for deviations from the proposal. The project director
        and deputy director had previously held similar positions in
        another MBDA-funded center that had a history of management
        problems.

˜       Center did not meet award performance requirements. The
        programmatic accomplishments reported to MBDA were mis-
        leading in several respects, and performance data was manipulated
        to obscure the fact that the award’s intent to provide consulting
        services to minority clients in the required service area was not
        being met. Specifically, most clients claimed were ineligible for


Commerce OIG Semiannual Report
September 2000
                                                                                                                49
Minority Business Development Agency


                                           assistance under the award, most performance claims were
         Minority Business                 unrelated to the center’s services and some were fabricated, time
           Development                     claimed was spent on many questionable activities, and supporting
              Agency                       time records were fabricated or altered.

  Finance and
 Administration
                       Strategic   ˜       Project’s claimed costs were not supported. We questioned all
                       Planning
                                           costs claimed under the award because of the aforementioned
                                           nonperformance and for noncompliance with federal cost principles
  Program               External           and requirements. Neither the recipient nor the center had an
 Development             Affairs           accounting system to properly record and control project expendi-
                                           tures. After reconstructing the financial results from the records that
                                           were available, we found, among other things, that project funds
                                           were diverted to the recipient’s general accounts, the recipient’s
                                           cost share was not met, time distribution records were unreliable,
                                           and financial reports were late, inaccurate, and inconsistent.

                                   We questioned $1,320,974 in claimed costs, representing the total
                                   reconstructed expenditures, and recommended that the Department disallow
                                   those costs, recover the $792,896 in federal funds disbursed, and deobligate
                                   the remaining $25,192 in undisbursed federal funds and put them to better
                                   use. We also recommended that the project director, deputy director, and
                                   their private consulting firm be debarred from receiving future federal
                                   funding and that the recipient be designated as a high-risk recipient and have
                                   special award conditions applied to any future funding it may receive.

                                   The recipient disagreed with our findings and conclusions, and with our
                                   recommendations related to questioned costs and designation as a high-risk
                                   recipient. The recipient claimed that it had provided adequate oversight of
                                   the project, that MBDA was responsible for many of the problems, and that
                                   many statements in our report were untrue. (Seattle Regional Office of
                                   Audits: STL-11406)




                                                                                Commerce OIG Semiannual Report
50                                                                                             September 2000
         National Oceanic and
    Atmospheric Administration

Small Business Innovation Research Program                                      The National Oceanic and
Award Procedures Need Improvement                                               Atmospheric Administration
                                                                                studies climate and global change;
During this semiannual period, the OIG reported on its audit of the criteria,   ensures the protection of coastal
procedures, and practices for soliciting, reviewing, and selecting applica-     oceans and the management of
tions in FY 1997 for awards under NOAA’s Small Business Innovation              marine resources; provides
                                                                                weather services; and manages
Research (SBIR) program. The audit was conducted as part of a
                                                                                worldwide environmental data. It
Department-wide review of Commerce’s discretionary financial assistance         does this through the following
programs.                                                                       organizations:
                                                                                National Weather Service. NWS
The SBIR program is designed to stimulate technological innovation in the       reports the weather of the United
private sector, strengthen the role of small business in meeting federal        States and provides weather
research and development needs, increase the commercial application of          forecasts and warnings to the
innovations derived from federal research, and improve the return on            general public.
investment from federally funded research for the nation’s economic             National Ocean Service. NOS
benefit. SBIR is a three-phase program: Phase 1 determines the scientific       issues nautical and aeronautical
                                                                                charts; performs geodetic surveys;
and technical merit and the feasibility of ideas submitted for consideration;
                                                                                conducts research; and develops
Phase 2 is the research and development phase of proposals identified as        policies on ocean mining and
having commercial potential; and Phase 3 is the commercialization of the        energy.
research. Only firms that have received Phase 1 awards may compete for          National Marine Fisheries
Phase 2 funding, and no SBIR funding may be used for Phase 3.                   Service. NMFS conducts a
                                                                                program of management,
In FY 1997, NOAA awarded five Phase 1 grants, for a total of $249,000,          research, and services related to
and two Phase 2 grants totaling $399,000. NOAA also provided $1.6 mil-          the protection and rational use of
lion in SBIR funding in the form of procurement contracts. Because our          living marine resources.
review was focused on the award of discretionary financial assistance, we       National Environmental Satellite,
                                                                                Data, and Information Service.
limited our work to an examination of NOAA’s process for making SBIR
                                                                                NESDIS observes the environment
grants.                                                                         by operating a national satellite
                                                                                system.
Although our audit found that NOAA’s procedures and practices for               Office of Oceanic and
awarding grants under the SBIR program were generally designed to result        Atmospheric Research. OAR
in merit-based funding decisions, we also found areas in which the              conducts research related to the
procedures and practices failed to meet departmental requirements for           oceans and inland waters, the
competition. Specifically:                                                      lower and upper atmosphere,
                                                                                space environment, and the Earth.
                                                                                Office of Marine and Aviation
˜       The Department’s program solicitation did not contain the
                                                                                Operations. OMAO operates
        required statement that cost sharing is not required and will not be    NOAA’s ships and aircraft and
        considered in the evaluation of proposals.                              provides NOAA programs with
                                                                                trained technical and management
˜       NOAA used only two evaluators for Phase 1 proposals, even               personnel from the nation’s
        though departmental policy requires at least three.                     seventh uniformed service.




Commerce OIG Semiannual Report
September 2000
                                                                                                               51
National Oceanic and Atmospheric Administration


                                        We believe that NOAA could enhance the independence and objectivity of
                                        future SBIR competitions by inviting reviewers from outside the agency
                    NOAA                and the Department to participate. In addition, two of NOAA’s Phase 2
                                        grants appeared to have been awarded noncompetitively, because they
                                        were not included on either on the list of Phase 2 applicants provided to us
     National               National
     Weather                Ocean       or the rank-order list of projects scored by the Phase 2 selection process.
     Service                Service     NOAA later informed us that the two grants were selected competitively
                                        by a separate selection panel that we had not been told about earlier.
    National
 Marine Fisheries           NESDIS
     Service
                                        We recommended that NOAA ensure that (1) future SBIR program
                                        solicitations include appropriate language concerning cost sharing, (2) all
 Oceanic and               Marine and
                                        SBIR proposals are evaluated by at least three reviewers, (3) reviewers
 Atmospheric                Aviation    from outside the agency and the Department are invited to participate in
  Research                 Operations   evaluating applications, and (4) either a single competitive selection process
                                        is used for all Phase 2 awards or the fact that certain projects will be
                                        selected through a different process is fully disclosed in all published
                                        material. NOAA agreed to implement our recommendations and submitted
                                        an audit action plan that adequately addressed them. (Denver Regional
                                        Office of Audits: DEN-11001)

                                        NWS Raleigh Office Provides Valuable Services
                                        but Needs Better Management and Controls
                                        The National Weather Service has 121 weather forecast offices (WFOs)
                                        nationwide that issue local forecasts and warnings of severe weather. The
                                        WFO in Raleigh, North Carolina, located on the Centennial Campus of
                                        North Carolina State University, is responsible for a warning area that
                                        covers 31 counties in the central part of the state.

                                        The OIG conducted an inspection to determine how effective the Raleigh
                                        WFO is in delivering forecasts, warnings, and other information to users;
                                        how well it coordinates its activities with state and local emergency
                                        managers; and how well it manages its networks of volunteer spotters and
                                        observers. We also assessed the adequacy of the office’s management
                                        practices, internal controls, and administrative procedures.

                                        We spoke with numerous state and county officials concerning their
                                        interactions with the Raleigh WFO and the quality of service it provides.
                                        Without exception, they had favorable comments about the WFO’s
                                        performance. Moreover, based on NWS Eastern Region verification
                                        statistics, the WFO had one of the region’s best records in delivering
                                        accurate forecasts and warnings during the 1999 severe weather season.




                                                                                   Commerce OIG Semiannual Report
52                                                                                                September 2000
                                  National Oceanic and Atmospheric Administration


Nevertheless, our review identified a number of administrative and
operational deficiencies that require prompt management attention:

The Cooperative Observer and Skywarn programs need attention.
The Raleigh WFO has only two staff members working part-time on the
Cooperative Observer program, which is an important component of
NWS’s data collection and national observing capability. The office should
be able to reallocate resources to strengthen support for this program. In
addition, the office’s Skywarn network, which relies on trained volunteer
spotters to provide severe weather reports, does not provide adequate
coverage of certain remote parts of the WFO’s warning area.

Actions are needed to strengthen management of information
technology. The WFO has neither designated a systems security officer
nor implemented NWS’s information technology security policies, which
were issued to maintain appropriate levels of security and foster greater
security awareness among NWS staff. In addition, we found disjointed and
inadequate oversight of the office’s information systems, with different
personnel managing different aspects of the systems and software. The
electronic systems analyst, the office’s designated systems administrator,
should be handling these responsibilities.

Greater use of engineering management reporting system is needed.
WFO personnel did not understand how to use NWS’s engineering
management reporting system, which helps managers track the operational
reliability and maintenance of 35,000 pieces of equipment at 3,000 sites.
Raleigh personnel stated that they are unaware of the system’s capabilities,
have not been regularly inputting repair information into the system, and
have not proactively managed the office’s equipment.

More consistent quality control over WFO products is needed.
Because the WFO lacks a structured method to review forecasts,
warnings, and other products to ensure accuracy and completeness, some
office products containing improper information have been issued.
Although the overall quality of the office’s products appears adequate,
many office personnel believed that it could be improved.

A structured staff training program is needed. Some Raleigh personnel
complained that meteorological and hydrological training has been incon-
sistent and unresponsive to their needs. They believe that training has been
a low office priority, as evidenced by the lack of a structured training pro-
gram for both experienced forecasters and interns. Operational demands
should not preclude the WFO from having a structured training program.




Commerce OIG Semiannual Report
September 2000
                                                                                53
National Oceanic and Atmospheric Administration


                       Improvements are needed in key administrative areas. The WFO lacks
                       adequate internal controls over inventory, official vehicles, and credit card
                       purchases. In addition, because the office does not maintain a spreadsheet
                       to track its expenditures against its budget, the meteorologist-in-charge is
                       not aware of the current status of funds and cannot effectively manage the
                       office’s fiscal resources.

                       Savings can be realized by eliminating some leased storage space. In
                       addition to its main office, the WFO leases storage space on the university
                       campus and rents space in a public storage facility nearby. Because the
                       office has more storage space than it needs and the public storage space is
                       much less expensive than the on-campus space, the office could save
                       about $13,700 by disposing of unneeded items, vacating the on-campus
                       space, and consolidating all storage items in the off-campus facility.

                       Local and regional management should be more attentive to office
                       problems. Inattentive management, personality conflicts, and resentment
                       over staffing decisions have combined to hurt office morale, especially
                       among electronics technicians. These problems have in turn negatively
                       affected equipment repairs, IT management, and administrative operations.
                       The meteorologist-in-charge needs to implement a more effective
                       management system, including holding staff accountable for performing
                       their assigned responsibilities, and regional management needs to provide
                       greater oversight to ensure that this is accomplished.

                       We made a number of recommendations to address these deficiencies.
                       NWS agreed with all but four of our recommendations and outlined steps
                       it was taking to address them. For each of the recommendations with
                       which NWS did not concur, it stated that the action being recommended
                       was already in practice at the Raleigh WFO. We disagreed in all but one
                       instance, but commended NWS for its aggressive plan of remedial actions
                       to address most of our concerns. (Office of Inspections and Program
                       Evaluations: IPE-12661)

                       Internal Controls over Science Center’s
                       Bankcard Program Need Improvement
                       As part of its periodic review of Commerce units’ use of bankcards, the
                       OIG conducted an audit of the bankcard program of the National Marine
                       Fisheries Service’s Northwest Fisheries Science Center. The audit
                       examined bankcard transactions at the center’s headquarters in Seattle and
                       at its field sites in Manchester and Pasco, Washington. During the audit,
                       we interviewed 55 of the 227 cardholders and examined 773 bankcard
                       transactions, based on a judgmental sampling of about 10,000 FY 1998
                       transactions totaling approximately $2.5 million.

                                                                  Commerce OIG Semiannual Report
54                                                                               September 2000
                                  National Oceanic and Atmospheric Administration


Our audit revealed the following internal control deficiencies that needed
attention:

˜       Of the 55 cardholders interviewed, 48 had not viewed the required
        training video in the previous two years, 47 did not keep their
        cards secure in a locked drawer or cabinet, 24 did not maintain the
        required purchase order log, 5 had purchased prohibited items,
        and 3 had made purchases of over $2,500 without obtaining
        competitive quotations or preparing a sole-source justification.

˜       Of the 773 transactions examined, only 19 had been preapproved
        as required. Moreover, 49 transactions were not supported by
        adequate documentation, 13 lacked signatures of approving offi-
        cials, and for 7 that involved purchases of accountable property,
        the required property transaction forms were not completed.

We also concluded that the number of cardholders needed to be reevalu-
ated because 17 of the 55 cardholders (about 31 percent) had used the
card infrequently—fewer than four times during the year. This suggested
that the number of cardholders was much higher than needed, given the
administrative burden of maintaining proper oversight of card use.

NOAA concurred in all of our findings and described specific steps taken
or planned to implement our recommendations. For example, after our
audit, the center held several training sessions and canceled the bankcards
of cardholders who committed purchase violations. The center also
planned to review bankcard use to determine whether the number of
cardholders should be decreased. (Seattle Regional Office of Audits:
STL-12555)

Restitution Ordered for False Claims
Made to Fishermen’s Contingency Fund
More than eight years after his conviction for filing a false claim for nearly
$7,000 against the Fishermen’s Contingency Fund, a fisherman from Lake
Arthur, Louisiana, was apprehended and sentenced. The fisherman had
been convicted on the charge in November 1991, but fled the country
prior to his sentencing. He was arrested in Florida shortly after his return
to the United States this past spring, and was sentenced in July 2000 in
U.S. District Court for the Western District of Louisiana to 24 months’
imprisonment and 200 hours of community service, and ordered to make
full restitution to the government.




Commerce OIG Semiannual Report
September 2000
                                                                                 55
National Oceanic and Atmospheric Administration


                       In a second matter, another Louisiana fisherman acknowledged filing two
                       false claims for loss of fishing gear under the Fishermen’s Contingency
                       Fund program, and agreed to make restitution of $15,800 to the
                       government during the three-year probationary period established by his
                       pretrial diversion agreement. (Denver Field Office of Investigations)

                       Former Employee Ordered to
                       Repay Purchase Card Charges

                       A former NOAA secretary entered into a pretrial diversion agreement to
                       settle charges that she had used a government credit card to make more
                       than $4,300 of personal purchases. A Massachusetts state court ordered
                       the former employee to repay the money to the government within one
                       year and complete 25 hours of community service or face a sentence of up
                       to 2 years’ imprisonment and a $25,000 fine for the theft. (Silver Spring
                       Field Office of Investigations)

                       Two Employees Disciplined
                       for Misuse of Official Vehicles
                       An NMFS employee was suspended for 30 days for misuse of a
                       government vehicle. Although the vehicle was observed at his residence on
                       multiple occasions, the employee claimed that he had only stopped there
                       briefly while working in the field. An OIG investigation revealed, however,
                       that there was no work-related reason for him to have been driving in the
                       area of his residence at any of the times in question.

                       An NWS employee resigned from federal service in the face of his
                       proposed demotion and reassignment for use of a government vehicle for
                       other than official purposes, including home-to-work transportation on a
                       regular and recurring basis. (Denver Field Office of Investigations)

                       Audit Reports Unresolved
                       for Over Six Months
                       As of September 30, 2000, one performance audit report related to NOAA
                       had recommendations unresolved for more than six months: Opportuni-
                       ties Exist to Improve the Competitive Review Practices of OAR’s Climate
                       and Atmospheric Research Program, CFDA No. 11.431, STL-10949 (see
                       March 2000 issue, page 56). The audit was one of a series that focused on
                       the criteria, procedures, and practices for soliciting, reviewing, and
                       selecting applications under Commerce discretionary financial assistance
                       programs.


                                                                 Commerce OIG Semiannual Report
56                                                                              September 2000
                                  National Oceanic and Atmospheric Administration


The audit report recommended that the Office of Atmospheric Research
ensure that (1) all proposals, including letters of intent, are independently
and competitively evaluated, with selection decisions justified and
adequately documented in the proposal files, (2) reasons for selecting
lower-ranked proposals are thoroughly explained and documented, and
(3) documented market searches are performed to verify that there is only
one source for anticipated sole-source awards.

We have reviewed NOAA’s audit action plan, but do not concur with
some of the proposed actions. We plan further discussions with NOAA in
an effort to resolve these issues.




Commerce OIG Semiannual Report
September 2000
                                                                                57
                                      National Telecommunications
                                      and Information Administration

The mission of the National
                                      Reporting of Performance Measures
Telecommunications and                Needs Improvement
Information Administration is to
(a) serve through the Secretary of    Under the requirements of GPRA and the CFO Act, as amended by the
Commerce as the principal             Government Management Reform Act of 1994, the Department, and its
executive branch advisor to the       operating units, such as NTIA, report on their performance. The Depart-
President on domestic and
                                      ment’s FY 1999 Annual Program Performance Report was its initial effort
international communications and
information policies, (b) ensure      to report and comment on the performance of its components, including
effective and efficient federal use   NTIA. NTIA’s performance data was also presented in the Department’s
of the electromagnetic spectrum,      FY 1999 Accountability Report.
(c) develop with other federal
agencies policies for international   As the Department’s principal adviser on telecommunications and
communications and standards-         information policy issues, NTIA promotes the efficient and effective use of
setting organizations, (d) serve as   telecommunications and information resources in order to create job
the federal telecommunications        opportunities, enhance U.S. competitiveness, and raise the standard of
research and engineering center,      living. NTIA included five performance measures in the Department’s
and (e) administer grants under
                                      FY 1999 Performance Report and the FY 2001 Annual Performance Plan,
the Telecommunications and
Information Infrastructure            and three of those measures in the Accountability Report. NTIA’s
Assistance Program and the            performance measures are depicted in the following table. The first
Public Telecommunications             performance measure shown replaces an FY 1999 measure on “lessons
Facilities Program.                   learned” packages completed for foreign governments.


                                                                                                  FY 1999
                                                                                                   Annual     FY 2001
                                                                                   FY 1999        Program     Annual
                                                                                 Accountability Performance Performance
                                      Performance Measure                           Report         Report       Plan
                                      Filings, testimony, and speeches                                          P
                                      Authorized spectrum assignments                 P             P           P
                                      Internet accessibility and use                  P             P           P
                                      Telephone subscription rates                                  P           P
                                      Models/grants available for nonprofit or
                                                                                      P             P           P
                                      public sector organizations



                                      To be useful to the Congress, OMB, and the public, the reported
                                      performance data must be credible. The OIG conducted an audit of
                                      NTIA’s efforts to ensure that its reported performance results were
                                      accurate, consistent, and reliable. Our audit reached the following
                                      conclusions:




                                                                                       Commerce OIG Semiannual Report
58                                                                                                    September 2000
                National Telecommunications and Information Adminstration


˜       Reporting of performance information needs to be improved.
        We found adequate linkage between the first, second, and fifth
        performance measures listed above and NTIA programs and                                      NTIA
        activities. However, NTIA needs to improve its reporting of the
        performance measures on Internet accessibility and use and                                                   Policy
        telephone subscription rates because these measures are not                 Spectrum
                                                                                                                  Analysis and
                                                                                   Management
        directly linked to its program and activities. In neither the                                             Development
        performance report nor the accountability report did NTIA
        disclose this lack of direct linkage. We recommended that NTIA             Telecom. and                   Institute for
                                                                                    Information                    Telecom.
        either revise these measures to address outputs and outcomes               Applications                    Sciences
        more directly linked to NTIA programs or activities or provide
        adequate disclosure that the bureau is not directly responsible for
                                                                                                  International
        the results.                                                                                 Affairs


˜       Improvements in internal controls needed. The number of
        authorized spectrum assignments was not accurately reported in
        either the performance report or the accountability report because
        the data reported was as of November 26, 1999, rather than as of
        September 30, 1999, the end of the fiscal year. In addition, data
        on increased Internet accessibility and use was reported only for
        the first quarter of the fiscal year, a limitation that was disclosed in
        the accountability report but not in the performance report. We
        recommended that NTIA establish procedures for coordination
        between the office responsible for performance data in the
        accountability report and the office responsible for the data in the
        GPRA reports to ensure accurate, consistent reporting.

NTIA agreed with our findings and has taken action to implement our
recommendations. Specifically, in the latest drafts of the Department’s
2000-05 Strategic Plan, NTIA has replaced the performance measures on
Internet accessibility and telephone subscription rates with measures more
directly linked to its programs and activities. In addition, NTIA has empha-
sized to the two offices involved in preparing performance data the need to
report clear, consistent information on agency performance. (Financial
Statements Audits Division: FSD-12856)




Commerce OIG Semiannual Report
September 2000
                                                                                                                                  59
National Telecommunications and Information Adminstration


                       University Did Not Comply with
                       Grant Terms and Conditions

                       In October 1995, NTIA awarded a $249,988 grant to a Southwestern
                       university to develop a multilevel interactive telecommunications model for
                       providing health- and education-related support to two rural underserved
                       communities. The grant agreement, which covered the period from
                       October 15, 1995, through April 14, 1998, required $279,659 in matching
                       funds, bringing the total project budget to $529,647.

                       An OIG audit of the grant found that the university had inadequately
                       supported $216,967 of in-kind costs claimed, which included $177,447 for
                       salaries and $39,520 for fringe benefits. The university also violated the
                       terms and conditions of its award by failing to (1) properly report on the
                       status of government property in its possession, (2) maintain accurate
                       equipment records, (3) submit quarterly progress reports on time, and
                       (4) promptly notify the program office of significant developments
                       affecting the award. After we completed our review, the university
                       provided the required inventory of government property.

                       We questioned a total of $248,285 in project costs, including the in-kind
                       costs mentioned above, as well as $31,318 for equipment purchases made
                       before the start of the award period. The recipient has been reimbursed
                       $137,304, which is $30,217 more than the amount of federal funds
                       earned. The Department closed out the grant and deobligated $25,709 in
                       grant funds in April 1998.

                       We recommended that the Department disallow the questioned costs and
                       recover the $30,217 in excess disbursements, deobligate the remaining
                       $117,192 in grant funds, and ensure that the grantee’s inventory of its
                       government property contains all the required information. The university
                       agreed with all of our recommendations. (Atlanta Regional Office of
                       Audits: ATL-12645)




                                                                   Commerce OIG Semiannual Report
60                                                                                September 2000
                           United States Patent
                          and Trademark Office

Protection of U.S. Intellectual Property                                          The United States Patent and
Rights Overseas Should Be Strengthened                                            Trademark Office administers the
                                                                                  nation’s patent and trademark
The Intellectual Property and Communications Omnibus Reform Act of                laws. Patents are granted, and
1999 requires USPTO to advise the President on certain international              trademarks registered, under a
intellectual property policy issues and to advise other federal agencies on       system intended to provide
                                                                                  incentives to invent, to invest in
intellectual property protection overseas. Through its Office of Legislative
                                                                                  research, to commercialize new
and International Affairs (OLIA), USPTO works closely with the U.S.               technology, and to draw attention
Trade Representative and other federal agencies to expand the protection          to inventions that would otherwise
of U.S. intellectual property throughout the world. The United States             go unnoticed. USPTO also
maintains a large surplus of international trade in intellectual property, with   collects, assembles, publishes, and
receipts of $36.8 billion, versus payments of $11.3 billion, in 1998.             disseminates technological
However, these figures do not reflect trade losses due to piracy. The             information disclosed in patents.
International Intellectual Property Alliance, a coalition of seven trade
associations, estimated that five U.S. copyright-based industries suffered
trade losses due to piracy of more than $12 billion in 62 selected countries
in 1998. Developing countries were responsible for almost $8.8 billion of
these estimated losses.

OLIA provides technical assistance to developing countries that are setting
up or trying to improve their intellectual property protection systems. This
assistance, which was provided to more than 70 countries in FY 1999,
includes training programs in the United States, on-site assistance, and
reviews of foreign laws and regulations related to implementing intellectual
property enforcement regimes. OLIA has also cosponsored training
programs with the World Intellectual Property Organization (WIPO) and,
in FY 1999, developed a new intellectual property enforcement training
format to be used by other U.S. agencies and WIPO.

The OIG conducted an audit of OLIA’s international training and technical
assistance activities and its communication and coordination with other
federal agencies involved in protecting intellectual property rights. We also
examined OLIA’s efforts to monitor compliance with the Agreement on
Trade-Related Aspects of Intellectual Property Rights (TRIPS), which
requires all World Trade Organization members to provide certain
standards of protection for intellectual property rights.

We found that OLIA is highly respected for its expertise in international
intellectual property protection issues and its critical involvement in the
negotiation of treaties and the drafting of implementing legislation and
regulations. Recipients of OLIA’s advice and assistance, including officials
of other federal agencies, trade associations, and foreign governments,
expressed great satisfaction with OLIA’s global activities. However, we
identified a few issues that warrant management’s attention in order to
maximize OLIA’s efficiency and effectiveness:

Commerce OIG Semiannual Report
September 2000
                                                                                                                  61
United States Patent and Trademark Office


                                      OLIA’s international training efforts need improvement. Although
         U.S. Patent and              OLIA officials indicated that they receive more requests for training than
           Trademark                  they can handle, they have not kept records to document the disposition of
              Office                  training requests. Because such requests are expected to increase now that
                                      the January 2000 deadline for World Trade Organization developing
   Assistant            Assistant
 Commissioner        Commissioner     country members to comply with the TRIPS Agreement has passed, it is
  for Patents        for Trademarks   even more important for OLIA to establish controls to ensure that all
                                      requests receive appropriate attention. OLIA also needs to maximize the
  Associate              Chief        impact of its limited training resources by considering alternative training
 Commissioner         Information
   and CFO               Officer
                                      methods, such as conducting joint sessions with WIPO or industry
                                      associations, and using contractors or the Internet for training. Moreover,
                                      OLIA should develop procedures to measure the results of its efforts to
                                      protect intellectual property rights, as required by GPRA.

                                      OLIA needs to improve its controls over federal agencies’ requests
                                      for advice and analysis. Although OLIA provides a great deal of advice
                                      and analysis to other federal agencies, it has not adequately controlled and
                                      documented this workload. Moreover, many of the requests are urgent
                                      oral requests, yet priorities are not established for them, and there are no
                                      controls to ensure that they are responded to promptly. With requests
                                      expected to increase, OLIA should ensure that they are adequately
                                      controlled, and should document the results of its analyses of proposed
                                      foreign laws and regulations governing intellectual property rights.

                                      OLIA should initiate discussions toward a strategy for monitoring
                                      and reporting on TRIPS compliance by developing countries. In the
                                      absence of a legal requirement that it systematically monitor and report on
                                      compliance before the TRIPS Agreement deadlines of January 1, 2000,
                                      for developing countries and January 1, 2006, for least-developed coun-
                                      tries, OLIA has reviewed developing countries on a country-by-country
                                      basis on request, but has not assessed overall compliance since the
                                      agreement’s implementation in 1995. As a result, OLIA was unable to
                                      provide a status report on these countries’ compliance at any given time.
                                      Such a report, though not legally required, would provide a stronger basis
                                      for making policy determinations and for efficiently allocating training and
                                      enforcement resources, and would enable USPTO to better fulfill its
                                      advisory mission as mandated in the 1999 act.

                                      We made a number of recommendations aimed at strengthening OLIA’s
                                      efforts to protect U.S. intellectual property rights overseas. USPTO
                                      generally agreed with our findings, and has already planned or taken some
                                      actions to implement our recommendations. For example, OLIA has
                                      established a system to track due dates and completion dates for responses
                                      to requests for advice and analysis from other federal agencies. (Business
                                      and Trade Audits Division: BTD-11747)

                                                                                 Commerce OIG Semiannual Report
62                                                                                              September 2000
                                            United States Patent and Trademark Office


Improved Internal Controls Needed
for Office of Human Resources

USPTO’s workload has grown by almost 75 percent since 1992, and to
keep pace, the agency has increased the size of its examining and associ-
ated support staff. USPTO’s recruitment and retention needs have placed
heavy demands on its Office of Human Resources (OHR). New staff hired
totaled 976 in FY 1998, 1,187 in FY 1999, and 208 during the first six
months of FY 2000. Separations, which also require OHR services, have
also been significant: 252 employees left the agency between October
1998 and March 11, 2000.

The OIG conducted an audit of OHR, focusing on its internal controls
over hiring actions, including background investigations, and over recorded
personnel actions and employees’ official personnel files. USPTO had
already identified these as problem areas and, just before we began our
audit, undertook a series of initiatives designed to improve OHR opera-
tions. We found that, despite these changes, issues remain that warrant
continued management attention.

Improved System for Processing
Background Investigations Is Needed

Background investigations, required for each new employee, have not
always been properly performed and documented. As a result, there is no
assurance that all personnel hired for certain examination and adminis-
trative functions with access to sensitive proprietary business data have
passed the required investigations. As of May 2000, OHR had not
submitted the forms necessary to request background investigations for
113 employees hired since October 1997. Moreover, documentation of
investigations for 1,626 employees hired since 1970—400 of whom were
hired since 1990—is not in the USPTO security database.

The absence of documentation could be the result of either an investigation
not being requested or documentation of the investigation results not being
recorded in the security database. Among the reasons offered by USPTO
for the situation were the large number of employees processed by OHR in
recent years, the 1:61 servicing ratio of OHR specialists to employees, and
the multiple demands, including special projects, that have been placed on
OHR resources.

USPTO’s Associate Commissioner and Chief Financial Officer, who has
management responsibility for OHR, has initiated actions to address the
lapses in OHR’s processing of requests for background investigations.


Commerce OIG Semiannual Report
September 2000
                                                                                  63
United States Patent and Trademark Office


                       First, a schedule has been established to clear up the backlog of investiga-
                       tions. Second, responsibility for processing requests has been transferred
                       to USPTO’s Office of Security, and three new security specialists are
                       being hired to handle this workload. Finally, preappointment checks will be
                       conducted before an employee comes on board.

                       Internal Controls over Personnel Documents
                       and Official Files Are Inadequate

                       Several conditions in OHR’s file room indicate a lack of adequate internal
                       controls over personnel action documents and official personnel files.
                       Specifically:

                       ˜       Thousands of Personnel Action Forms Unfiled. An estimated
                               40,000 to 50,000 forms documenting personnel actions were
                               unfiled. Without properly filed forms, a formal record does not
                               exist to support personnel actions.

                       ˜       Insufficient File Room Security. We observed that the OHR file
                               room is not locked when employees leave the room, there are no
                               controls over who is allowed to see personnel files, and certain
                               employees are allowed to remove personnel files from the room
                               without signing them out.

                       ˜       10 percent of Personnel Files Not Located. Selecting a random
                               sample of official personnel files, we found that 10 percent of
                               them could not be located. Projecting from our sample, we
                               estimate that personnel files of between 108 and 121 employees
                               hired between October 1998 and March 2000 cannot be located.

                       OHR has begun to draft procedures to address these conditions, and is
                       considering hiring contract employees to file the backlogged personnel
                       action forms.

                       We endorsed the measures that USPTO has planned to address the
                       identified deficiencies. However, because of the severity and long history
                       of the problems and the sensitivity of background investigations, personnel
                       action documents, and official personnel files, we recommended that
                       USPTO’s Associate Commissioner and Chief Financial Officer periodically
                       report to the Under Secretary on the progress being made to address the
                       problems. USPTO concurred. (Business and Trade Audits Division:
                       BTD-12830)




                                                                  Commerce OIG Semiannual Report
64                                                                               September 2000
                                           Technology
                                         Administration

NIST Can Do More to Ensure Competition
                                                                                  The Technology Administration
in Its Research and Standards Program                                             serves the needs of technology-
                                                                                  based industry, advocates federal
During this semiannual period, the OIG reported on its audit of the criteria,     actions and policies to speed the
procedures, and practices for soliciting, reviewing, and selecting applications   transfer of technology from the
in FY 1997 for awards under NIST’s Measurement and Engineering                    laboratory to the marketplace, and
Research and Standards Program (MERS). The audit was conducted as                 removes barriers for commer-
                                                                                  cializing new technologies by
part of a Department-wide review of Commerce’s discretionary financial
                                                                                  industry. It includes three major
assistance programs.                                                              organizations:
                                                                                  Office of Technology Policy. OTP
The objective of MERS is to provide scientific research for measurement           works to raise national awareness
and engineering research and standards. During FY 1997, NIST processed            of the competitive challenge,
172 financial assistance awards for a total of $26.9 million under MERS.          promotes industry/government/
Of these 172 awards, 1 (for $6.5 million) was legislatively mandated, 46          university partnerships, fosters
(totaling $2.8 million) were awarded competitively, but the remaining 125         quick commercialization of federal
(totaling $17.6 million) were awarded noncompetitively, on a sole-source          research results, promotes
basis, without appropriate justification. The sole-source awards consisted of     dedication to quality, increases
                                                                                  industry’s access to and partici-
66 new awards, for a total of $8.1 million, and 59 renewals of or amend-
                                                                                  pation in foreign research and
ments to existing awards, totaling $9.5 million.                                  development, and encourages the
                                                                                  adoption of global standards.
The competitive awards were made under three MERS subprograms: the                National Institute of Standards
Fire Research Grants program, the Precision Measurement Grants program,           and Technology. NIST promotes
and the Materials Science and Engineering Laboratory Grants program. For          U.S. economic growth by working
each of these subprograms, NIST has established and followed procedures           with industry to develop and apply
that are designed to result in merit-based funding decisions and that gener-      technology, measurements, and
ally comply with the Department’s minimum requirements for financial              standards. NIST manages four
                                                                                  programs: the Advanced Technol-
assistance awards.
                                                                                  ogy Program, the Manufacturing
                                                                                  Extension Partnership Program, a
However, we found some areas needing improvement in these sub-                    laboratory-based measurement
programs’ procedures and practices. Specifically, NIST (1) in solicitation        and standards program, and the
notices for two of the subprograms, failed to specify the single type of          National Quality Program.
funding instrument to be used, (2) in the notice for one of the subprograms,      National Technical Information
published misleading information about the duration of award proposals that       Service. NTIS is a self-supporting
would be accepted, (3) allowed the selecting official for one subprogram to       agency that promotes the nation’s
also participate in proposal review panels, and (4) provided an unfair            economic growth and job creation
advantage to certain grant renewal applicants under one subprogram. We            by providing access to voluminous
                                                                                  information that stimulates
also found that the agency could enhance the independence and objectivity
                                                                                  innovation and discovery. NTIS
of future grant competitions by inviting reviewers from outside NIST and
                                                                                  accomplishes this mission through
the Department to serve on the panels.                                            two major programs: information
                                                                                  collection and dissemination to the
                                                                                  public, and information and
                                                                                  production services to federal
                                                                                  agencies.



Commerce OIG Semiannual Report
September 2000
                                                                                                                  65
Technology Administration


                                    The three competitive subprograms, however, represent a relatively small
                                    portion of overall MERS funding. Most of the awards under the program
             Technology
            Administration
                                    were awarded noncompetitively, on a sole-source basis. We found that
                                    although NIST’s procedures governing sole-source awards require a
                                    determination that the proposed recipient is the only responsible source
                                    that could accomplish the work, the written justifications for the sole-
     NIST                    NTIS   source awards did not cite any factual support for such determinations,
                                    such as the results of published solicitation notices. In addition, NIST’s
                                    Grant Office did not take adequate steps to verify these determinations.
              Technology
                Policy              NIST’s extensive use of sole-source awards appears to conflict with
                                    departmental policy, which encourages competition in awarding financial
                                    assistance. We also found that certain sole-source awards under one of the
                                    MERS subprograms did not comply with departmental guidance which
                                    states that awards made in response to an unsolicited proposal can be
                                    made noncompetitively only if the project falls outside the goals of a
                                    competitive program.

                                    Finally, because NIST does not have written procedures for renewing sole-
                                    source awards, no determination of a project’s continuing worthiness is
                                    made before renewal. We believe that NIST needs to establish minimum
                                    standards to guide technical personnel in assessing whether sole-source
                                    awards should be renewed and, if renewal is warranted, whether it should
                                    be done on a noncompetitive basis. These standards will help bring
                                    consistency to NIST’s sole-source renewals and provide a means for it to
                                    document that the renewals are merit based and appropriate.

                                    NIST agreed with 7 of the 10 recommendations we made to address our
                                    findings. However, it did not agree to (1) specify in its solicitation notices
                                    for the two subprograms the single type of funding instrument to be used,
                                    (2) include at least one proposal review panel member outside the super-
                                    visory chain of command of the selecting official for future competitions
                                    for one subprogram, or (3) publicly announce proposed sole-source
                                    awards, request proposals from interested parties, evaluate any applica-
                                    tions submitted, and make the selection using competitive, merit-based
                                    procedures. After considering NIST’s comments, we reaffirmed our
                                    recommendations. (Denver Regional Office of Audits: DEN-10958)




                                                                                 Commerce OIG Semiannual Report
66                                                                                              September 2000
                                                                         Technology Administration


OIG Briefs the Congress
on NIST Activities

In response to a request from the House Committee on Science’s Technol-
ogy Subcommittee, on August 2, 2000, OIG staff briefed Subcommittee
staff on two issues related to NIST: Planned construction and renovations
at its Boulder, Colorado, campus and its support for the development of
national building and fire codes for Saudi Arabia.

Construction/Renovations
at Boulder Campus

First, the Committee asked us to determine the status and the specific
planned use of a proposed reprogramming of $8 million of Advanced
Technology Program funds to be put toward NIST’s Boulder campus
renovations. Second, we were asked to determine the purpose of a
$500,000 request in NIST’s FY 2001 budget for study or design of an
electrical system upgrade on its Boulder campus.

We found that NIST planned to spend the $8 million for renovations on
two of its highest priority projects in Boulder—an electrical power upgrade
project and the renovation of Building 4. The electrical project, projected
to cost $5.9 million, is designed to address persistent power problems by
replacing the current system, which is partly above ground and prone to
disruptions, with a buried, secure line. The other $2.1 million was to be
spent to begin renovating Building 4 to accommodate the instruments
shop, which is currently occupying prime laboratory space in Building 1.
The remainder of the estimated $3.7 million needed to complete the
renovations would be funded from future appropriations.

The $500,000 request for FY 2001 is related to the electrical project
described in the preceding paragraph, and would provide for the design for
laying the underground line to the campus. Had the $8 million reprogram-
ming been approved, this funding would have no longer been needed.

Although the Department determined that no funds were available for the
reprogramming, our limited initial review led us to conclude that NIST’s
plans for the use of the funds involved in the reprogramming request
appeared reasonable in that the electrical project would have provided a
more reliable source of power, and renovating Building 4 would have freed
up 12,200 square feet of prime laboratory space for programs that need it.
Boulder, the older of the two NIST campuses, has significant renovation,
construction, safety, and maintenance needs. The agency estimates that



Commerce OIG Semiannual Report
September 2000
                                                                                               67
Technology Administration


                       Boulder has $64.4 million in deferred maintenance projects, and as the site
                       ages, items continue to be added to the list. However, we also
                       acknowledged that we had not recently assessed NIST’s total construction
                       needs, its prioritization of those needs, and any spending plan to address
                       them.

                       Building and Fire Code Activities
                       with the Kingdom of Saudi Arabia

                       Under a 1996 memorandum of understanding (MOU), NIST provided
                       $625,000 to a U.S. building code organization to help promote the sale and
                       use of U.S. construction industry products and services in foreign
                       countries. The Subcommittee asked that we inquire into how the funds
                       were spent. Related to this was a dispute with Saudi Arabia on building
                       codes work under the MOU (roughly half the $625,000 was spent on the
                       Saudi Arabia project; most of the balance was spent on building code
                       projects in the Caribbean). We were also asked to report on the nature of
                       the dispute and provide the current status.

                       Our limited review of the available documentation indicated that most of
                       the funds spent under the MOU went for salaries and travel on projects in
                       Saudi Arabia and the Caribbean. The documentation lists what appear to
                       be legitimate activities conducted with these funds under the MOU. NIST
                       believes the MOU’s purposes were accomplished—namely, assisting the
                       U.S. construction industry in gaining access to global markets by coop-
                       erating with the governments of other nations and private organizations to
                       adopt U.S. construction codes, standards, and practices. The ultimate
                       value of this project will not be known for several years until it is clear
                       whether U.S. firms in fact have greater access to those markets.

                       In February 1999, a dispute arose between Saudi Arabia and another U.S.
                       building code organization involved in the project over the payment of
                       licensing and royalty fees for the draft building and fire codes. As a result,
                       at one point Saudi Arabia suggested that it might abandon the MOU and
                       instead adopt European or Japanese building codes. On June 5, 2000, after
                       strenuous efforts by Department and NIST officials, an agreement was
                       reached under which the U.S. organization agreed to a compromise,
                       receiving only its direct costs for the project and giving up any licensing or
                       royalty payments in order to resolve the dispute. The codes were delivered
                       to Saudi Arabia in July 2000, and the MOU has been renewed for another
                       3 years. (Office of Inspections and Program Evaluations)




                                                                   Commerce OIG Semiannual Report
68                                                                                September 2000
                                                                           Technology Administration


NIST Scientist Pays $30,000
to Settle Government’s Claim

A senior NIST scientist agreed to pay the United States $30,000 to resolve
charges that he had violated the False Claims Act and federal conflict of
interest law in connection with the development of a robotic device by his
division. An OIG investigation found that the scientist owned a patent for a
stabilized lifting platform, which was an integral part of a robotic crane
being developed at NIST. During 1993 and 1994, he committed govern-
ment funds allocated to his division to develop and fine-tune the crane and
thereby enhance the value of his own patent, without disclosing his
financial interest in the platform to the Department.

When the scientist’s ownership of the platform patent came to the
Department’s attention, he agreed to sell the patent to the government.
OIG investigators concluded that, by failing to disclose that he had used
government resources to develop the platform, the scientist made false
statements to the Department’s Office of General Counsel when he was
negotiating the sale of his patent. The scientist disputed the OIG’s findings,
but entered into a settlement agreement after being notified of the
government’s intention to prosecute its claims through a civil lawsuit.
(Financial Fraud Division)




Commerce OIG Semiannual Report
September 2000
                                                                                                 69
                                             Departmental Management

                                             Most Discretionary Funding Decisions Are
                 CFO and                     Merit-Based, but Processes Can Be Improved
           Assistant Secretary
            for Administration
                                             Seven Commerce operating units administer 72 discretionary financial
        Chief                                assistance programs providing more than $1 billion a year, or about a
     Information                  Security
        Officer
                                             quarter of the Department’s budget, to state and local governments,
                                             nonprofit and for-profit organizations, and individuals. At the request of
                                             the Chairman, Senate Committee on Commerce, Science, and Trans-
                              Financial
       Budget
                             Management
                                             portation, the OIG conducted a comprehensive audit of the Department’s
                                             discretionary funding programs to identify the laws, regulations, and
                                             procedures established to guide officials in making discretionary spending
 Management                    Human         decisions, to evaluate the policies and procedures applicable to Commerce
     and                      Resources
 Organization                Management      financial assistance programs, and to determine to what extent the policies
                                             and procedures were being followed.
 Acquisition                        Civil
 Management                        Rights
                                             We classified each of the 72 financial assistance programs as being either a
                                             “full discretion” or “limited discretion” program, based on the extent to
                                             which its authorizing legislation limited the operating unit’s authority to
                              Small and      independently determine the recipients and amounts of the awards. We
 Administrative
                            Disadvantaged
   Services                                  classified 34 of the programs as limited discretion programs, and the other
                            Business Util.
                                             38 as full discretion programs. Because 5 of the full discretion programs
                Exec. Budgeting              had been inactive in recent years, we conducted individual audits of the
                and Assistance               remaining 33 and issued a report on each.
                 Management

                                             A primary purpose of the Federal Grant and Cooperative Agreement Act is
                                             to encourage competition in the award of federal financial assistance to the
                                             maximum extent practicable, in order to ensure that financial assistance
                                             awards are made on the basis of merit. We therefore evaluated the 33
                                             programs on their adherence to the following three critical elements that
                                             OMB has identified as being essential to ensuring effective competition:

                                             ˜       Widespread solicitation of eligible applicants and disclosure of
                                                     essential application and program information in written
                                                     solicitations.

                                             ˜       Independent application reviews that consistently apply written
                                                     program evaluation criteria.

                                             ˜       Written justification for award decisions that deviate from
                                                     recommendations made by application reviewers.

                                             After reporting on each of the 33 programs, we then issued a “capping”
                                             report, summarizing the results of the individual audits; identifying cross-
                                             cutting issues; highlighting best practices; identifying weaknesses in

                                                                                         Commerce OIG Semiannual Report
70                                                                                                      September 2000
                                                                        Departmental Management


departmental policies, procedures, and practices; and offering recommen-
dations for correcting them.

We found that of the 33 full discretion programs, 21 (or nearly two-thirds),
accounting for about 92 percent of the total obligations made for financial
assistance programs in FY 1997, were administered competitively using
evaluation criteria designed to result in merit-based funding decisions.
Nevertheless, we found opportunities for the operating units to improve
aspects of their awards processes. Our findings related to the three critical
elements identified by OMB are summarized below.

Solicitation and disclosure. All but 3 of the 21 competitive programs
were meeting the Department’s minimum requirement of placing a notice
in the Federal Register soliciting applications for funding and clearly
stating the criteria to be used in evaluating applications. We noted,
however, that many of the programs could improve the effectiveness of
their solicitations by adopting other programs’ best practices, such as
soliciting through Internet announcements, mailing lists, and trade
publications.

Independent application reviews. Eighteen of the 21 competitive
programs used written competitive procedures and merit-based criteria in
evaluating applications for funding, but most of these programs could
enhance the integrity of their review processes by increasing the independ-
ence of review panels and better documenting the results of the reviews.
For example, only 7 of the 21 programs used panels that included at least
one member from outside of the chain of command of the selecting
official, and only 12 of the 21 adequately documented their application
reviews.

Justification for decisions that deviate from recommendations. In
only 8 of the 21 competitive programs did selecting officials’ decisions
deviate from panel recommendations. But the reasons for the deviations
were not adequately documented in 5 of the 8 programs.

Twelve of the 33 full discretion programs did not use competitive
procedures in making award decisions, but instead obligated program funds
through inadequately or inappropriately justified sole-source awards.
Although departmental and other federal guidelines recognize that
individual proposals may be justified for noncompetitive funding on an
exception basis, an entire program should generally not be administered on
a noncompetitive basis, as these 12 were, unless authorized by law. Absent
such legislative direction, there should be an appropriate basis and ade-
quate written justification for individual noncompetitive awards.


Commerce OIG Semiannual Report
September 2000
                                                                                             71
Departmental Management


                    Although the Department has policies and procedures in place to
                    encourage competition in the award of financial assistance, we believe
                    that improvements can be made by institutionalizing best practices and
                    strengthening Department-level technical assistance. Accordingly, to
                    augment the recommendations we made in our reports on the 33 individual
                    program audits, our capping report contained a series of recommendations
                    to the Department aimed at helping its operating units improve their
                    financial assistance award processes by clarifying minimal departmental
                    expectations for competition and providing appropriate leadership and
                    training.

                    Agreeing that opportunities exist to improve the financial assistance award
                    processes, the Department concurred in all of our recommendations. We
                    are pleased by the Department’s concurrence and, in particular, by its
                    agreement to institutionalize the recommended improvements by incor-
                    porating them into the departmental grants and cooperative agreements
                    manual that is currently under development. (Atlanta Regional Office of
                    Audits: ATL-10835)

                    Improvements Are Needed in the Handling
                    of Interagency and Other Special Agreements
                    The Department of Commerce relies heavily on interagency and other
                    special agreements to perform its mission. In FY 1997, for example, Com-
                    merce had more than 4,700 agreements, involving more than $1 billion in
                    funds received for reimbursable activities or obligated to acquire goods or
                    services from other parties. (The table on the following page shows, by
                    bureau, the number of agreements identified and their estimated value.)
                    These agreements can be between Commerce bureaus or between a
                    bureau and another federal agency, a state or local government agency, an
                    educational institution, a nonprofit organization, or a private party.
                    Although agreements involve significant federal resources, they are not
                    subject to the same administrative controls as procurement contracts,
                    grants, or cooperative agreements.

                    The OIG recently issued the last in a series of reports on its Department-
                    wide review of interagency and special agreements. The report summar-
                    ized cross-cutting issues we identified during our reviews of the handling of
                    such agreements at 10 Commerce bureaus and during earlier reviews. In
                    addition to identifying common problems that Commerce bureaus have
                    experienced in preparing and administering agreements, we also highlighted
                    several “best practices” that may be helpful to the bureaus. A summary of
                    our findings follows:



                                                               Commerce OIG Semiannual Report
72                                                                            September 2000
                                                                         Departmental Management


                                           FY 1997 Agreements
  Bureau
                                     Number                 Value
  BXA                                        15                $2,342,000
  EDA                                        33                14,929,000
  ESA                                       756               213,509,000
  ITA                                       109                36,209,000
  MBDA                                       23                 3,591,000
  NOAA                                    2,038               470,015,000
  NTIA                                      120                30,780,000
  Office of the Secretary                   206                23,970,000
  TA                                      1,400               267,070,000
  USPTO                                      55                49,215,000
  Total                                   4,755            $1,111,630,000


Most of the agreements appeared to serve important and appropriate
functions. Most bureaus are using agreements to cover activities that
should be funded by an agreement and that further Commerce’s varied
missions. Nevertheless, it is important to maintain diligent oversight of
such agreements to prevent potential problems. For example, accepting too
much reimbursable work can divert a program from its primary mission,
and operating a program in Commerce that is funded and guided mostly by
another agency can prevent the government from realizing the efficiencies
that can be gained by properly placing the function in that agency.

Some bureaus have entered into informal arrangements without a
written agreement. During our reviews, we came across instances in
which bureaus improperly performed work for other parties without the
benefit of a written agreement. Conducting such activities without a
written agreement violates departmental and agency policies and puts the
U.S. government’s interests and credibility at risk.

Agreements have sometimes been used when a procurement contract
would have been more appropriate. Several bureaus circumvented
procurement laws and regulations by using agreements instead of procure-
ment contracts to acquire goods and services. Program officials need to be
informed, through training or other guidance, about how to best determine
when a procurement contract, rather than an agreement, is the most
appropriate instrument for an anticipated funds transfer to a private entity.



Commerce OIG Semiannual Report
September 2000
                                                                                              73
Departmental Management


                    Agreements have sometimes been used when financial assistance
                    awards would have been more appropriate. During our reviews, we
                    questioned whether some officials and staff were inappropriately using
                    agreements in lieu of grants or cooperative agreements to provide financial
                    assistance. In one bureau, agreements were used instead of financial
                    assistance awards to fund an entire program, although the nature of the
                    activity better fit the definition of a cooperative agreement or a grant. We
                    pointed out that switching to a financial assistance award would improve
                    the funding process and strengthen the bureau’s ability to monitor projects.
                    The bureau in question agreed, and has since switched to using coopera-
                    tive agreements for this program. The Department needs to provide clear
                    instructions and oversight to ensure that agreements are not used when the
                    appropriate funding instrument is a grant or cooperative agreement.

                    The Department is improving the process for preparing and moni-
                    toring agreements. In an earlier report, we urged the Department to take
                    a stronger role in overseeing how the bureaus draft, implement, and
                    administer agreements (see September 1998 issue, page 72). That report
                    also discussed the most common deficiencies found during our reviews,
                    including a failure to comply with federal requirements and to receive
                    necessary programmatic, administrative, and legal reviews. We are pleased
                    to note that the Department has made it a priority to develop Department-
                    wide guidance for agreements in the form of a handbook, which is to be
                    issued as soon as possible.

                    Bureaus generally do not adequately track and control agreements. A
                    common problem we observed was that few bureaus adequately tracked
                    and controlled their agreements. Different bureaus had different ways of
                    classifying agreements, they frequently overlooked agreements made with
                    other Commerce entities, and some tracked expired and inactive agree-
                    ments. As a result, we found inconsistent reporting of agreements among
                    bureaus. In earlier reports, we recommended that both the Department and
                    the bureaus develop databases to track and control their agreements.
                    Although some progress has been made in implementing our recommen-
                    dations, this matter warrants additional management attention.

                    Some bureaus need to better ensure full cost recovery under reim-
                    bursable agreements. Considering the significant amount of reimbursable
                    work performed by the bureaus, full cost recovery is a serious concern. A
                    bureau’s failure to recover actual costs or to equitably apportion costs
                    under joint agreements could result in its undercharging or overcharging
                    the sponsoring organization in circumvention of the appropriations process.
                    Unfortunately, we found many examples of Commerce bureaus not
                    adequately accounting for or recovering the full costs of reimbursable
                    activities. To correct this problem, bureau chief financial officers and other

                                                                Commerce OIG Semiannual Report
74                                                                             September 2000
                                                                           Departmental Management


senior managers need to be held accountable for implementing reliable sys-
tems for identifying and recovering the full costs of reimbursable activities.

We made a number of recommendations to the Department to address the
cross-cutting concerns raised in our report. These recommendations were
in addition to those made in our 10 earlier reports covering individual
bureaus. The Department agreed with our findings and recommendations
and said that corrective actions were underway. (Office of Inspections and
Program Evaluations: IPE-9460)

Critical Infrastructure Protection: Early
Strides Were Made, but Progress Has Slowed
Presidential Decision Directive 63, issued in May 1998, called for a
national effort to ensure the security of the nation’s critical infrastructures,
also known as minimum essential infrastructure (MEI), which are the
physical and cyber-based assets essential to the minimum operations of the
economy and the government. Advances in information technology have
caused infrastructures to become increasingly automated and interlinked,
thereby creating new vulnerabilities to human error, natural disasters, and
physical and cyber-attacks.

The Department has responsibility for planning and executing a program
for protecting the assets it manages, and the Chief Information Officer
(CIO) is responsible for that program. To comply with the directive, the
CIO has developed a critical infrastructure protection (CIP) plan, identified
the Department’s critical infrastructure assets, and conducted vulnerability
assessments of some of those assets.

The OIG conducted a review to evaluate the Department’s CIP plan,
identification of assets, and vulnerability assessments of its cyber-based
assets. We focused on the CIO’s management of the CIP program, with
emphasis on the seven operating units containing the most critical assets:
NOAA, the Census Bureau, USPTO, BXA, NIST, BEA, and NTIA. Our
review was conducted as part of a joint review involving 20 other federal
Offices of Inspector General.

We found that the Department had made initial progress in implementing
the directive by developing a Department-wide CIP plan, identifying criti-
cal infrastructure assets, and initiating vulnerability assessments. However,
we also identified several areas that warrant management attention:

˜       The Department’s CIP plan needs to be revised. Several
        elements of the plan are outdated or missing, and important


Commerce OIG Semiannual Report
September 2000
                                                                                                75
Departmental Management


                            milestones have slipped. The asset inventory, vulnerability
                            assessment framework, and budget estimates included in the plan
                            are not current. Among the omissions are requirements for
                            reviewing new assets to determine whether they should be
                            included as MEI, periodically updating vulnerability assessments,
                            developing a system for responding to infrastructure attacks, and
                            notifying the OIG of such attacks. Progress in implementing the
                            directive has been slower than expected because of a lack of
                            funding. The CIO informed us that his office plans to revise the
                            CIP plan by November 2000. We recommended that the revised
                            plan include the updated and omitted components.

                    ˜       The MEI asset inventory should be reevaluated. Although a
                            systematic process was applied in compiling the inventory, the
                            data gathering had significant limitations. In most cases, asset
                            managers were neither interviewed nor given adequate guidance
                            before filling out complex questionnaires used to gather asset
                            information. Officials most knowledgeable about the assets were
                            seldom interviewed because of logistical problems and the limited
                            resources available for the inventory. Establishing a reliable MEI
                            inventory is important because it forms the basis for later
                            activities, such as selecting the highest risk assets for vulnerability
                            assessments and taking remedial actions. We recommended that
                            the Department reevaluate its MEI assets using a revised
                            methodology that includes improved guidance and increased
                            interaction with the operating units.

                    ˜       Vulnerability assessments, remediation plans, and budget
                            justifications need to be completed. OMB will not provide
                            funding for CIP activities without detailed budget requests based
                            on vulnerability assessments and remediation plans. Due to
                            resource constraints, however, the Department has current
                            vulnerability assessments for less than 10 percent of MEI assets
                            and has not developed any remediation plans. As a result, it has
                            received no funding for CIP activities. Because of the importance
                            of protecting the Department’s critical assets and the need for CIP
                            funding, we recommended that the CIO form assessment teams of
                            personnel from the Department and the bureaus, and hold operat-
                            ing units—supported by these teams—accountable for completing
                            vulnerability assessments, remediation plans, and improved CIP
                            budget justifications.

                    The CIO recognized the merit of our recommendations, but reiterated that
                    the lack of funding for CIP activities impedes the Department’s progress in


                                                                 Commerce OIG Semiannual Report
76                                                                              September 2000
                                                                        Departmental Management


implementing the directive. He stated that the Department’s focus will be
on the broad spectrum of information technology security, which
emphasizes assets critical to the Department’s mission and includes most
cyber-based MEI assets.

He also reported that short-term actions were being taken to implement
several of our recommendations, including improving guidance to operating
unit personnel involved in vulnerability assessments and increasing their
involvement in the MEI asset inventory, revising the MEI asset list,
revising target dates for completing CIP-related tasks, evaluating new
assets to determine whether they should be included as MEI, and
developing a mechanism for notifying the OIG of infrastructure attacks.
The CIO will make major revisions to the CIP plan and incorporate the
remaining outdated or missing elements as resources permit. In addition,
the Department plans to prepare remediation plans as assets are assessed
for vulnerabilities and use these plans to develop budget projections.
(Office of Systems Evaluation: OSE-12680)

Controls over Approvals for and Testing
of CAMS Software Need Improvement
During this semiannual period, the OIG reported on the adequacy of
controls over application software development and change control of the
Commerce Administrative Management System Support Center. Applica-
tion software development and change control, which helps prevent the
implementation of unauthorized programs or modifications to existing
programs, is one of six areas identified for review by GAO’s Federal
Information System Controls Audit Manual. The other five areas were
addressed in an OIG report issued last February (see March 2000 issue,
page 86).

The Department undertook the development of CAMS to address its lack
of a single, integrated financial system. CAMS is currently functional at the
Census Bureau, and certain system modules are being used by EDA and
NOAA. The system is projected to be fully implemented by FY 2004. The
Support Center, located in Gaithersburg, Maryland, is responsible for
making changes to CAMS as part of its software development and
implementation activities.

Our audit revealed that although the Support Center issued new software
development and maintenance procedures in May 2000 and has taken
other steps to improve its operations, additional improvements were
needed in the controls over approvals of software features and modifi-
cations, and the testing of new and revised software. Specifically:


Commerce OIG Semiannual Report
September 2000
                                                                                             77
Departmental Management


                    ˜       One person was serving as the director of two Support Center
                            divisions with conflicting responsibilities. Allowing one person
                            to have responsibility over conflicting duties decreases effective
                            planning and management and increases risk.

                    ˜       Decisions to change CAMS have not been adequately
                            documented. Failing to document approvals of software changes
                            limits management’s ability to support and justify its decisions.

                    ˜       System testing is not performed for most CAMS modules. A
                            lack of complete system testing reduces the Support Center’s
                            assurance that the software will operate as intended.

                    ˜       System documentation does not reflect the current state of
                            CAMS software. The lack of up-to-date documentation increases
                            the risk that the software may not meet operational needs, and
                            could result in significant delays and unnecessary costs when
                            future modifications are made to the software.

                    We recommended that the Department segregate duties having conflicting
                    internal control responsibilities, document all decisions that support
                    approved changes to CAMS, perform system testing of all CAMS modules
                    and document the results, and update system documentation to reflect the
                    current version of the software.

                    The Department generally agreed with our findings and described actions
                    that had been initiated to implement our recommendations. Specifically,
                    the Support Center has hired a new director for one of the two divisions to
                    correct the problem of conflicting responsibilities, required that documen-
                    tation be maintained for all decision bodies associated with CAMS, taken
                    steps to have all CAMS modules be subject to full system testing by May
                    2001, and begun an assessment of the state of systems documentation.
                    (Financial Statements Audits Division: FSD-12940)

                    Employee Receives 14-Day Suspension
                    for False Statement in OIG Investigation
                    An Office of Security employee was suspended for 14 days for making a
                    false statement during an official inquiry. During an OIG investigation, the
                    employee provided a sworn statement in which he falsely asserted that he
                    had not been paid for administratively uncontrollable overtime, although he
                    had, in fact, received overtime payments during the relevant time period.
                    (Washington Field Office of Investigations)


                                                               Commerce OIG Semiannual Report
78                                                                            September 2000
                                                                          Departmental Management


Preaward Financial Assistance Screening

We continue to work with the Office of Executive Budgeting and Assist-
ance Management, NOAA and NIST grant offices, and EDA program
offices to screen the Department’s proposed grants and cooperative
agreements before award. Our screening serves two functions: It provides
information on whether the applicant has unresolved audit findings and
recommendations on earlier awards, and it determines whether a name
check or investigation has revealed any negative history on individuals or
organizations connected with a proposed award.

During this period, we screened 1,488 proposed awards. On 13 of the
awards, we found major deficiencies that could affect the ability of the
proposed recipients to maintain proper control over federal funds. On the
basis of the information we provided, the Department either delayed the
awards until concerns were satisfactorily resolved or established special
award conditions to adequately safeguard federal funds.


                       Preaward Screening Results

                 Results                      Number            Amount
  Awards delayed to resolve concerns             12            $34,065,802

  Special award conditions established            1                680,632



Indirect Cost Rates
Under OMB policy, a single federal agency—the “cognizant agency”—is
responsible for the review, negotiation, and approval of indirect cost rates
for public and private entities receiving funds under various federal
programs. Normally, the federal agency providing the most direct funding
to an entity is designated as its cognizant agency. OMB has designated
Commerce as the cognizant agency for 280 economic development
districts, as well as a number of state and local government units. From
time to time, the Department also has oversight responsibilities for other
recipient organizations. The Department has authorized the OIG to
negotiate indirect cost rates and review cost allocation plans on its behalf.
The OIG reviews and approves the methodology and principles used in
pooling indirect costs and establishing an appropriate base for distributing
those costs to ensure that each federal, state, and local program bears its
fair share.



Commerce OIG Semiannual Report
September 2000
                                                                                               79
Departmental Management


                    During this period, we negotiated 23 indirect cost rate agreements with
                    nonprofit organizations and governmental agencies, and reviewed and
                    approved 22 cost allocation plans. We also provided technical assistance to
                    recipients of Commerce awards regarding the use of rates established by
                    other federal agencies and their applicability to our awards. Further, we
                    have worked closely with first-time for-profit recipients of Commerce
                    awards to establish indirect cost proposals that are acceptable for OIG
                    review. (Atlanta Regional Office of Audits)

                    Nonfederal Audit Activities
                    In addition to OIG-performed audits, the Department’s financial assistance
                    recipients are periodically audited by state and local government auditors
                    and by independent public accountants. OMB Circular A-133, Audits of
                    States, Local Governments, and Non-Profit Organizations, sets forth the
                    audit requirements for most of these audits. For-profit organizations that
                    receive Advanced Technology Program (ATP) funds from NIST are
                    audited in accordance with Government Auditing Standards and NIST
                    Program-Specific Audit Guidelines for ATP Cooperative Agreements,
                    issued by the Department.

                    We examined 350 audit reports during this semiannual period to determine
                    whether they contained any audit findings related to Department
                    programs. For 236 of these reports, the Department acts as oversight
                    agency and monitors the auditee’s compliance with the applicable OMB
                    circulars or the NIST program-specific reporting requirements. The other
                    114 reports are from entities for which other federal agencies have
                    oversight responsibility.


                                                                    ATP
                                                      OMB         Program-
                                                     A-133         Specific
                        Report Category              Audits        Audits           Total

                   Pending (April 1, 2000)              15            96             111

                   Received                            180           100            280

                   Examined                            188           162            350

                   Pending (September 30, 2000)          7            34              41




                                                              Commerce OIG Semiannual Report
80                                                                           September 2000
                                                                      Departmental Management


The following table shows a breakdown by bureau of the $511 million in
Commerce funds audited.


            Bureau                               Funds
   EDA                                                     $75,909,682

   ITA                                                         576,678

   MBDA                                                      2,269,914
   NIST                                                    266,624,602 *
   NOAA                                                    133,905,971

   NTIA                                                      3,799,918

   Agency not identified                                    27,617,737

                     Total                                $510,704,502

* Includes $228,123,958 in ATP program-specific audits.

We identified a total of $3,578,891 in questioned costs. In most reports,
the Department’s programs were considered nonmajor, resulting in limited
transaction and compliance testing against laws, regulations, and grant
terms and conditions. The 23 reports with Commerce findings are listed in
Appendix B-1. (Atlanta Regional Office of Audits)




Commerce OIG Semiannual Report
September 2000
                                                                                           81
                         Reporting Requirements


                                                   INDEX
      The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for semiannual
      reports. The requirements are listed below and indexed to the applicable pages of this report.


               Section                                        Topic                                 Page

     4(a)(2)                 Review of Legislation and Regulations                                     83

     5(a)(1)                 Significant Problems, Abuses, and Deficiencies                         21-81

     5(a)(2)                 Significant Recommendations for Corrective Action                      21-81

     5(a)(3)                 Prior Significant Recommendations Unimplemented                           83

     5(a)(4)                 Matters Referred to Prosecutive Authorities                            21-81

     5(a)(5) and 6(b)(2)     Information or Assistance Refused                                         83

     5(a)(6)                 Listing of Audit Reports                                               91-95

     5(a)(7)                 Summary of Significant Reports                                         21-81

     5(a)(8)                 Audit Reports—Questioned Costs                                            88

     5(a)(9)                 Audit Reports—Funds to Be Put to Better Use                               89

     5(a)(10)                Prior Audit Reports Unresolved                                        19, 84

     5(a)(11)                Significant Revised Management Decisions                              19, 84

     5(a)(12)                Significant Management Decisions with Which the OIG Disagreed             85

 The OIG is also required by section 804(b) of the Federal Financial Management Improvement Act of 1996
 to report on instances and reasons when an agency has not met the dates of its remediation plan. We will
 discuss this matter in the March 2001 issue as part of our financial statement audit reporting.




                                                                                 Commerce OIG Semiannual Report
82                                                                                              September 2000
                                                                              Reporting Requirements


Section 4(a)(2): Review of
Legislation and Regulations

This section requires the Inspector General of each agency to review
existing and proposed legislation and regulations relating to that agency’s
programs and operations. Based on that review, the Inspector General is
required to make recommendations in the semiannual report concerning
the impact of such legislation or regulations on the economy and
efficiency in the administration of programs and operations administered
or financed by the agency or on the prevention and detection of fraud and
abuse in those programs and operations. Our comments concerning
legislative and regulatory initiatives affecting Commerce programs are
discussed in appropriate sections of the report.

Section 5(a)(3): Prior Significant
Recommendations Unimplemented
This section requires an identification of each significant recommendation
described in previous semiannual reports on which corrective action has
not been completed. Section 5(b) requires that the Secretary transmit to
the Congress statistical tables for audit reports for which no final action
has been taken, plus an explanation of the reasons final action has not
been taken on each such report, except when the management decision
was made within the preceding year.

To include a list of all significant unimplemented recommendations in this
report would be duplicative, costly, unwieldy, and of limited value to the
Congress. Any list would have meaning only if explanations detailed
whether adequate progress is being made to implement each agreed-upon
corrective action. Also, as this semiannual report was being prepared,
management was in the process of updating the Department’s Audit
Tracking System as of September 30, 2000, based on semiannual status
reports due from the bureaus in mid-October. An accurate database was
therefore not available to the OIG for reference here. However, additional
information on the status of any audit recommendations may be obtained
through the OIG’s Office of Audits.

Sections 5(a)(5) and 6(b)(2): Information
or Assistance Refused

These sections require a summary of each report to the Secretary when
access, information, or assistance has been unreasonably refused or not
provided. There were no such instances during this semiannual period,
and no reports to the Secretary.
Commerce OIG Semiannual Report
September 2000
                                                                                                 83
Reporting Requirements


                         Section 5(a)(10): Prior Audit Reports Unresolved

                         This section requires a summary of each audit report issued before the
                         beginning of the reporting period for which no management decision has
                         been made by the end of the reporting period (including the date and title
                         of each such report), an explanation of the reasons such management
                         decision has not been made, and a statement concerning the desired
                         timetable for achieving a management decision on each such report.

                         As of September 30, 2000, one performance audit and one financial
                         assistance audit were in this category, as discussed below.

                         Performance Audit

                         The unresolved report addresses the need for NOAA to improve the
                         competitive review practices of OAR’s Climate and Atmospheric Research
                         Program. This report is discussed on page 56.

                         Financial Assistance Audit

                         The unresolved audit relates to an EDA award to a nonprofit grantee in
                         Texas. The report is discussed on page 25.

                         Section 5(a)(11): Significant Revised
                         Management Decisions
                         This section requires an explanation of the reasons for any significant re-
                         vised management decision made during the reporting period. Department
                         Administrative Order 213-5, Audit Resolution and Follow-up, provides
                         procedures for revision of a management decision. For performance
                         audits, the OIG must be consulted and must approve, in advance, any
                         modification to an audit action plan. For financial assistance audits, the
                         OIG must concur with any decision that would change the audit resolution
                         proposal in response to an appeal by the recipient.

                         The decisions issued on the seven appeals of audit-related debts were
                         finalized with the full participation and concurrence of the OIG.




                                                                    Commerce OIG Semiannual Report
84                                                                                 September 2000
                                                                           Reporting Requirements


Section 5(a)(12): Significant Management
Decisions with Which the OIG Disagreed

This section requires information concerning any significant management
decision with which the Inspector General is in disagreement.

Department Administrative Order 213-5 provides procedures for the eleva-
tion of unresolved audit recommendations to higher levels of Department
and OIG management, including an Audit Resolution Council. During this
period, no audit issues were referred to the Council.




Commerce OIG Semiannual Report
September 2000
                                                                                               85
                            Statistical Highlights

                              Audit
                     Statistical Highlights

 Questioned costs this period ...........................................          $4,488,978

 Value of audit recommendations made
 this period that funds be put to better use .....................                   2,107,989

 Value of audit recommendations agreed
 to this period by management .........................................            13,927,695

 Value of inspection recommendations made
 this period that funds be put to better use .................. ....                     489,701



                                                       Investigative
                                                   Statistical Highlights
                           Indictments and informations ............................................................. 6
                           Convictions ....................................................................................... 3
                           Personnel actions*............................................................................ 7
                           Fines, restitutions, judgments, and other civil
                           and administrative recoveries ................................................                 $86,013
                            * Includes removals, suspensions, reprimands, demotions, and resignations or retirements in
                              lieu of adverse action.




                                                                        Allegations Processed
                                                                         by OIG Investigators
                                                                                 Accepted for investigation .......................................            34
                                                                                 Referred to operating units ...................................... 406
                                                                                 Evaluated but not accepted for
                                                                                 investigation or referral ............................................ 159
                                                                                 Total ........................................................................ 599
                                                                                 Note: Numerous other allegations and complaints were forwarded
                                                                                 to the appropriate federal and nonfederal investigative agencies.

                                                                                          OIG HOTLINE
                                                                Telephone:             (202) 482-2495 or (800) 424-5197
                                                                Internet E-Mail:       oighotline@doc.gov



                                                                                                                    Commerce OIG Semiannual Report
86                                                                                                                                 September 2000
               Tables and Appendixes


   TABLES                                                                                                           PAGE

   1. Audits with Questioned Costs                                                                                       88

   2. Audits with Recommendations That Funds Be Put to Better Use                                                        89


   APPENDIXES
   A. Office of Inspector General Reports                                                                                90

       A-1. Performance Audits                                                                                           91

       A-2. Inspections                                                                                                  92

       A-3. Financial Related Audits                                                                                     93

   B. Processed Reports                                                                                                  94

       B-1. Processed Financial Related Audits                                                                           94


   DEFINITIONS
   The term questioned cost refers to a cost that is questioned by the OIG because of (1) an alleged violation of a
   provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
   expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
   (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

   The term unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate documentation.
   Questioned costs include unsupported costs.

   The term recommendation that funds be put to better use refers to a recommendation by the OIG that funds could be
   used more efficiently if Commerce management took action to implement and complete the recommendation, including
   (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest subsidy costs
   on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended improvements
   related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in preaward
   reviews of contracts or grant agreements; or (6) any other savings that are specifically identified.

   The term management decision refers to management’s evaluation of the findings and recommendations included in
   the audit report and the issuance of a final decision by management concerning its response.




Commerce OIG Semiannual Report
September 2000
                                                                                                                              87
Tables and Appendixes



     Table 1: Audits with Questioned Costs
                                                                                             Questioned            Unsupported
     Report Category                                                       Number              Costs                  Costs

     A. Reports for which no management decision had been                       9                 $458,369              $301,347
        made by the commencement of the reporting period

     B. Reports issued during the reporting period                             22                 4,488,978            1,454,632

     C. Total reports (A+B) requiring a management decision                    31                 4,947,347            1,755,979
     C. during the reporting period

     C. Reports for which a management decision was made                        9                   271,725              114,703
     C. during the reporting period

        i. Value of disallowed costs                                                                177,695              114,392

        ii. Value of costs not disallowed                                                            94,030                   311

     D. Reports for which no management decision had been                      22               $4,675,622            $1,641,276
     D. made by the end of the reporting period

      Notes and Explanations:

      In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater than the
      original recommendations.

      Two audit reports included in this table are also included in the reports with recommendations that funds be put to better
      use (see table 2). However, the dollar amounts do not overlap.




                                                                                                   Commerce OIG Semiannual Report
88                                                                                                                September 2000
                                                                                       Tables and Appendixes



   Table 2: Audits with Recommendations
            That Funds Be Put to Better Use
   Report Category                                                                          Number                 Value

   A. Reports for which no management decision had been made by the .                            2             $17,977,000
      commencement of the reporting period

   B. Reports issued during the reporting period                                                 3               2,107,989

   C. Total reports (A+B) requiring a management decision during the B.                          5              20,084,989
      reporting period

   C. Reports for which a management decision was made during the C.                             3              19,927,000
      reporting period

       i. Value of recommendations agreed to by management                                                      13,750,000

       ii. Value of recommendations not agreed to by management                                                  6,177,000

   D. Reports for which no management decision had been made by the                              2                  157,989
   D. end of the reporting period

     Notes and Explanations:

     In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater than
     the original recommendations.

     Two audit reports included in this table are also included in the reports with questioned costs (see table 1). However,
     the dollar amounts do not overlap.




Commerce OIG Semiannual Report
September 2000
                                                                                                                                89
Tables and Appendixes



 Appendix A. Office of Inspector General Reports
                            Type                    Number        Appendix

 Performance Audits                                    13             A-1

 Inspections                                            9             A-2

 Financial Related Audits                               6             A-3

 Total                                                 28




                                                   Commerce OIG Semiannual Report
90                                                                September 2000
                                                                               Tables and Appendixes



   Appendix A-1. Performance Audits
  Agency                                     Subject                                     Number      Date

     BXA       Reporting of Performance Measures Needs Improvement                       FSD-12847   09/00

     ESA       Agreed-Upon Procedures and Results Assessment of Federal Audit            ATL-12556   07/00
               Clearinghouse Database: Fiscal Year 1998 Audit Reports

               Decennial Census Warehousing Operations Needed Attention                  DEN-11950   07/00

               Review of Special Population Enumerations and Questionnaire               ESD-12593   09/00
               Assistance Centers

               Re-enumeration at Three Local Census Offices in Florida: Hialeah,         ESD-13215   09/00
               Broward South, and Homestead

    NOAA       Improvements Are Needed in the Northwest Fisheries Science Center         STL-12555   06/00
               Use of Bankcards

               Small Business Innovation Research Program Award Procedures Need          DEN-11001   08/00
               Improvement, CFDA No. 11.476

    NTIA       Reporting of Performance Measures Needs Improvement                       FSD-12856   09/00

     O/S       Most Departmental Discretionary Funding Decisions Are Competitive         ATL-10835   09/00
               and Merit-Based, but Opportunities Exist to Further Improve the Awards
               Processes

               Improvements Needed in Controls Over Approvals for and Testing of         FSD-12940   09/00
               CAMS Software

   USPTO       Efforts to Protect U.S. Intellectual Property Rights Overseas Should Be   BTD-11747   08/00
               Strengthened

               Improved Internal Controls Needed for Office of Human Resources           BTD-12830   09/00

   TA-NIST     Measurement and Engineering Research and Standards Program                DEN-10958   09/00
               Should Expand Use of Competitive Award Procedures




Commerce OIG Semiannual Report
September 2000
                                                                                                             91
Tables and Appendixes



 Appendix A-2. Inspections
                                                                                                        Funds to Be
                                                                                                        Put to Better
 Agency                                Subject                                 Number           Date         Use

     ESA    Telephone Questionnaire Assistance Contract Needs                  OSE-12376        08/00              --
            Administration and Surveillance Plan

            Local Census Offices Were Successfully Opened, but Some            IPE-11573        09/00        $476,000
            Lessons Can Be Learned From Decennial Leasing Operations

            Review of the Special Census of the Village of Machesney           IPE-12045        09/00              --
            Park, Illinois

            A Better Strategy Is Needed for Managing the Nation’s Master       OSE-12065        09/00              --
            Address File

            Unjustified Decennial Census Unemployment Compensation             IPE-13212        09/00              --
            Claims Should Be Reduced Because Terminations for Cause
            Were Mostly Well Documented

     ITA    US&FCS Overseas Security: Results and Improved                     IPE-12708        08/00              --
            Management Are Needed

     NOAA   Raleigh Weather Forecast Office Provides Valuable Services,        IPE-12661        09/00          13,701
            but Needs Improved Management and Internal Controls

     O/S    Improvements Are Needed in Commerce Agencies’                      IPE-9460         09/00              --
            Implementation and Oversight of Interagency and Other
            Special Agreements

            Critical Infrastructure Protection: Early Strides Were Made, but   OSE-12680        08/00              --
            Planning and Implementation Have Slowed




                                                                                           Commerce OIG Semiannual Report
92                                                                                                        September 2000
                                                                                                         Tables and Appendixes



   Appendix A-3. Financial Related Audits
                                                                                                  Funds to
                                                                           Questioned Unsupported Be Put to
  Agency                 Auditee                    Number            Date   Costs       Costs    Better Use

    EDA         Quality Control Review             DEN-12071          04/00                  --                       --                   --
                of Rehmann Robson,
                CPAs & Consultants, for
                the Single Audit of the
                County of Iosco, MI

                City of Long Beach, CA             STL-12658(1) 06/00                        --                       --                   --

                City of Long Beach, CA             STL-12658(2) 06/00                        --                       --                   --

                Iron Range Resources               DEN-13441          09/00                  --                       --       $1,950,000
                and Rehabilitation
                Board, MN

   MBDA         San Francisco Minority             STL-11406          09/00           792,896                         --            25,192
                Business Development
                Center, operated by the
                Urban Economic
                Development Corp., CA

    NTIA        University of New                  ATL-12645          09/00           117,191                 102,408              132,797
                Mexico

  Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the
  reports.




Commerce OIG Semiannual Report
September 2000
                                                                                                                                                93
Tables and Appendixes



            Appendix B. Processed Reports

           The Office of Inspector General reviewed and accepted 350 financial-related audit
           reports prepared by independent public accountants and local, state, and other federal
           auditors. The reports processed with questioned costs, recommendations that funds be
           put to better use, and/or nonfinancial recommendations are listed in Appendix B-1.

                                        Agency                                        Audits

           Economic Development Administration                                             86

           International Trade Administration                                               1

           Minority Business Development Agency                                             4

           National Institute of Standards and Technology                                 177*

           National Oceanic and Atmospheric Administration                                 18

           National Telecommunications and Information Administration                       6

           Multi-Agency                                                                    38

           Agency Not Identified                                                           20

           Total                                                                          350

           * Includes 162 ATP program-specific audits.




 Appendix B-1. Processed Financial Related Audits

                                                                                   Questioned Unsupported
 Agency                 Auditee                          Number          Date        Costs       Costs

     EDA   Franklin County Area Development         ATL-9999-0-0269      06/00                  --          --
           Corporation, PA

           Economic Development Bank for Puerto ATL-9999-0-0306          08/00          $24,675             --
           Rico

           Jackson County, MS                       ATL-9999-0-0397      06/00                  --          --



                                                                                    Commerce OIG Semiannual Report
94                                                                                                 September 2000
                                                                                                          Tables and Appendixes


  Appendix B-1. Processed Financial Related Audits—Continued

                                                                                                               Questioned Unsupported
 Agency                            Auditee                                  Number                 Date          Costs       Costs

   EDA           Calstart, Inc., CA                                    ATL-9999-0-0434             08/00                79,407                          --

                 Black Hawk County, IA                                 ATL-9999-0-0436             08/00               205,113                          --

                 Northern Hills Community Development, ATL-9999-0-0511                             09/00               166,500                          --
                 Inc., SD

                 City of Rio Grande City, TX                           ATL-9999-0-0541             08/00                41,625                 $41,625

                 MassDevelopment, MA                                   ATL-9999-0-0575             09/00                      --                        --

 TA-NIST         Qualicon, Inc., DE                                    ATL-9999-0-0006             08/00                32,757                          --

                 Vitria Technology, Inc., CA                           ATL-9999-0-0016             08/00               269,461                 148,163

                 SI Diamond Technology, Inc., TX                       ATL-9999-0-0017             07/00               147,285                  63,152

                 Utah Health Informatics Company                       ATL-9999-0-0057             08/00               575,490                 413,197

                 BusinessBots, Inc., CA                                ATL-9999-0-0064             08/00               165,458                  77,420

                 Integra LifeSciences Corporation, NY                  ATL-9999-0-0072             09/00                79,520                  48,445

                 Solectria Corporation, MA                             ATL-9999-0-0090             06/00                  7,485                   7,485

                 NCR Corporation, Parallel Systems,                    ATL-9999-0-0091             09/00               139,165                          --
                 Inc., CA

                 Ceramatec, Inc., UT                                   ATL-9999-0-0143             08/00               929,060                          --

                 Computer Associates International, Inc., ATL-9999-0-0202                          09/00               185,748                 145,480
                 OH

                 Applied Sciences, Inc., OH                            ATL-9999-0-0247             06/00                21,031                          --

                 Rhode Island Manufacturing Extension                  ATL-9999-0-0307             08/00               138,527                  97,294
                 Services, Inc.

                 United States Surgical, MA                            ATL-9999-0-0362             08/00                  6,621                         --

                 Johnson & Johnson, Corporate                          ATL-9999-0-0451             08/00               207,000                 153,000
                 Biomaterials Center, NJ

                 Arkansas Science and Technology                       ATL-9999-0-0484             08/00               156,963                 156,963
                 Authority

  Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




Commerce OIG Semiannual Report
September 2000
                                                                                                                                                             95
                              Definitions of Types of OIG Reviews


                                           OIG Reviews
 Audits                                                  Inspections
 Performance Audits—These audits look at the             Operational Inspections—These are reviews of an
 efficiency, effectiveness, and economy of the           activity, unit, or office, or a contractor or organiza-
 Department’s programs, activities, and information      tion that receives funds from the Department. They
 technology systems. They may check a unit’s             focus on an organization, not a whole program, and
 compliance with laws and regulations, and evaluate      are designed to give agency managers timely infor-
 its success in achieving program objectives.            mation about operations, including current and
                                                         foreseeable problems.
 Financial Related Audits—These audits review the
 Department’s contracts, grants, cooperative agree-      Program Evaluations—These are in-depth reviews
 ments, loans, and loan guaranties. They assess          of specific management issues, policies, or
 compliance with laws, regulations, and award terms;     programs.
 adequacy of accounting systems and internal con-
                                                         Systems Evaluations—These are reviews of
 trols; allowance of costs; and the degree to which a
                                                         system development, acquisitions, operations, and
 project achieved the intended results.
                                                         policy in order to improve efficiency and
 Financial Statements Audits—The CFO Act, as             effectiveness. They focus on Department-wide
 amended by Government Management Reform Act,            computer systems and other technologies and
 requires federal agencies to prepare annual financial   address all project phases, including business
 statements and to subject them to audit. The OIG is     process reengineering, system definition, system
 responsible for conducting these audits and reporting   development, deployment, operations, and
 the results to the Secretary.                           maintenance.




                                                                                 Commerce OIG Semiannual Report
96                                                                                              September 2000
                Glossary of Abbreviations

ATP. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Advanced Technology Program
AWIPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Advanced Weather Interactive Processing System
BEA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Economic Analysis
BXA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Export Administration
CAMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Commerce Administrative Management System
CFDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Catalog of Domestic Financial Assistance
CFO. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Chief Financial Officer
CIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Chief Information Officer
CIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . critical infrastructure protection
EDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Economic Development Administration
ESA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Economics and Statistics Administration
GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . General Accounting Office
GPRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Government Performance and Results Act
GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . General Services Administration
GWAC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .government-wide agency contract
IG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Inspector General
ITA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . International Trade Administration
JFMIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Joint Financial Management Improvement Program
MAF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Master Address File
MBDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Minority Business Development Agency
MEI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . minimum essential infrastructure
MERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Measurement and Engineering Standards and Research
MOU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . memorandum of understanding
NIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Institute of Standards and Technology
NMFS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Marine Fisheries Service
NOAA. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Oceanic and Atmospheric Administration
NTIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Telecommunications and Information Administration
NTIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Technical Information Service
NWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Weather Service
OHR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Human Resources
OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General
OLIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Legislative and International Affairs
OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Management and Budget
PBO. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . performance-based organization
RLF. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . revolving loan fund
SBIR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Small Business Innovation Research
T A. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Technology Administration
TIGER® . . . . . . . . . . . . . . . . . . . . . . . Topographically Integrated Geographic Encoding and Referencing
TRIPS . . . . . . . . . . . . . . . . . . . . . . . . Agreement on Trade-Related Aspects of Intellectual Property Rights
TQA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Telephone Questionnaire Assistance
US&FCS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. and Foreign Commercial Service
USPTO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Patent and Trademark Office
WIPO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . World Intellectual Property Organization
WFO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . weather forecast office

Commerce OIG Semiannual Report
September 2000
                                                                                                                                                     97
                                       ƒIn Memoriam„
     The Office of Inspector General dedicates this Semiannual Report to the memory of Douglas
     Powell and Charles Rodgers.

             Douglas L. Powell (1946-2000) was a senior auditor in the headquarters
             office of our Office of Audits. He spent his entire 30-year career auditing
             Department of Commerce activities, and was one of the original staff
             members of the OIG. He is survived by his wife Audrey, a son, a daughter,
             and two stepchildren.

             Charles L. Rodgers (1958-2000) was a senior auditor in our Atlanta
             Regional Office of Audits. After working several years with the Department
             of the Army, he joined the Commerce OIG in 1979. He is survived by his
             wife Judiette and a son.

     Both Doug and Charles made invaluable contributions to the OIG and devoted a large portion
     of their many years of public service to addressing the major management challenges facing
     the Department of Commerce. Most recently, they were key members of the team that
     conducted the comprehensive review of the Department’s discretionary financial assistance
     programs that is highlighted in this report. Their efforts contributed to the significant improve-
     ments being made in these programs.

     Both of these fine men will be sorely missed by their many friends and colleagues in the OIG.




                                                                                   Commerce OIG Semiannual Report
98                                                                                                September 2000
                                Office of Inspector General
                                    Organization Chart

                                                                       Inspector
               Office of                                                General
            Compliance and                                                                                                    Office of
            Administration                                             Deputy                                                 Counsel
                                                                  Inspector General

              Office of
                                                                                                                            Office of
          Inspections and
                                                                                                                       Systems Evaluation
        Program Evaluations



                              Office of                                                                           Office of
                               Audits                                                                          Investigations



Headquarters           Financial Statements               Regional                   Financial Fraud                Investigative           Investigative
   Audits                     Audits                       Audits                         Unit                       Operations               Services




                                                  OIG Points of Contact
Inspector General .....................................(202) 482-4661          Office of Counsel ......................................(202) 482-5992
Congressional/PCIE Liaison.....................(202) 482-3052                  Office of Inspections and Program Eval. ..(202) 482-2754
Office of Audits .........................................(202) 482-1934       Office of Investigations .............................(202) 482-0934
Office of Compliance and Admin. .............(202) 482-0231                    Office of Systems Evaluation ...................(202) 482-6186
                                           TDD Number .................................... (202) 482-4948
                                           Media Inquiries .................................. (202) 482-5992
                                           REQUESTS FOR REPORTS:
                                           Telephone .......................................... (202) 482-0231
                                           Internet E-Mail ................................... oigreports@doc.gov
                                           OIG HOTLINE:
                                           Telephone .......................................... (202) 482-2495 or (800) 424-5197
                                           Internet E-Mail ................................... oighotline@doc.gov

                                                          OIG Internet Home Page
                                                http://www.oig.doc.gov
